<html>
<title> - THE PROMISES WE KEEP ONLINE: INTERNET FREEDOM IN THE OSCE REGION</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                      THE PROMISES WE KEEP ONLINE:
                  INTERNET FREEDOM IN THE OSCE REGION

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2011

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-1-7]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov                   
                                      ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-371 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
       
       
       
       
       
       
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    BENJAMIN L. CARDIN, Maryland, 
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania        SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama          TOM UDALL, New Mexico
PHIL GINGREY, Georgia                JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas            RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida           ROBERT F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,           SAXBY CHAMBLISS, Georgia
New York                             
MIKE McINTYRE, North Carolina        
STEVE COHEN, Tennessee               
                                     
                                     MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)























                      THE PROMISES WE KEEP ONLINE:

                  INTERNET FREEDOM IN THE OSCE REGION

                              ----------                              

                             July 15, 2011

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Phil Gingrey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     9
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

                               WITNESSES

Dr. Daniel Baer, Deputy Assistant Secretary for Democracy, Human 
  Rights and Labor, U.S. Department of State.....................     3
Dunja Mijatovic, Representative on Freedom of the Media, OSCE....    14
Sec. David J. Kramer, President, Freedom House...................    16
Rafal Rohozinski, Senior Scholar, Canada Center for Global 
  Security Studies and the Citizen Lab, University of Toronto....    18
Ivan Sigal, Executive Director, Global Voices....................    22
Dr. Charles Lee, Former Chinese Political Prisoner...............    25

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    48
Prepared statement of Hon. Benjamin L. Cardin....................    49
Prepared statement of Dr. Daniel Baer............................    50
Prepared statement of Dunja Mijatovic............................    56
Prepared statement of Sec. David Kramer..........................    61
Prepared statement of Rafal Rohozinski...........................    68
Prepared statement of Ivan Sigal.................................    70
Biography of Dr. Charles Lee.....................................    77

                                 (iii)

 
                      THE PROMISES WE KEEP ONLINE:
                  INTERNET FREEDOM IN THE OSCE REGION

                              ----------                              


                             July 15, 2011

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in room 210, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Phil 
Gingrey, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Steve Cohen, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present: Dr. Daniel Baer, Deputy Assistant 
Secretary for Democracy, Human Rights and Labor, U.S. 
Department of State; Dunja Mijatovic, Representative on Freedom 
of the Media, OSCE; Sec. David J. Kramer, President, Freedom 
House; Rafal Rohozinski, Senior Scholar, Canada Center for 
Global Security Studies and the Citizen Lab, University of 
Toronto; Ivan Sigal, Executive Director, Global Voices; and Dr. 
Charles Lee, Former Chinese Political Prisoner.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Commission will come to order, and good morning 
to everyone. And I want to welcome our very distinguished 
witnesses and all those who are interested in this very, very 
important topic of global online freedom.
    Sadly, online censorship, surveillance and the intimidation 
of online speech is not restricted to countries where it is 
commonly reported, especially China, Vietnam and Iran. It is 
increasingly common in member states of the Organization for 
Security and Cooperation in Europe, broadly speaking, in Europe 
and the former Soviet Union.
    With this hearing, we seek to draw the world's attention to 
the arrest of bloggers, to the blocking of websites, the 
surveillance and intimidation of peaceful political activists, 
to aggressive denial-of-service attacks and to violent 
intimidation by some OSCE member states. For example, Belarus 
is blocking social networking sites such as Twitter and 
Facebook and temporarily shutting down opposition Internet 
sites.
    Turkey is set to require a mandatory nationwide Internet 
filtering system on August 22nd, unprecedented in scope in the 
OSCE space and compounding the already aggressive blocking of 
around 1,400 websites and broad restrictions on content. 
Kazakhstan, which already blocks a number of popular blogs and 
media sites, is also in the process of creating a national 
Internet, having recently decided that all .kz domain names 
will have to operate on physical servers within its borders.
    No less disturbing is the violent intimidation of dissent 
in Russia. Though Russia does not aggressively censor terms or 
significantly block access to information on the Internet, as 
China does, it has its own crude but effective methods for 
controlling the Internet. Mafia thugs in league with the 
government beat people and instill fear in Russian bloggers and 
journalists. According to the Committee to Protect Journalists, 
quote, ``Online journalists in Russia and throughout the region 
whose work appears on the Russian language Internet known as 
Runet, have faced physical intimidation, attacks and threats 
for far longer than has been widely noted in either Moscow or 
in the West.''
    In a report issued by OpenNet Initiative, the authors--one 
of whom is here with us today--concluded that Internet controls 
in the Commonwealth of Independent States have evolved, quote, 
``Several generations ahead of those used in other regions of 
the world.'' Runet controls are not only mirroring past 
oppression, the authors said, they're foreshadowing the future 
of Internet control worldwide. The prospect of the Internet 
environment deteriorating to that level is frightening, and 
surely is a call to action. At the signing of the Helsinki 
Final Act in 1975 President Gerald Ford stated that history 
will judge the signatories, quote, ``Not by the promises we 
make, but by the promises we keep.'' This is as true now as it 
was then. All 56 OSCE states have agreed to respect their 
citizens' human rights and fundamental freedoms, including the 
freedom of expression. But some do not do so, and are not only 
not improving but even backsliding. And I do look forward to 
our witnesses today and what they can do--or what they will 
recommend as to how we might turn this around.
    Turning to our first panel, I'm very pleased to welcome Dr. 
Daniel Baer, deputy assistant secretary at the Department of 
State for Democracy, Human Rights and Labor. And his portfolio 
includes Internet--the Internet Freedom Office.
    Dr. Baer was sworn in as deputy assistant secretary on 
November 23rd of 2009. He--prior to joining the Department of 
State, Dr. Baer was assistant professor of strategy, economics, 
ethics and public policy at Georgetown University's McDonough 
School of Business, where he taught business ethics to MBA and 
undergraduate students. 2007 to '08 he was a faculty fellow at 
the Edmond J. Safra Foundation Ethics--Center for Ethics at 
Harvard.
    In 2004 to '07 he worked at the Boston Consulting Group, 
was project leader and provided strategic advice to leaders in 
corporate government and nonprofit sectors. Dr. Baer has also 
worked in the Office of African Affairs, the Office of East 
Asian and Pacific Affairs, and the Office of Multilateral and 
Global Affairs. So he has a very, very wide swath of 
experience, and we are deeply grateful to have him here today 
to testify before the Commission.
    So, Dr. Baer, please proceed.

  DR. DANIEL BAER, DEPUTY ASSISTANT SECRETARY FOR DEMOCRACY, 
        HUMAN RIGHTS AND LABOR, U.S. DEPARTMENT OF STATE

    Dr. Baer. Thank you very much, Mr. Chairman. I appreciate 
your affording me the opportunity to address an issue with 
profound implications for the exercise of human rights in the 
OSCE region and across the globe, ensuring a free and open 
Internet. This hearing is emblematic of the Commission's strong 
defense and dedicated promotion of human rights principles 
enshrined in the core of the Helsinki Final Act and the 
Universal Declaration of Human Rights.
    I value the opportunity to work with members of the 
Commission and your superb staff. The Commission's efforts 
greatly strengthen mine and that of Assistant Secretary Posner 
and our colleagues at the State Department as we work with 
other governments, civil society advocates and the private 
sector to defend and advance human rights and democratic 
governance.
    Can I also take a moment to thank you for inviting the 
other witnesses you've welcomed here today. I'm thrilled to be 
here with my friends David and Dunja, both of whom I admire a 
great deal, and also with Mr. Rohozinski, Mr. Sigal, I feel 
honored to be in such great company. And I know that Mr. Lee 
will share his views too, and I'm glad for that.
    Mr. Chairman, I endeavored in my written testimony to 
respond to your specific requests and to highlight key trends 
and concerns regarding a number of countries in the OSCE 
region, many of which you highlighted yourself, as well as to 
describe what we are doing institutionally within the OSCE to 
protect and advance Internet freedom. And I'd like to make just 
a few brief general comments here, and then take whatever 
specific questions you might have.
    First I want to say a few words about why we, the United 
States, are committed to Internet freedom. The United States 
champions Internet freedom because it derives from universal 
and cherished rights: the freedoms of speech, assembly and 
association. An open Internet gives people a neutral platform 
from which to express their legitimate aspirations and shape 
their own destinies.
    As Secretary Clinton has emphasized, the rights of 
individuals to express their views freely, petition their 
leaders, worship according to their beliefs--these rights are 
universal whether they are exercised in a public square or in 
an individual blog. The freedoms to assemble and associate also 
apply in cyberspace. In our time, people are as likely to come 
together to pursue common interests online as in a church or a 
labor hall.
    As we all know, the Internet and other new technologies are 
having a profound effect on the ability to organize citizen 
movements around the world. And because repressive regimes 
understand this power, they are redoubling their efforts to 
control it. Recently in Vilnius, on the margins of the 
Community of Democracy's ministerial meeting, Secretary Clinton 
and I met with a number of activists, including several from 
the OSCE region, who spoke of the surveillance, hacking and 
harassment they face every day.
    As Assistant Secretary Posner said earlier this week, 
``These are the acts of governments that fear their own people. 
In cracking down on the Internet, they expose their own lack of 
legitimacy.'' But speech is harder than ever to control in the 
digital age, and young people who have taken to the streets 
this year understand that it isn't pornography or pirating 
that's being suppressed; it's people and their legitimate 
demands for dignity and a say in the political and economic 
futures of their countries. As President Obama said in Cairo 
back in 2009, suppressing ideas never succeeds in making them 
go away.
    The actions of these governments remind us of a basic 
truth. Governments that respect their citizens have no reason 
to fear when citizens exercise their rights. And governments 
that respect the rights of their citizens have no reason to 
fear a free Internet. Of course, repressive governments are 
also missing out. The Internet can be a force for social and 
political stability if governments use it as a way to better 
communicate with their citizens and to serve them in an open 
and transparent fashion.
    The Internet offers an early warning signal for public 
discontent, and therefore a way to address grievances before 
they erupt into protests. As Assistant Secretary Posner said, 
governments should not shoot the instant messenger. They should 
address the underlying problems that cause citizens to lose 
faith in their governments and in the future.
    Mr. Chairman, we are not cyberutopians who believe that the 
Internet is the magic answer to the world's human rights 
problems. Technology does not change the world, people must. 
And we must not forget that calls for freedom still spring from 
human dreams and resonate in human hearts even if they are 
shared by keystrokes and text messages. That's why we take a 
person-centered approach through our diplomacy, through direct 
support for embattled activists worldwide--we are helping 
people stay one step ahead of the censors, the hackers and the 
brutes who beat them up or imprison them for what they do 
online.
    Since 2008, thanks to Congress' support, we have committed 
$50 million in direct support for activists on the front lines 
of the struggle against Internet repression. By the end of 
2011, we will have allocated $70 million toward these efforts. 
Our programming responds to the most urgent priorities we hear 
from activists on the ground, including embattled democracy and 
human rights activists from the OSCE countries.
    We're committed to a free and open Internet because it 
follows from our commitments to fundamental freedoms and 
universal values. These commitments, like all human rights 
commitments, are part of who we are; part of, as the title of 
this hearing suggests, the promise we keep. And, of course, 
it's also part of the promises at the center of the OSCE.
    Mr. Chairman, as you know, the OSCE was the first regional 
organization to recognize that respect for human rights, 
pluralistic democracy and the rule of law are prerequisites for 
a lasting order of security and prosperity. And the OSCE was 
the first regional organization to acknowledge the vital 
importance of civil society. The Helsinki process must continue 
to be a pioneer for human dignity, civil society and democratic 
government in the digital age.
    Challenges to Internet freedom in the OSCE region are 
illustrative of the issues we are addressing across the globe. 
Mr. Chairman, as you know, in the past the Helsinki process was 
a major international platform for defending the citizens 
expressing dissenting views, the samizdat, and for protesting 
the jamming of radio broadcasts. Today email, social networking 
and text messaging are new forms of samizdat, as well as 
indispensable tools of commerce, education and global 
communications.
    As the United States has done since the inception of the 
Helsinki process, so too in this new century we stand with 
those in the OSCE region who seek to peacefully exercise their 
fundamental freedoms and promote and protect human rights 
including via new technologies. The United States will take 
every opportunity to work with the Lithuanian chair, the EU and 
other participating states and civil society to ensure that the 
OSCE sends a clear message from Vilnius on Internet freedom. If 
I were to distill that message into a Tweet to the world, it 
would be: Enduring freedom, new apps.
    Mr. Chairman, when he--as you said, when he signed the 
Helsinki Final Act 35 year ago, President Ford famously said 
that ``History will judge this conference not by what we say 
here today but by what we do tomorrow, not by the promises we 
made but by the promises we keep.'' He was right then, and his 
statement is even more true today. In this digital age, keeping 
our promises greatly depends on ensuring that the Internet is 
open and free.
    Thank you, Mr. Chairman, and members of the Commission. I'd 
be glad to take your questions.
    Mr. Smith. Mr. Baer, thank you very much for your 
testimony, and for your leadership. This is certainly one of 
the cutting edge areas of human rights, and the alternative, 
the suppression of those rights by tyrannies--tyrannical 
governments and dictatorships. Let me ask you just a few 
questions, if I could.
    We know Belarus--and we've had reports that in Belarus the 
Chinese have cyberpolice, and the experts in controlling the 
Internet have shared best practices there so that Lukashenko 
can better repress the dissidents and the democracy activists. 
What kind of information do we have regarding that kind of 
collaboration, not just in Belarus but in, perhaps, some of the 
other more repressive regimes in the OSCE region?
    Dr. Baer. Thank you, Mr. Chairman. I think what you've 
highlighted is what we see as a growing trend in the last few 
years, which is that, as you said, there's an increasing 
sharing of what we might call worst practices--[chuckles]--in 
terms of Internet repression. And as governments are sharing--
as nefarious governments are sharing their methods for 
repressing online speech or assembly, they're also developing 
new ones. They're innovating and sharing, which is--which makes 
it even more challenging.
    And so certainly we are seeing--we do believe that 
governments are sharing techniques. And, you know, we are 
trying to respond in kind. We're trying to make sure that we 
are staying in touch with people on the ground and that we're 
listening to the new threats that they're seeing. You mentioned 
Belarus. We know that in Belarus there, as you talked about, 
there have been denial-of-service attacks, there's monitoring, 
there's shutdowns--it's a kind of confluence of a number of 
Internet threats. And we're listening to people on the ground 
there and elsewhere and trying to make sure that we're 
providing them the support they need.
    Mr. Smith. But are the Chinese--is Beijing providing the 
all-
important expertise to help Lukashenko and the others?
    Dr. Baer. Without--I'd be happy to brief you in private on 
particular country concerns, but I think that it is fair to say 
that there is information sharing going on between a number of 
countries in terms of how to--how to limit online speech and 
activity.
    Mr. Smith. Including China?
    Dr. Baer. I would expect that there's information sharing 
going on between countries that limit the Internet.
    Mr. Smith. OK. Let me ask you--several years ago I held a 
hearing that lasted some eight hours--it was the longest 
hearing I've ever chaired--we had Google, Cisco, Yahoo and 
Microsoft testify. And frankly, at the time, all four of those 
large companies were totally reluctant and enabling of--
reluctant to share information and enabling of the Chinese 
dictatorship when it comes to repression via the Internet. 
Google since has come around to some extent, and I think a 
large extent. They now support the Global Online Freedom Act. 
Yahoo actually moved personally identifiable information when 
they set up shop in Vietnam, and they put that out of reach of 
the ``Internet police,'' if you will, in Hanoi.
    And Microsoft and Cisco, however, seem to be moving forward 
unperturbed by how their enabling of a dictatorship has led to 
arrests. And in the case of Cisco they're selling capabilities 
that, you know, the Interpol and the FBI--you know, state-of-
the-art police techniques, sharing of information, routers, 
it's just--it's just extraordinary--policenet which gives the 
secret police extraordinary capabilities. And I'm wondering if 
you're seeing those companies and others exhibiting the same 
kind of enabling of dictatorship in the OSCE space?
    Dr. Baer. I think--I think you're right to highlight the 
importance of private companies in the Internet freedom 
conversation. Most of the Internet is made up of private 
assets, and obviously most of us use the services that 
companies provide; that's how we access the Internet. I think 
that what we've seen in the last few years, as you rightly 
point out, is an evolution in the way that companies are 
thinking about this. I think that increasingly companies are 
realizing--as we should never forget that companies are made up 
of people, and people who often when they understand the nature 
of the consequences, perhaps unintended consequences, of 
decisions they make, can manage around them.
    And so, you know, one of the initiatives that we're quite 
keenly following is the Global Network Initiative, which is 
made up of Microsoft, Yahoo and Google. The director of the 
Global Network Initiative is here with us today. I saw her in 
the audience before I came in. You know, that's meant to be a 
way for companies to come together and talk about what a 
principled approached to doing business in this space looks 
like, and to make commitments to do so. And I think we see that 
as a promising way forward, both because it establishes 
commitments, but it also provides a forum for companies to 
share, quite practically, the challenges they're facing.
    So, you know, you brought up the issue of storing data 
outside of--outside of Vietnam. You know, that was a lesson 
learned from the Shi Tao case. You know, storing data--where 
you store data matters. And so that's a practical conversation 
that companies can have. I think that, you know, this is an 
evolving conversation. I think it's one that's important; we 
should keep our eye on. I think that there are a number of 
companies that are--and actors within companies that are taking 
a lead on this and who recognize that this is a conversation 
that they have to be a part of.
    Mr. Smith. Let me just ask two final questions then yield 
to Dr. Gingrey. The--I mentioned earlier--or you mentioned as 
well, with regards to obscenity and issues of that kind, you 
know, when--and I will be reintroducing the Global Online 
Freedom Act shortly--the previous versions and any version 
makes it very clear that we're talking about nonviolent 
political speech, nonviolent religious speech, conscience but 
not obscenity--as even the Supreme Court has said--is not 
protected speech. And I think you would agree with that.
    But if I--how would you recommend we deal with the hate 
speech, especially the anti-Semitic speech that is very often 
generated in this country? I mean, I do believe passionately in 
free speech, but there are lines that need to be drawn and, you 
know, some of the anti-Semitic speech that I've seen on the 
Internet is just without parallel--the hatred and the animosity 
towards Israel and Jews in particular. Do you have any thoughts 
on that?
    Dr. Baer. I appreciate your raising that, and I think it's 
one of the places that we have room to continue and bolster the 
conversation going forward. I work very closely--my office is 
next door and I was sworn in on the same day as and with--
Hannah Rosenthal, our special envoy to monitor and combat anti-
Semitism. And we've talked about this several times, and how we 
can really foster a conversation that reckons with the fact 
that a commitment to free speech entails also a commitment to 
speak out when hateful speech is put into the public sphere, to 
defeat it through the force of argument and to express our 
disapproval of those kinds of utterances.
    I think that there is a--there's obviously--the challenge 
that arises, as you point out, is that we want to be very 
careful about any limitations on speech because we know that 
while well-
intentioned actors may use them well-intentionedly [ph], other 
actors will exploit those as an excuse to limit the kinds of 
speech that ought not be limited. And so that's the challenge 
that we face in this conversation.
    And I think we remain committed. Hannah has been pounding 
the pavement, traveling the world speaking out against it. We 
remain committed to fostering a conversation that deals with 
hate speech and recognizes it as an onerous and terrible thing.
    Mr. Smith. I would just add, many of our colleagues in the 
European countries, including France and a number of the other 
countries, you know, are very concerned about the anti-Semitic 
speech and are befuddled as to why we can't make a clear 
distinction between grossly hateful speech and freedom of 
speech.
    Two final questions--Internet-restricting countries--if you 
were to say which countries in the OSCE space are the worst, if 
you could, tell us what those countries are. And with regards 
to the money that has been appropriated to pierce the 
firewalls, in particular, the firewall in China, the Falun 
Gong, as you know, has developed an extraordinary capability to 
pierce that firewall so that people can access the Internet 
without fear of government intrusion, almost, for want of a 
better word, an unfettered access to the Internet.
    Why hasn't that money flowed to them, since they have an 
off-the-shelf capability? I mean, I spent the better part of 
three hours six months ago with some of their practitioners, 
some of their technological people--tech people, and I was 
amazed. And I understand from peer reviews that it does work. 
Will that money indeed flow to them so that they can do that 
work?
    Dr. Baer. On your first question, in terms of Internet-
restricting countries, it's a difficult ranking to make because 
of the dynamism of the way that threats are evolving. So 
whereas in one country, you may have extraordinary legal 
restrictions--you mentioned the new--the pending new filtering 
regime that is set to take place in Turkey--in another country, 
you may have threats that are good, old-fashioned brutality 
mixed with online activity.
    So, you know, we're concerned about actions in Russia to 
punish bloggers or things like that. I mean, obviously, Belarus 
continues to be a prime concern. But you mentioned--the 
countries that you mentioned in your opening statement, I would 
say we have concerns about all of them. All of those countries 
are areas of concern, and in different ways.
    And one of the things--one of the challenges not only in 
our policy, but also in our programming--and I'll talk about 
our programming now--is to respond to the specific context of 
each country. You know, that's why we keep in such good touch 
with people on the ground, because what--the tools that are 
needed, the supports that are needed in one place may not be 
the same as the tools or supports that are needed in another. 
And we're working very hard to deliver customized supports to 
the people on the ground.
    Mr. Smith. But if you were to say, what are the top five or 
the worst five, I should say, just so that we can better hone 
our focus?
    Dr. Baer. You know, State Department guys get in big 
trouble when we make ranking lists--[chuckles]--on the fly. I 
think I would say the handful of countries that you mentioned 
in your opening statement would certainly pass muster as a top 
five.
    In terms of your question about the programming, first of 
all, let me reiterate our thanks for Congress' support for 
Internet-freedom programming. We see that as essential to the 
United States' global push to advance and support Internet 
freedom.
    The way that we approach this is to take a venture 
capitalist-style approach. Part of the challenge, again, is the 
fact that whereas five, ten years ago, there was really only 
one salient threat to Internet freedom, and that was blocking, 
increasingly what we're seeing is--and the cases of Belarus and 
others are prime examples--is that it's not just blocking; it's 
the fact that people can't associate or communicate securely. 
It's the fact that their websites get attacked by nefarious 
actors and taken down. And so we need a range of tools.
    And we also need to make sure that the people on the ground 
know how to use them and know how to use them safely so that 
they're not putting themselves or others at risk. So our 
portfolio of investments includes a range of tools, including 
circumvention technology, which you brought up, as well as 
other tools to help people communicate securely and to keep 
their websites up, et cetera, as well as the training or the 
underground railroads that distribute those and give people the 
kind of cyber self-defense training that they need.
    In terms of the specific tool that you brought up, it is 
one of the tools in our portfolio, but we don't comment 
publicly on our grants, because we want to give our grantees 
the discretion to do so. That has been publicly brought up by 
the grantee, and I'd be happy to--I have met with your staff in 
the past, and I'd be happy to meet again to talk about the 
upcoming round of grants. I think you'll be quite pleased by 
the portfolio.
    Mr. Smith. Mr. Gingrey.

  HON. PHIL GINGREY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gingrey. Thank you, Mr. Chairman and Dr. Baer. I--the 
old saying comes to mind: It's easy to recognize a speck in 
someone else's eye, yet we might indeed have a plank in our 
own. Let me ask you this question: We've had some hearings--in 
fact, recently--on Internet security in this country, more in 
regard to advertisers' cookies and tracking people and off of 
social networks and websites, et cetera, and how we should 
really strike that balance.
    And the United States itself has certainly faced some 
recent criticism for its push to obtain personal information in 
the private correspondence, as I said, of social media users in 
the name of things like combatting terrorism, pursuing 
criminals or even to serve legal notices to our citizens.
    Does the government's reach in these areas deter users in 
this country from freely utilizing the Internet services? And 
are not these intrusions affecting freedom of expression on the 
Internet in the United States?
    Dr. Baer. Thank you very much, Congressman. I think that 
the question you pose reflects what we have long acknowledged, 
which is that there are challenges to preserving a free and 
open Internet and making sure that we're taking care of 
security concerns, law-enforcement concerns and harnessing the 
full commercial power of the Internet.
    Just because they're challenges doesn't mean they're 
unsolvable. There are challenges in the offline world to 
figuring out how to make sure that we are permitting companies 
to do business and innovate and develop new ideas as well as 
making sure that consumers are protected, et cetera.
    So I don't think they're necessarily new challenges, but 
they're certainly challenges. I think, you know, that the 
secretary in her Internet-freedom speech this year, in 
February, laid out a number of those tensions and the tensions 
that we face in crafting policy. And, you know, in some sense 
it's even harder in this sphere because the technology evolves 
so quickly that it's at a hyper speed. And so you have to be 
incredibly careful in the way that you respond--the policy 
responds.
    And I think that's why it's so important that we have 
guiding principles, that we have our commitments to free 
expression, that we have the commitments that are in our 
Constitution and the commitments to fundamental freedoms that 
are in the Helsinki Final Act and that we don't lose sight of 
those as we attempt to craft policy to manage the commercial 
and security aspects of the Internet.
    Mr. Gingrey. If you could maybe give us some specifics what 
the State Department overall is doing within OSCE to combat the 
attacks on freedom-of-speech association on the Internet. You 
have in general said that in response to some of these 
countries that Chairman Smith talked about, that you're ready, 
willing and able, from the State Department perspective, to 
assist. But what specifically, if you could give us some--
    Dr. Baer. Well, obviously, we have--specifically, we have 
programs and we have diplomacy with the OSCE member states. But 
within the OSCE, our ambassador, Ian Kelly, raises these issues 
in the permanent council on a regular basis. And we--in the 
lead-up to the Astana Summit last year, we worked very hard to 
develop language that we hoped would be--would be part of the 
action--the plan of action coming out of the summit.
    As you know, there was no plan of action adopted at Astana. 
But we are going to work again this year in the--in the run-up 
to the upcoming ministerial in Vilnius in December to try to 
make sure that a statement affirming the application of the 
same fundamental freedoms that have applied offline to the fact 
that they apply online, and not just freedom of expression, but 
of assembly and of association as well--we're going to try to 
get that language into the outcome document from the Vilnius 
ministerial as well. And we'll continue to raise these issues 
as we can within the OSCE.
    I would say that I think that one of the great assets of 
the OSCE in terms of Internet freedom is the next witness that 
you'll hear from. Dunja's work has been--first of all, she 
never stops. She's everywhere, all the time, working with 
governments. I see her at blogger conferences. I see her all 
over the place, and we work together very well. And I've really 
appreciated the work that she's done. I think that she's a 
clarion call. She--her reports and her statements really do 
call out the areas in which we should all be focused within the 
OSCE region. So I would point to her as one of the successes of 
the OSCE and Internet freedom.
    Mr. Gingrey. Yeah. Well, it seems to me--and this is--
certainly, I'm not being critical of it, but it sounds to me 
that it's just a matter of expressing in a formal manner our 
righteous indignation over some of these things and shining the 
light of day on activities and hopefully embarrassing the bad 
actors into behaving.
    But in regard to real specifics, any kind of a hammer, it 
really doesn't sound that you've described one to me. And maybe 
it's not needed, but it seemed like to me--[chuckles]--it would 
be very helpful if we had that.
    Dr. Baer. I think there are--I think you're right. I think 
there are opportunities to operationalize the commitment to 
Internet freedom in other aspects of the OSCE in ODIHR. You 
know, there will be opportunities on the ground in field 
offices, et cetera.
    But as we look back at the history of the OSCE, I think in 
many respects, the hammer--the hammer that the OSCE has is the 
incontrovertible, undeniable truth of the principles on which 
it's founded. And so I think that to the extent that all of us 
continue to call out violations of those principles, that is 
the hammer. And it's not ineffective.
    Mr. Gingrey. Yeah. I would agree with that. Thank you very 
much, Dr. Baer. And Mr. Chairman, I yield back.
    Mr. Smith. Mr. Cohen.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chairman. Let me ask you just a 
couple of questions. After the Arab Spring, where the Internet 
was credited with so much of the Egyptian revolution, have we 
seen more restrictions on Internet activity in other places 
around the country--around the world?
    Dr. Baer. It varies. In some places, yes, although we 
don't--it's hard to attach causality to that. You know, after 
the Arab Spring, when the stories were written, many of them 
were breathless about the fact that the Internet had played a 
major role. And to me, I've said, you know, you've got a bunch 
of 20- and 30-somethings--and the whole range of society, but a 
lot of 20- and 30-somethings that the stories were focused on. 
If there were stories about them doing something that didn't 
involve the Internet, that would be the story. I mean, these 
days, the Internet is so much woven in to daily life and 
indeed, into the story of human rights, that it's necessarily 
part of the story.
    And because of that, I mean, I think we do see that when--
that other governments are certainly paying attention. They 
are--whether or not they're taking action, they're paying 
attention to what's going on.
    Mr. Cohen. So you haven't seen a spike?
    Dr. Baer. I mean, I think we've seen certainly increase--we 
were worried about the trend in China in the last six months. 
There's been increasing extra-judicial detention of lawyers, et 
cetera, crackdowns on religious groups, et cetera. But I don't 
know whether we would causally link that to the Arab Spring.
    Mr. Cohen. You co-opted the chairman's four or five 
countries. What would be the next four or five countries? 
[Laughter.]
    Dr. Baer. I'd like to take that question.
    Mr. Cohen. You'd like to take that question?
    Dr. Baer. I'd like to take that question and come back to 
you with a considered answer.
    Mr. Cohen. OK. And none of the countries that he mentioned 
are--they're all within our area of--our jurisdiction. Cuba and 
China weren't mentioned. Is that the reason? Because Cuba and 
China I would think would be at the top of any list.
    Dr. Baer. Right. Oh, sure. I mean, China has the longest 
history of Internet restrictions. Cuba has significant 
restrictions. Vietnam has significant restrictions. So if we're 
looking outside of the OSCE region, you know, there are a 
number of others we could--we could--[inaudible].
    Mr. Cohen. What's--in Turkey, what we're concerned about--I 
didn't realize they had this situation, their 138 words. George 
Carlin would probably know them all.
    Dr. Baer. Right, he only knew seven--he only needed seven. 
[Chuckles.]
    Mr. Cohen. That's right. How many do you know? And what are 
they, translated into English?
    Dr. Baer. The collection of words is--each of the words is 
meant to be--the stated intent is to filter out obscene 
content. But obviously, 138 words would be--is a large number 
of words. And we have serious concerns over it, that as well as 
the law that authorizes the takedown of websites that could 
possibly be implicated in one of seven or eight crimes, and 
then the fact that Turkey has blocked over 5,000 websites. 
There are serious concerns with the condition of Internet 
freedom in Turkey and of media freedom, more generally.
    I was talking with Dunja before I sat down today, and their 
latest numbers are that over 70 journalists are in prison 
there. So we have serious concerns, and we'll continue to raise 
them with the Turkish government.
    Mr. Cohen. And is--are there particular concerns about 
references to the PKK or to Ataturk?
    Dr. Baer. My understanding is that some politically 
sensitive topics are--political sensitivity is the rationale 
for blocking certain websites.
    Mr. Cohen. All right, so Erdogan is just as concerned about 
Ataturk as the other party?
    Dr. Baer. Certainly there have been examples of material 
that involved Ataturk that has been blocked.
    Mr. Cohen. I thank you for your time and I look forward to 
your answer on the next four or five countries. I yield back 
the remainder of my time.
    Dr. Baer. [Chuckles.] Absolutely.
    Mr. Smith. Dr. Baer, thank you very much for your 
testimony. If you could get back to us with some of those 
follow-ups as quickly as possible, including the first five and 
the next four or five, it would be very helpful. Again, it 
helps us to focus our resources on the most egregious 
violators, so I do thank you for that.
    And I do hope as well that your office will look very 
carefully at the Global Online Freedom Act and hopefully 
endorse it. I know that it has to go through a lot of check-
offs for that, but you know, it is an idea whose time has come 
and would give you the ability to really hold countries to 
account and to designate--the designation ``Internet-
restricting country'' would trigger a number of very important 
policies towards that country. So I do hope you'll take a good 
look at that, as well.
    Dr. Baer. Thank you, Mr. Chairman. I'm in active and very 
fruitful conversations with your staff and will continue to be, 
so--
    Mr. Smith. Dr. Baer, thank you very much and we really 
appreciate your leadership.
    Dr. Baer. Thank you.
    Mr. Smith. I'd like to now ask our second panel--matter of 
fact, we're going to have to combine panel two and three, a 
little change of procedure, because we do have a large series 
of votes that will probably take over an hour and a half to 
complete on the floor of the House. And I would not want to 
inconvenience our witnesses more than we probably already will.
    So let me ask, if I could start with Dunja Mijatovic, who's 
the OSCE representative on freedom of the media. She is an 
expert in media law and regulation and in 1998 was one of the 
founders of the Communications Regulatory Agency in Bosnia. She 
helped create a legal, regulatory and policy framework for the 
media in a complex postwar society.
    She also involved--was involved in setting up self-
regulatory press council and the first free media helpline in 
Southeast Europe. Ms. Mijatovic has flown all the way from 
Vienna to join us at this hearing today. The timing of her 
appearance is fortuitous, as her office just released a report 
detailing the legal provisions and practices related to freedom 
of expression, the free flow of information and media pluralism 
on the Internet in the OSCE region. Look forward to her 
testimony.
    Then we'll be hearing from David Kramer, who's the 
president of Freedom House and former assistant secretary of 
state for Democracy, Human Rights and Labor as well as a former 
Helsinki commissioner, often sitting right here, asking the 
questions, not giving answers. So I thank him for being here.
    And without objection, all of your very, very extensive 
bios will be made a part of the record. Each of you are highly 
distinguished and have great resumes that speak to a broad 
range of issues, including the one at hand.
    We'll then hear from Rafal Rohozinski, senior scholar, 
Canada Center for Global Security Studies and the Citizen Lab 
at University of Toronto. He was also one of the lead authors 
of an important report on Internet freedom in the OSCE region 
called ``Access Control as Part of the Open-Net Initiative.''
    Next we'll hear from Ivan Sigal, executive director of 
Global Voices, a virtual community of more than 300 bloggers 
and translators around the world who work together to publish 
reports from blogs and citizen's media everywhere with an 
emphasis on voices that are not ordinarily heard on the 
international media mainstream.
    And then we'll hear finally from Charles Lee, a Falun Gong 
practitioner and former Chinese political prisoner, who spent 
from 2000 to 2003--2003 to 2006, I should say--was unjustly 
incarcerated in the laogai in China and suffered gross 
indignities to his person while he was held there. He believes 
that technology sold by Cisco is violative [ph] of the law and 
has filed a lawsuit against Cisco. He also--and he and others 
have been briefing members on Capitol Hill, including Frank 
Wolf and many others about a huge breakthrough in technology 
that pierces the firewall in China, but he also has spoken out 
about how China is sharing its worst practices with the OSCE 
region.
    So I'd like to now, if I could, begin with Ms. Mijatovic, 
if you could proceed as you would like.

 DUNJA MIJATOVIC, REPRESENTATIVE ON FREEDOM OF THE MEDIA, OSCE

    Ms. Mijatovic. Thank you, Chairman, members of Commission. 
I'm honored to be here again, actually the second time since I 
was appointed. I appreciate this invitation very much, 
particularly in light of the report that you just mentioned we 
published, and I would like also to mention that the report was 
commissioned by my office, but the author of the report is 
distinguished Professor Yaman Akdeniz from Bilgi University in 
Istanbul.
    For centuries the right to be heard has been seen as the 
cornerstone of democracy. We can all agree with this. It 
enables other rights to exist, and in the age of a borderless 
Internet, the protection of a right to freedom of expression 
regardless of frontiers takes on a new and more powerful 
meaning.
    The argument for freedom of expression on the Web is a 
double-edged sword. And it's a hotly debated issue nowadays. On 
one side, it is upholding civil rights and, on the other, 
allowing governments and censors to question people's own 
judgments. The Internet at its best is a cyber-experience on 
every single topic imaginable from personal pages detailing the 
life and thoughts of a schoolchild to multinationals promoting 
their wares online. Governments, however--too many governments, 
I would dare to say, within the OEC region-- have already begun 
to impose controls on the Internet, threatening the potential 
of this new medium.
    As an international community of users and providers of 
information, we are at a dramatic turning point. The Internet 
will change the way people live. It offers extraordinary 
opportunities for enhancing creativity and learning for trading 
and relating across borders, for safeguarding human rights, for 
realizing democratic values and for strengthening pluralism and 
cultural diversity. The change holds promise, but also holds 
challenges for all of us.
    One of the major challenges is to confront ways in which to 
spread access through the Internet so that the whole world can 
benefit rather than creating gaps between information rich and 
information poor. The exploration of cyberspace can be a 
civilization's truest, most challenging and also very 
controversial calling and adventure. The opportunity's now 
before all of us to empower every person to pursue this 
opportunity and not to restrict and to suppress free speech. 
However, the exploration of cyberspace brings both a greater 
opportunity and in some ways more difficult challenges than any 
other previous human adventure.
    National actions must fit into pattern of international 
understanding or in the best ways in which to deal with the 
Internet content issues. Just for reminding us--and I will use 
United States as an example--the Internet is the fastest 
growing medium ever. While it took your country 38 years to 
reach 50 million radio users, 10 years to reach the same number 
of television viewers, in only five years in the case of the 
Internet. So we can also see this, you know, how quick we are 
moving in this adventure.
    We already live in digital age, a time in which we can 
create truly democratic cultures with participation by all 
members of society and, in only a few years from now, this 
participation will virtually include most of world citizens. So 
despite the progress we see, some challenges and preconditions 
remain. The first one is surely, as I mentioned at the 
beginning, access to the Internet. Without this basic 
requirement, without the means to connect and without an 
affordable connection, the right to freedom of expression and 
freedom of the media become meaningless in the online world.
    The second one is restricting this freedom and restricting 
free flow of information which is also one of the basic OSCE 
commitments, and I would even go so far to say that the free 
flow of information is, in my view, an oxygen of cyberspace. If 
we stop it, the Internet cannot breathe. It becomes a 
meaningless tool.
    Why do certain governments try to block, restrict and 
filter this flow? I'm asking myself by doing this job all the 
time. To protect us from terrorism, child pedophilia, human 
trafficking, and other forms of threats and make our societies 
more secure? All mentioned are legitimate reasons that should 
not be challenged by anyone. But to protect us from criticism, 
satire, provocative and shocking comments, differing views, 
tasteless and sometimes controversial content--for that they do 
not have our permission. We as the citizens that voted for them 
never asked or obliged them to shape our minds and opinions. 
And again I repeat: In too many OSCE participating states this 
is happening on a daily basis. I'm seeing this every day, but 
do I travel--during the time I travel to participating states, 
talking to the civil society, but also talking to the 
authorities that are informing me about their attempts to 
restrict and to suppress further.
    There is no security without free media and free 
expression, and no free expression and free media without a 
security. These two terms should come hand in hand and not 
fight each other, like we see in so many parts of the world. 
And there is no better place, at least in my modest view, to 
discuss and fight for both in the OSCE--than the OSCE. Security 
and human rights are both at a heart of Helsinki Act and our 
standard commemorative declaration as well as the OSCE 
principles and commitments that we share. So why do we still 
struggle? We can also ask ourselves, and why are we so afraid 
from words and where does this fear come from?
    Our common goal achieving the promises we made should be a 
free, open and safe Internet. Very simply, when services are 
blocked or filtered, users of Internet platforms everywhere 
cannot be served effectively. Today, many governments disturb 
the free flow of our online information. Popular tactics 
include incorporating surveillance tools into Internet 
infrastructure, blocking online services, imposing new 
secretive regulations and requiring licensing regimes. Since my 
time is limited, I will finalize my statement without 
mentioning particular countries, but I'm ready to reply to any 
of your questions.
    I have a brief recommendation and a comment at the end. I 
would like to stress once again that blocking access to 
Internet or banning certain content has proven to be totally 
ineffective. I call it--maybe too bluntly--when I talk to the 
authorities within the OSCE region: I call it a lost battle. 
Even by trying to establish regionalized networks, it will not 
be possible to gain full control over the communication 
exchanged and information shared on the Web. Any attempt to 
hinder the free flow of information to disproportionally 
restrict the right to free expression, to block dissenting 
opinion, or to prevent critical voices from being heard will 
prove to be short-sighted because a free Internet and 
independent media are a means and not an end in itself.
    Finland and Estonia are countries that should be followed, 
in my view. They introduced pioneering legislation which 
established the access to Internet as a constitutional right. 
In France, the constitutional court ruled in a similar way, but 
they have still a long way to go.
    In order to pay tribute to the unique contribution the 
Internet has given to participatory democracy, to freedom of 
expression and to freedom of the media, it is only fitting to 
enshrine the right to access the Internet on exactly that level 
where such rights belong, as human right with a constitutional 
rank. Perhaps the time is ripe to turn a new page in the 
history of fundamental rights and establish access to Internet 
as universal human right. It would be promising indeed to see 
the number grow of the OSCE participating states which 
recognize this principle on a constitutional level. The 
Internet is a fantastic resource that has fundamentally changed 
our societies for the better. We should not be afraid of it. It 
will continue to have a positive impact if we allow it. The 
lesson is simple: The Internet must remain free and safe. Thank 
you very much.
    Mr. Smith. [Off mic]--thank you very much for your 
testimony. I really appreciate it. We all do, and your work and 
your report.
    I--we do have a series of 16 votes followed by two 
additional votes. Without objection, all of your prepared 
testimony is going to be made a part of the record for the 
hearing record. Technically we will have to briefly go to a 
briefing, and Mark Milosch and Shelly Han, our policy--senior 
policy adviser and chief of staff, will chair the--that part. 
We will try to come back when there's a motion to recommit. We 
should have about 25 minutes, but there are 16 back-to-back 
votes.
    No one can ever predict this, believe me, or else we 
wouldn't have done this at this particular time. So I apologize 
for that inconvenience to all of you, but --and I can assure 
you that all of us will read your testimonies very, very 
carefully and react to them because you provide us a blueprint 
for going forward as well as information in terms of where we 
are right now. So thank you so much, but I will though ask 
Secretary Kramer if he could begin his testimony, and then we 
will then become a briefing; but all of your testimonies are 
part of the official record.
    Secretary Kramer, please.

         SEC. DAVID J. KRAMER, PRESIDENT, FREEDOM HOUSE

    Sec. Kramer. Mr. Chairman, thank you very much for the 
opportunity to be here. It's always a pleasure to appear before 
you and the Commission.
    In the interests of time, let me just very quickly say the 
last time I appeared before you was before an HFAC 
subcommittee, and we were talking about Belarus. And despite 
the gravity of the situation there and the pressure and attacks 
that protestors and civil society activists, journalists and 
others face on a daily basis in Belarus, I have to tell you, 
Mr. Chairman, I am more optimistic that that situation is going 
to change for the better before too long. I think Alexander 
Lukashenko's days are numbered. He is in the gravest situation 
he's ever faced, and I don't think he's going to be able to 
come out of it.
    So many thanks to you in particular, Mr. Chairman, for your 
sponsorship and support and leadership on the Belarus Democracy 
Act that passed the House last week, an extremely important 
piece of legislation, and very much hope that that will move 
through the Senate, and get the signature of the president very 
soon. So many thanks for that.
    Mr. Smith. Please share that with Orest as well because he 
has done the lion's share of--[inaudible]
    Sec. Kramer. I do on--I do almost on a daily basis. 
Absolutely.
    Mr. Chairman, my organization, Freedom House, produced this 
report, ``Freedom on the Net 2011,'' in April of this year. 
It's the second time we have done this report, and in this 
report we looked at 37 countries around the world, and in the 
OSCE region, we looked at 11 countries.
    You and your colleagues had asked about some rankings of 
countries. This is not a comprehensive list of OSCE member 
states, but I think it does give you some sense of where 
countries stand. There are some countries that stand out.
    As Dunja mentioned, Estonia is at the top of the list; the 
United States is not too far behind; Germany, the U.K. and 
Italy all stand in the free category. We rank countries as to 
whether they're free, partly free or not free in--when it comes 
to Internet freedom.
    In the partly free category--and this is based on their 
scores, so I'm going from the best scores down to the lowest 
scores--would be Georgia, Turkey, Azerbaijan, Russia, 
Kazakhstan, and then, in the very last category of not free, 
would be Belarus, not surprisingly and unfortunately.
    Mr. Chairman, Freedom House produces this report, but it 
also engages in activities in promoting Internet freedom, 
across a range of activities, in helping with censorship-
circumvention technologies in countries where the Internet is 
restricted. We build indigenous capacity to promote and support 
the use of anti-censorship tools in highly repressive 
environments, provide technology to developers and work with 
international bodies, including with the OSCE, and it's a real 
privilege for me to be here this morning with the high 
representatives for special--for media freedom in the OSCE 
region.
    There are--it is not surprising, I think, that many of 
these governments that I listed do their best to try to 
suppress Internet freedom just as they do with other kinds of 
freedom and other kinds of media. Belarus, as I indicated, is 
at the top of the list in trying to crack down on Internet 
freedom, and the Internet is simply the latest frontier for 
which Belarusian authorities try to restrict freedom in their 
country.
    But Belarus is not alone. The other--a number of the other 
countries that I mentioned are equally engaged in activities 
and efforts to crack down on Internet freedom. Some of them 
just simply haven't kept up with the Internet and 
communications revolution sufficiently to be able to do so, but 
I think if we look at their efforts in cracking down on TV and 
radio and newspapers, it is not a stretch to assume that the 
Internet is very much on their radar screen and will be the 
next target of their efforts.
    It is very important to defuse the impact of the latest 
online calls to protest--or rather in an effort to defuse the 
online calls to protest in places like Belarus, we see these 
governments impose restrictive and repressive measures to spam 
online threads about protests, misuse hash tags, create fake 
Twitter accounts to undermine actual activists, engage in all 
kinds of activities; so they're both using the Internet and 
they're also trying to crack down on it, and I think that's 
something we very much have to keep in mind.
    My testimony goes into a number of countries. I already 
offered you the rankings. I do want to highlight and mention 
the work that the State Department is doing including when I 
was there at the State Department and funding became available 
to promote Internet freedom. I commend the Obama administration 
and DRL in particular for the work it's doing in this area. And 
also as Dan Baer said, I do want to acknowledge Ian Kelly, our 
OSCE ambassador in Vienna for the work he has done and for his 
outspoken record in stressing the importance of Internet 
freedom.
    I think, in the interest of time, I will forego going 
through the details of each of the countries, but in my written 
testimony, I go into more detail on the cases of Belarus and 
Azerbaijan, Russia, Kazakhstan and Turkey, which are reflected 
in our Internet freedom report. I do also refer to one country 
that is not reflected in our report, and that is Hungary in 
light of the concerns that have been expressed about a media 
law that was passed last year in Hungary and is being 
implemented this year and the potential impact that that could 
have on Internet freedom as well.
    So, with that, let me close there in the interests of 
yielding time to my fellow panelists. Thank you.
    Mr. Milosch. Thank you very much, Mr. Kramer. As the 
chairman said right before he left, we are now in briefing 
mode. We'll continue and hope that he will be able to return 
when they're debating a motion to recommit. We will proceed now 
to Mr. Rohozinski.

  RAFAL ROHOZINSKI, SENIOR SCHOLAR, CANADA CENTER FOR GLOBAL 
  SECURITY STUDIES AND THE CITIZEN LAB, UNIVERSITY OF TORONTO

    Mr. Rohozinski. Thank you very much. First of all, I'd like 
to thank the Commission for the opportunity to appear and 
testify at today's hearing, which comes at a particularly 
important moment. The Internet has precipitated perhaps the 
fastest and largest expansion in rights in human history. And 
yet we find ourselves at a constitutive moment where our 
actions, our leadership, can lead to two opposing outcomes: one 
of which promises a future of greater freedoms and 
transparency; the other threatens a return to a darker, more 
authoritarian past.
    My name is Rafal Rohozinski. I'm a senior scholar at the 
Canada Center for Global Security Studies, and CEO of the 
SecDev Group and Psiphon, Inc. For the past 10 years, I've been 
a principal investigator of the OpenNet Initiative, a 
collaborative international research project between the 
University of Toronto in Canada, Harvard University, Cambridge 
University and the SecDev Group which has studied and 
documented the practice and policy of Internet censorship and 
surveillance worldwide.
    We have published more than two dozen case studies and 
reports and are currently publishing our third volume that 
documents censorship practices in over 70 countries worldwide, 
including all of the members of the OSCE. The OpenNet 
Initiative has created the largest and most comprehensive 
profile of how countries seek to shape access to cyberspace 
through a combination of regulation, repression and technical 
means.
    Now, just over 65 years ago, Winston Churchill warned an 
American audience of the dangers of an Iron Curtain falling 
across Europe, casting a shadow of authoritarianism and 
depriving citizens of their basic democratic rights. Churchill 
spoke in 1946 at a time when the United States stood as a(n) 
uncontested global power. He urged the creation of norms and 
institutions that would safeguard freedom and actively oppose 
the forces of authoritarianism. For Churchill, the end of World 
War II was a constitutive moment, when the choices made by the 
victorious allies would have enduring consequences for the 
causes of freedom in Europe and elsewhere.
    Today, we stand at the threshold of a similar constitutive 
moment, brought about by a revolution whose long-term 
consequences we are only now starting to grasp. For the past 
two decades, the emergence of the Internet and cyberspace has 
led to the largest sustained global expansion of knowledge, 
rights and freedoms. Over a third of humanity is connected to 
the Internet, and they are almost as many cell phones in 
circulation globally as there are people. Significantly we are 
now seeing the coming of age of digital natives, those who have 
grown up knowing only a connected world. Two-thirds of those 
currently accessing cyberspace are under the age of 25, and 
over 80 percent of those use one form of social media or 
another.
    But the numbers do not do the justice to the social 
significance of this expansion. So pervasive and all-
encompassing is this revolution that it's difficult to see just 
how fundamentally it's changed the exercise of individual human 
rights and how much it's added to the cause of basic freedoms 
and the abilities of all people, no matter how small, to make 
their voices heard. We need not look any further than the color 
revolutions in the Commonwealth of Independent States or the 
recent Arab Spring to witness the extraordinary power of 
networked social movements.
    But the tectonic plates of cyberspace are also shifted. The 
U.S., once the heartland of the Internet, makes up 
approximately 13 percent of the global Internet-connected 
population. Europe and the U.S. are approximately 40 percent. 
The center of gravity is fast shifting to the south and to the 
east. The consequences of the shift are of direct relevance to 
today's proceedings.
    A digital curtain is descending across the globe that 
threatens to reverse the gains made possible through the 
emergence of the global commons of cyberspace. Just over half 
of the world's Internet-connected populations live under one 
form of restriction or another, and that number is fast rising. 
Since 2003, when we first documented the emergence of the 
``Great Firewall of China,'' more than 45 states worldwide have 
adopted similar means for turning the Internet from a global 
commons into a series of gated communities. Eurasia, and in 
particular the states of the former Soviet Union, are a petri 
dish of experimentation in the new forms of online repression 
that deprive citizens of the means to demand transparency from 
their leaders, accountability from their governments and the 
right to seek social and political change.
    These new forms of restrictions, which we document as 
second- and third-generation controls, leverage the ability of 
governments to create restrictive legal environments that 
attempt to enforce self-censorship through fear of punishment. 
They also include the application of sophisticated technical 
means, just-in-time blocking, disrupting access to critical 
information resources at times when they are most needed, 
sowing disinformation and otherwise manipulating information 
flows. They also include the use of targeted online attacks, 
denial of service, injecting false content and sophisticated 
information operations--and I mean this in the military sense--
turned inwards at domestic populations.
    These controls are pervasive but also applied selectively, 
such as during elections in order to discredit legitimate 
opposition groups and deprive them of the right to free and 
unfettered speech. And I say for the record, as someone who 
operates a circumvention company, that no circumvention 
technology can effectively combat second- and third-generation 
techniques, which are becoming the global norm.
    In Kazakhstan, Uzbekistan, Turkmenistan and Russia, and 
notably in Belarus, these techniques have been used with great 
success to silence opposition groups, driving them and their 
followers offline. In fact, in all post-Soviet states, the 
Internet is subject to one form of control or another. Indeed, 
the mechanisms for control are getting deeper and more 
coordinated through regional bodies such as the Shanghai 
Cooperation Organization and the Collective Security Treaty 
Organization, as well as bilateral cooperation between 
governments and their security services.
    Tragically, perhaps, we are complicit in this growing trend 
towards authoritarianism. Our own fears of cyberinsecurity and 
terrorism make it easier for others to appropriate these terms 
to justify political repression. Terrorists can morph into 
anyone inconveniently opposed to the political status quo; and 
calls for changing the Internet, introducing greater security 
and the ability to identify users, helpful in tracking down 
hackers and cybercriminals, find their place in the arsenal of 
repressive regimes as a means of selectively prosecuting human 
rights activists, journalists or anyone seeking to struggle for 
social and political reform.
    Our emphasis on harmonizing laws on cybercrime and seeking 
global solutions to global security--to cybersecurity 
paradoxically makes it difficult to assert and demand respect 
for freedom of expression and access to information online.
    And security is not the only means by which rights can be 
suppressed. Net neutrality, copyright enforcement and the 
empowerment of telecommunications carriers to clean pipes are 
convenient means for regimes with less-than-democratic 
tendencies to offload and outsource policing and ultimately 
repression. There are no simple solutions to these challenges, 
only difficult tradeoffs. To paraphrase the words of the 
immortal Pogo: We have met the enemy, and he is at least 
partially us.
    So what is to be done? Future historians will look back at 
this time and see it as a constitutive moment. Before us are 
some hard choices, but also clear norms and ideals that have 
been core to the Euro-Atlantic alliance for the past 50 years 
and part of our shared cultural and historical heritage. 
Leadership comes from the courage to make hard decisions in 
pursuit of a greater common good. In this respect, a commitment 
to an open, global commons of cyberspace is by far the most 
important and far-reaching objective for the U.S. and its like-
minded partners in Europe and globally to support.
    Security is an important obligation of the state but must 
be balanced against preserving the right to dissent, 
communicate and act online, even if it comes at costs. This is 
especially true as the new generation of digital natives find 
their own voice in the online world. New forms of protests, 
whether they come in the form of making public confidential 
information, as in the case of WikiLeaks; or the 
``hacktivism,'' as has been exercised by LulzSec and Anonymous, 
may be the necessary friction for preserving a global norm that 
enshrines the right to seek and access information.
    We must carefully adjust our own laws to make accommodation 
for some of the new forms of dissent that will emerge. Is there 
really a difference between picketing an employer during a 
labor dispute and making his website and Internet systems 
inaccessible through denial-of-service attacks? These are 
important questions, and we must pause before we consider how 
to address them, as the rules that we apply will have 
repercussions well beyond our borders. In a global world, there 
is no such thing as a purely domestic policy.
    In specific terms, at the highest level, this Commission 
should encourage our European partners to remain committed to a 
global commons of cyberspace. Calls such as those put forward 
by some members of the U.N. to end the multi-stakeholder 
engagement on governance of cyberspace should be strongly 
resisted. Pressure should be applied through bilateral 
agreements such as--as well as organizations such as the WTO to 
ensure that restricted access to content online is also framed 
as a trade issue, with consequences and sanctions against 
countries pursuing these practices. Access to an uncensored 
Internet should become a basic measure of freedom and 
demographic--democratic progress and made a condition for 
recipients of preferential U.S. trade relationships or 
development assistance. Access to political content via the 
Internet should become a central component of monitoring the 
freedom and fairness of national elections, as important as the 
right to assembly and balloting. Preserving the global Internet 
commons will not be easy, but the costs of not doing so are 
greater. The rise of a new superpower in the East is occurring 
just as the tectonic plates of cyberspace are shifting to the 
same region. The historic moment in which we live and which has 
greatly expanded human expression, quest for knowledge and an 
ability to network on a planetary scale risks becoming a fading 
chapter in a future where the same technologies enable 
surveillance societies that far exceed those which George 
Orwell's ``1984'' could imagine. The future is ours to lose, 
and as in those days of March 1946, when Churchill warned us of 
the Iron Curtain, now is the time for us to courageously make 
choices so that our constitutive moment, the future of 
cyberspace, furthers rather than constrains the universal 
values of dignity, freedom and right to choose.
    I thank you for your time and attention.
    Mr. Milosch. Thank you very much, Mr. Rohozinski. That--
there's a lot to return to in that testimony. I particularly 
appreciated your image of the--of the digital curtain.
    Now we'll proceed to Mr. Ivan Sigal.

         IVAN SIGAL, EXECUTIVE DIRECTOR, GLOBAL VOICES

    Mr. Sigal. Good morning, Commission. Thank you for the 
opportunity to address the subject and the topic of online 
freedom of expression in the OSCE countries. My name is Ivan 
Sigal. I am the executive director of Global Voices, a 
community of bloggers, writers and translators from around the 
world who amplify and analyze the most interesting 
conversations appearing in citizen media. Global Voices also 
has a team of writers and analysts who focus on the former 
Soviet Union, and my testimony today is informed in part by 
their analysis and their research.
    So my perspective today is slightly different from the--
kind of the state and institutional perspective that we've 
heard thus far from the international organizations. I am 
trying to channel or represent a diverse set of voices and 
perspectives that are coming from individuals who are on the 
cutting edge of the creative process of generating content, 
news and information for their own communities in their own 
contexts, and I think the important thing for me in all of this 
conversation is to figure out how we can support and emphasize 
that the work of building and creating networks starts with 
individuals and citizens in their own communities and is 
focused primarily on creative capacity.
    I'd like to look specifically at the question of recent 
attacks and challenges in the OSCE region, focusing very much 
on the former Soviet Union. I'd like to say that while attacks 
have been occurring in this region for quite a few years, those 
targets have mostly been mass media and more institutional 
targets. And the change that we've seen recently has been much 
more of a focus on individuals and social networks. Those 
targets have fewer resources, less experience, and face a 
different kind of risk than traditional mass media.
    A recent example is Belarus, and we've heard a good deal 
about that today, so I only want to emphasize that the targets 
of social media networks themselves are focusing on a different 
kind of challenge than what we've seen, which is that creative 
hacking and targeting of individuals that are part of a social 
media network themselves are not just out going after elites 
and journalists and kind of leaders or representatives of 
communities, but individuals who are acting in their own 
interests, without necessarily an awareness of the impact that 
their participation in these social media networks will have.
    More generally, the mix of tactics of suppression and 
repression that we see in the OSCE region has a--has a long 
history, a combination of filtering and hacking of websites, 
physical threats and intimidation, propaganda and defamation, 
burdensome legal and regulatory environments, market 
manipulation and the use of other legal controls such as tax 
inspections that worked to threaten an earlier generation of 
content providers online. The targeting of individual websites, 
online publications and individual writers through a range of 
online and offline tactics is also not a new story in the 
region. The concern is that, as the Internet access grows 
across the region, governments will step up their restrictions, 
targeting not just the relatively elite communities, but all 
citizens writing and sharing content on a range of user-
generated platforms.
    And while the tactics may change, the overall strategy of 
mixing tools of repression to achieve various ends remains in 
place. The ultimate goal of this kind of harassing activity 
seems to be to systematically suppress speech and media content 
that questions the legitimacy of those in power, and 
particularly those who question how power and wealth are gained 
and distributed. It is notable as well that some of these 
practices are not restricted to nondemocratic regimes. Recent 
mass media laws in Hungary also treat websites as mass media, 
for instance.
    I'd like to provide you with a short list of some of the 
tactics and speech--to suppress speech. My testimony goes into 
them in some detail, so I'll just give you the categories here. 
Those are: legal and regulatory controls; pressure on service 
providers and intermediaries; extralegal responses; propaganda, 
misinformation; disinformation campaigns and harassment of 
individuals; and indirect methods that are not directly related 
to speech, such as violence, destruction of property, arson, 
physical and psychological pressure.
    In this context, what can OSCE member states and the U.S. 
government do? The document of these abuse tactics is well--
reasonably well established, as reports referenced earlier and 
throughout the panel today have shown, thanks to activists and 
freedom of expression watchdog activities. The OSCE should 
continue to support and promote monitoring and documentation of 
member states' activities in this sector, both in their own 
work and in the work of civil society watchdog groups. The 
deeper question is the willingness of governments to apply the 
political will to create positive incentives for citizens to 
participate in public spheres, pursuing both the letter and the 
spirit of OSCE rights obligations and the Article 19 of the 
U.N. Declaration of Human Rights.
    These commitments are not just about the economic or 
scientific benefits of increasing Internet penetration, a 
concept that many FSU countries and governments support, but 
about the political and civic rights of their citizens. Without 
politically legitimate and accountable governance, the 
political will to foster these rights is unlikely to appear. 
And to be clear, not every government in the former Soviet 
Union applies restrictions on online speech to the same measure 
or kind. The picture is varied, with some countries working to 
meet their obligations.
    So in my testimony, I think for--in interest of time, I 
won't go through the details of it. And in my testimony, I have 
a set of ideas about how principles--about some principles for 
removing suppression of speech and discouraging self-censorship 
in the context of existing laws and legal frameworks within the 
former Soviet Union. They exist ideas about restrictions on the 
nature of filtering if it is absolutely necessary, ideas about 
the restrictions of the use of hate speech or negative speech 
laws to suppress broader classes of speech, and ideas such as 
requirements for independent courts rather than administrative 
uses for law. I'll leave that--I'll leave that to you to read 
later on.
    I want to--I want to focus at--for the end of my testimony 
on the idea of support for generating and creating contexts for 
people to participate more positively. There are positive 
reinforcements that the OSCE member states can follow, 
supporting both the letter and the spirit of their commitments. 
From the perspective of citizen interests in online 
environments, this includes a focus not just on access to 
information, but on the opportunity for online participation, 
creation and engagement, online and networked media 
environments. Speech rights precipitate assembly movement and 
all other rights. Without the medium of speech, other rights 
are difficult to assert.
    There has, in the past year, been an appearance of newly 
assertive civic voices in several OSCE countries that have poor 
records on government legitimacy issues such as free and fair 
elections, corruption and repressive security regimes. The use 
of information technology tools and platforms that combine data 
analysis, visualization tools mapping community participation 
and reporting, and subject-specific expertise point to the 
creation of projects that are specifically designed to 
highlight corruption, create transparency and demand 
governmental accountability. Examples include a project called 
``Help Map,'' which allowed Russian citizens to volunteer 
information and resources to fight fires in the summer of 2010, 
Roskoms yetka [ph], a crowd-sourced map in which Russian 
citizens can document instances of bribery, and RosPil, which 
documents--which crowd-sources independent analyses of Russian 
government procurements.
    These projects show the potential that citizens of--in the 
former Soviet Union have to find creative solutions to their 
own problems. Such projects can demonstrate that drivers of 
change often come from inside repressive environments, and that 
with greater connectivity, opportunities to participate can 
create meaningful change. Supporting the continued openness and 
unfettered nature of the Internet provides projects such as 
these with a firm foundation for the emergence of creative 
opportunities for people to express their citizenship. The OSCE 
role is best articulated in asserting that its members follow 
the letter and the--this spirit of their obligations.
    As far as the U.S. government, its role is best articulated 
as supporting a continued open nature of the Internet as well. 
But as a first step, the U.S. should consider how its policies 
of Internet freedom will affect local communities as--that they 
purport to help. It should follow a do-no-harm approach that is 
sensitive to local concerns and contexts and takes into 
consideration the personal security and goals of the online 
activist working in repressive contexts.
    In addition to voicing support for access, advocates should 
consider how to provide multifaceted diverse tools and 
resources that help people both to get access to information in 
restrictive environments and, perhaps more importantly, to help 
them create, share and preserve, build the tools and resources 
to be engaged in their--as citizens in their countries. The 
recent U.S. State Department initiatives to support a wide 
range of tools in education and information--[inaudible]--
creative content in countries that use extensive filtering is 
an example of the right kind of approach. Narrowly focusing 
resources only on information access to external information, 
on the other hand, downplays the importance of locally 
generated content, information tools--information technology 
tools and the opportunities for communities in repressive 
environments to strengthen their own content creation.
    While building tools to help people participate freely 
online, protect identity and privacy and participate freely in 
the exchange of information is useful, it is ultimately not a 
substitute for the application of political will on the part of 
all OSCE member states to foster legal environments and civic 
cultures of online participation. To ensure that we protect and 
then grow the Internet for citizens first, rather than for 
security agencies or corporate interests, in this context, the 
U.S. has the opportunity to lead by example, whether in 
supporting open governmental data, as with the recent launch of 
the Open Government Partnership, or supporting Internet policy 
principles that represent the interests of citizens as well as 
corporations and governments in forums such as the OECD, or 
ensuring that cybersecurity policies do not impinge on the 
privacy and rights of its citizens, as with ongoing debates 
over the extensions of the Communications Assistance for Law 
Enforcement Act to facilitate surveillance.
    Finally, governments interested in supporting these 
commitments should support information access but also focus on 
the creative capacity, removing barriers to civic 
participation. A set of tools to respond to restrictive 
governments removing both economic and political barriers is 
just the beginning. Governments interested in meeting this 
spirit of OSCE--[inaudible]--can offer many positive incentives 
to use and support that kind of participation.
    Thank you.
    Mr. Milosch. Thank you very much, Mr. Sigal. Again, there's 
a lot to return to there. One thing I would like to return to 
later--if I--if I forget, please remind me--I think many of us 
would like to hear more about freedom of expression in Hungary 
in particular as it touches on the Internet and new laws there.
    So now we'll turn to Mr. Charles Lee.

       DR. CHARLES LEE, FORMER CHINESE POLITICAL PRISONER

    Dr. Lee. OK, thank you.
    Thank you very much, Commission. It's my honor and pleasure 
to be here testifying on what happened in China.
    When we look at China, actually, the Communist regime in 
China is the grandfather of information control. After they 
took over the power in 1949, they took over all these 
newspapers and, you know, radio, that kind of things at that 
time.
    And later on, well, Internet came up about 20 years ago. 
They had a great fear inside the Communist Party because--and 
that was just after the 1989 Tiananmen Square movement--
democratic movement crackdown, so they are afraid--very afraid 
of these sentiments in the--inside China. So they--but they 
know that because they opened their economy, so they cannot 
shut down the Internet. So they try their best to develop the 
Internet in the meantime, the controlling system and then the 
``great firewall.'' So the ``great firewall'' prototype was 
established in China in 1990s already.
    But however, the development of this Internet censorship 
was very much tightened and even more sophisticated after the 
crackdown on Falun Gong practitioners. Talking about the Falun 
Gong, you know, just want to mention briefly that what is--
Falun Gong is: The use of--is an ancient Chinese meditation 
system based upon the principles of truthfulness, compassion, 
forbearance, and they have also five sets of exercises. 
Combined by the principles of this practice and also exercise 
is so effective.
    So the Falun Gong practitioners--the number of them 
increased to almost 100 million after the end '98, so the 
Communist regime started to crack down because they did not 
want to see any group of individuals who can, you know, think 
and then do things separate from their system. So they started 
to crack down in 1999, and then, after that, tens of thousands 
practitioners have been persecuted--tortured to death.
    You know, ultimately because they--you know, they highly 
control information and, like, Internet is one of the--one of 
them--you know, the most important one--you have also the TV, 
radio and the newspapers--they launched a huge campaign against 
Falun Gong, defaming Falun Gong practitioners in order to 
incite hatred against the practitioners.
    But--[inaudible]--there are a lot of efforts done by the 
Falun Gong practitioners, especially those people in this 
country--they have followed a--[inaudible]--Internet freedom 
consortium, combined with the practitioners from the East Coast 
to the West Coast. They have developed a lot of very effective 
technologies that can be used by people inside China.
    One of the examples is that Falun Gong practitioners inside 
China have established about 200,000 material centers. But 
these material centers, they use these technologies developed 
by the Falun Gong practitioners outside of the country to get 
the access to the--to websites out of China and also get the 
materials--all those materials have been sent out, most of them 
by the practitioners inside China themselves. So they--
[inaudible]--materials and then distribute the truth materials 
to people inside China.
    And also, another issue is that--[inaudible]--thousand 
material centers, they support an estimate of 40 million Falun 
Gong practitioners inside China today, even though the Chinese 
government spends so much energy and time and money to crack 
down, but there are still so many people inside China 
continuing to practice and also reveal the truth to the 
grassroots people in China.
    Another aspect is that since the end of 2004, there's a 
book called ``Nine Commentaries on the Communist Party''--was 
published by the Epoch Times. And since that time, there's a 
growing wave of--movement which is focused on quitting the 
Communist Party membership and also their other group--other 
organizations like Communist Youth League and Communist 
Pioneers. And the number of these people who have quit these 
memberships have reached about 98 million just recently.
    So these numbers should tell us how effective these 
technologies are, you know, in terms of piercing the ``great 
wall,'' and also for those technologies--you know, Mr.--[name 
inaudible]--just mentioned that, supported by some of the 
foreign companies, including Cisco. They have--[inaudible]--
technologies. And also, another one is called Golden Shield; 
it's a system of monitoring and filtering the information, 
monitoring the information, communication between different 
people inside China, so they can track down those people's IP 
address and find out who those people are and arrest them. So 
these numbers tell people that, you know, it's like an ongoing, 
continuing war between the Chinese Communist regime and also 
the--between--and the Falun Gong practitioners who have been 
developing these technologies and upgrading these very 
frequently so they make sure these technologies work.
    So I just to say, these technologies have also been used by 
some other countries like those people in Iran, Egypt and also 
other countries like Vietnam, to get more information on--
censored information. So I think this-- nowadays, you know, 
this--one thing is that the Communist regime, they have 
developed so many confiscated technologies and have it used by 
other dictatorial countries as well. But on the other hand, we 
also see hope that people are working on this, piercing these 
great firewalls and also those Golden Shield systems. So it is 
important to raise awareness of this ongoing war between this 
censorship and also these efforts to piercing this censorship. 
And we should support more of these people who can really bring 
this technology to--bring the information to the--free 
information to people in those countries.
    Thank you very much.
    Mr. Milosch. Thank you very much, Charles. I hope--we hope 
we can return to some of the themes you raise, particularly 
including the effect that China may have on degrading Internet 
freedom standards in the OSCE.
    As the chairman said before he went to vote, Shelly Han and 
I will proceed to ask questions regarding your testimony, just 
as if we were--we were in a hearing while we wait for the 
chairman to return. Ms. Han, I should say, is on the staff of 
the Helsinki Commission. She is working on Internet freedom 
legislation for the chairman, and she organized this hearing. I 
will begin with a question, then I will turn over to Shelly and 
we'll go back and forth.
    The question that I wanted to start off with--and this is 
perhaps for--more for David Kramer and Mr. Rohozinski--though, 
of course, all are welcome--is: Is it correct to see in the 
OSCE--we've talked about China here--is it correct to see China 
as the instigator or as the motivating force, inspiration, 
provider of technology, provider of techniques and apparatuses 
to countries that are--that are restricting Internet freedom? 
Or is there--is there--is it--do we tend to exaggerate that? Is 
there some other driver, perhaps, within the OSCE--would there 
be within the OSCE a country that plays the role that we often 
attribute to China of spreading or providing technologies of 
repression? I'm wondering about Russia and Kazakhstan, but it 
could be another country.
    Please.
    Sec. Kramer. I would--China is an accomplice to it, I would 
say--in providing technology and know-how. But the motivating 
factor is insecure, paranoid, authoritarian regimes in the 
OSCE. They are the ones who are driving efforts to crack down 
on Internet freedom just as they are responsible for 
suppressing other kinds of freedom. And what we see are these 
regimes cooperating with each other.
    And in fact, they do a much better job of collaborating, 
cooperating with each other--sharing technology, sharing, if 
you'll allow the expression, best practices--at least for what 
they do, than we do in the democratic community of nations in 
terms of sharing information and technology and coming together 
to push back on these challenges that are posed by 
authoritarian regimes.
    If we had included all of Central Asia in our survey we 
would have seen Uzbekistan and Turkmenistan, as one of my 
colleagues had mentioned, also in the not-free category when it 
comes to Internet freedom. And some of these regimes do rely on 
outside players, such as China, to help them in suppressing 
Internet freedom in their countries. But I think to be clear, 
the driving force is the regimes themselves who do not want to 
see freedom, whether it's on the Internet or anywhere else, in 
their societies.
    Mr. Milosch. Thank you.
    Mr. Rohozinski. Well, I would add to that, I think, maybe 
something which is a basic fact. And that is that the OSCE 
region--countries within that region also belong to other 
regional blocs; for example, the Shanghai Cooperation 
Organization or the CSTO. Within those organizations certainly 
there is collaboration between security forces and security 
interests around shared agendas. Whether that translates into 
technical assistance, I think is a fairly far stretch at this 
point in time. We certainly have not seen in any of the former 
Soviet states the adoption of identical technologies such are 
used for securing the great firewall of China. That simply 
doesn't happen.
    We see instead a lot more just-in-time approaches to 
filtering and blocking, which are built around the specific 
political agendas of the regimes at stake and generally apply 
to times when those regimes feel it is necessary to tamp down 
on inconvenient opposition movements. Certainly China plays a 
role in terms of supplying technology that builds the physical 
layer of the Internet. And certainly Chinese operators, 
particularly in Central Asia, have been vying with Russian 
telecom operators in terms of becoming the carriers of Internet 
traffic for those countries in the region.
    In fact, when we did a study in Uzbekistan several years 
ago and compared the censorship regimes on several of the 
Internet service providers, we found that there was an 
inconsistency between those that chose to buy their Internet 
services through Russian providers and those who used China 
Telecom, where China Telecom's censorship regime had 
effectively been exported to this particular central Asian 
country. So at the physical layer obviously Huawei is a major 
provider of equipment.
    And since Huawei also operates in Western markets, all of 
their equipment conforms to CALEA standards, which essentially 
means it has the same technologies and protocols built in to 
give lawful access to interception of Internet technologies as 
does anybody else. By that measure we can say that Chinese 
technology is used to secure censorship means in--[inaudible]--
states. But whether that's a direct transfer of technology or 
something which is inherently built in to the standards of 
technologies that we all use I think is a more accurate way of 
putting it. Thank you.
    Mr. Milosch. Thank you. Anyone else?
    Dr. Lee. To talk about little things about--you know, 
besides the technical aspects is that these countries in the 
OSCE region, most of them are former communist countries. Yeah, 
I know they're not right now, but there are still elements of--
you know, from the previous communist parties--the mentality 
and things. And I think it's important to realize the movement 
I just talked about, the--[inaudible]--Communist Party in 
China. This is like a de-communization of people's mind and 
behavior. So this is, I think, is like a broadest, you know, 
angle to look at these things. And it will truly improve this 
free information efforts, so for people to realize what is 
truth. Thank you.
    Mr. Milosch. Thank you very much, Charles--or, Mr. Lee. We 
go back a little ways. Shelly?
    Ms. Han. Ms. Mijatovic, I wanted to ask you--your report 
that you issued last week provides a really important baseline 
for where we are in the OSCE region in terms of Internet 
content regulation. And I'm wondering where you see your work 
going forward on this issue, what kind of support do you need 
from participating states and how receptive are--what we would 
call, without naming, but the problem countries--how receptive 
are they to efforts from your office or other parts of the OSCE 
or even bilaterally to changing some of the regimes that they 
have right now?
    Ms. Mijatovic. Thank you. Well, the report is in a way a 
step forward in the process of reminding governments of 56 [ph] 
about their commitments and, as you rightly pointed out in the 
headline, promises our heads of states made on so many 
occasions in relation to the free flow of information. It 
doesn't change, offline or online. The situation within the 
region and beyond of course--we cannot ignore it--it's not 
rosy.
    The attempts of the governments to further restrict, 
suppress are visible, almost without any shame. This is done in 
the process of stopping and silencing the voices. Sometimes we 
see kind of a sophisticated way of suppressing free speech. But 
in the cases we see more and more and--colleagues today and--
mentioned several countries where we see the problems, which is 
now increasing particularly in relation to Facebook--social 
media. So that is seen by--and I would dare to say--unstable 
governments as another threat in the process of establishing 
more and more borders.
    And I really liked what Rafal said about digital curtain. 
What they are trying to do, they are trying to build a curtain 
within their own countries. But again--and I would repeat 
myself once again, it's a lost battle because in the offline 
world history taught us that no matter how much the regimes try 
to suppress free speech or human rights in general, people will 
always find ways to reach for those rights. It's not an easy 
task; it's not an easy job for my office and for the mandate 
that I have. I must say that the cooperation is there, but 
sometimes I have a feeling that some of the documents--some of 
the most important documents we have within the OSCE are just 
empty words on paper because they are not complied with, they 
are not honored and they are not implemented.
    My job in this process is to remind the governments, but 
today we also heard from a distinguished commissioner at the 
beginning, do we need a hammer? I do not think so because all 
the tools that the OSCE has at its disposal, because of 
comprehensive and 
consensus-based nature--all those tools are of democratic 
nature. And those are the only tools we use in this process in 
order to build more trust.
    It's not something that happens overnight, but the 
cooperation is there. There is more need for coordinated 
approach by different international organizations in order to 
make changes. Belarus was mentioned on so many occasions. The 
only thing we can do is to continue raising our voices and 
trying to change the situation there and to help people that 
are really suffering tremendously just because they have 
differing views or they tried to express their opinion.
    Also the countries that were mentioned and they're all the 
time on the very top of my agenda. Hungary, you mentioned, is 
of great concern for my office. I raised this issue first time 
in June, 2009. And we are at the moment monitoring the 
situation there in order to see in which direction this will 
go.
    You also ask, what are the ways we can help and we can 
change the situation? We can offer legal analysis of certain 
laws, articles we send with recommendations to the government. 
We did it in the case of Hungary. Unfortunately, the 
recommendations and everything that was put forward was not 
accepted as valid for certain changes. But we do continue 
dialogue because that's the only way. And from the Hungarian 
government's side there is cooperation, in a way that they do 
listen. But unfortunately still there are no changes, even 
though I do expect that those changes will--we will start 
working on it soon.
    Turkey as well it was mentioned--and I think it's important 
in this because we mentioned several Central Asian countries 
and post-communist countries. Turkey is in a way a very 
particular case. We have two issues that are burning: 
imprisonment and Internet freedom. But I think that would 
deserve a longer time in order to explain it. We do work with 
the Turkish government very openly.
    I'm invited by the authorities for the first visit since I 
was appointed in September. I welcome this step forward very 
much, and I do hope that we will come to some conclusions which 
will change the Internet law that in a way needs to change if 
you want to see any positive movements. But at the moment, the 
situation doesn't look very promising.
    Mr. Milosch. Ms. Mijatovic, could you characterize the 
Hungarian law and how it affects Internet freedom so that we 
all have an idea?
    Ms. Mijatovic. Well, it's almost impossible--[chuckles]--at 
this occasion because the law--it's one of the--it's thousands 
and thousands of pages that were adopted overnight, no public 
consultations. It is very much related to the whole media 
package, so it's not just the Internet freedom. We heard that--
there were many issues mentioned today, but in relation to 
Internet particularly--Internet is seen as just another media 
that needs to be regulated in the old traditional way.
    Media Council--Media Authority, which is the regulatory 
authority, is composed of members with the mandate of nine 
years renewable, which is not seen in any of the EU member 
states. They have full power to regulate electronic media, 
Internet and press, which is also something that is not seen 
in--within the EU member states' legislation. Internet is a 
chapter that we also analyzed, and we offered the analysis to 
the Hungarian government in order to change the law before it 
was adopted, but as I said, that was not accepted. And the only 
changes that were made were changes--I would call them of a 
cosmetic nature--that were made were changes in relation to the 
request from the European Commission that were related to 
different issues than Internet freedom.
    Mr. Milosch. Thank you. Thank you very much. You know, it's 
very tempting to ask each of you now to rate the five worst 
countries in the OSCE region but I think we've brought that out 
already and Freedom House has, by the way, been working on that 
and done that for us. So I'll ask another question here. Can 
you give me an idea how the technologies used in Internet 
repression are changing?
    In 2006, we tended to think of Internet repression 
generally in terms of blocking sites and putting surveillance 
on users. I have this sense, but don't know exactly, that in 
fact there are now a lot more things going on, and while 
blocking and surveilling are still issues, they're no longer 80 
percent of the games or 60 percent of the game, but are 
becoming--are diminishing in their relative importance as many 
other nefarious tricks and devices have come into play. Can any 
of you--all of you elaborate on that or respond?
    Mr. Rohozinski. Permit me to make the first remark. I think 
there's a--that there's an essential fact here that has to be 
recognized and that is that the technologies that are used for 
limiting access to information or targeting and identifying 
individuals are the very same technologies that we have 
demanded to be built into the Internet in order to tackle the 
problem of cybercrime, cyberespionage, and cyberinsecurity. In 
fact, some of the most significant technological changes, which 
will transform the Internet, are being brought about by our 
concern of securing our national networks from these parasitic 
and ultimately what we see as negative occurrences.
    Now, that having been said, it's also quite clear that 
regimes have become well versed in the art of information 
operations--that is, how to create, shape and influence actors 
on the net using a variety of different tools, including legal 
tools, including tools that effectively try to drive opposition 
movements out by flooding their dialogue with a counter-
discourse that effectively confuses users; by using shaping 
through the turning on and off of different parts of networks 
available on a national level in order to sow doubt, so fear 
that technologies don't work or that are in, effect, working 
against the very activists that are using them.
    That, I would say, is one of the fundamental trends which 
we have laid out as second- and third-generation filtering, and 
ones which, as I say, are being propelled by our own concerns 
about securing cyberspace from cyber-crime and cyber-espionage.
    Now, I agree with my colleague from the OSCE that in some 
respects, it is human agency, the willingness of people to put 
themselves at risk, that ultimately drives social change and 
net technologies. But it's also undeniable that these 
technologies have made the work of activists and others who 
care about their communities much easier, much quicker and much 
less bloodless.
    I fear that as cyberspace becomes closed down as an 
environment, as a domain for legitimate political action, we 
will be moving from the relatively bloodless jaw-jaw [ph] of 
activists to the war-war of rebellion. And I, for one, would 
much rather live in a world where the revolution can be tweeted 
than when it's belched from the barrel of an AK-47.
    Mr. Milosch. Thank you. Others? Shelly?
    Ms. Han. We've mentioned a couple times the concept of a--
of a regional or national Internet as a way for countries to 
control information. Recently, Google blogged on their blog 
about Kazakhstan's request to them to only route information 
through google.kz, which would mean that in effect, they would 
be creating almost their own national Internet.
    And Google--you know, demurred and asked that--you know, to 
reconsider that. And I think that they were somewhat successful 
to--but they--there are still--like, I think future domain 
names that are added to google.kz will still come under this 
restriction.
    So can we talk a little bit about the technology behind 
that? How does that work versus blocking? And is that sort of 
the future for countries--I think Cuba basically already has 
something similar to that. But is that the future for countries 
that want to sort of take themselves off what we would consider 
the global Internet and then create their own version? And how 
does that work, and why should we be afraid of that?
    Mr. Rohozinski. Well, let me take that question. The 
latest, and I think the headline-grabbing aspects of Kazakhstan 
wishing to use control of its top-level country domain as a 
means of creating a national intranet is actually a bit of an 
old story. Effectively, in Tajikistan and Kazakhstan, national 
intranets based upon an Internet which is accessible only 
within the top-level country domain has existed for at least 
the last three or four years.
    In fact, I would say that this is one of the emerging forms 
of censorship, where economic discrimination or economic means 
are used as a way of effectively creating a two-speed Internet 
for citizens of these countries.
    So the way that it's worked in Tajikistan and the 
Kazakhstan previously is there was a different tariff put 
against someone who wanted to access the Internet that was 
restricted to domains existing within .tm or .kz and those that 
gave access to domains outside of that. The difference now 
that's being made is that that kind of virtual bubble built 
around tariffs and access to domains are starting to be applied 
to services which exist on a more planetary level, like Google.
    We fully anticipate that both the repatriation by most 
states in the region, and in fact globally, of top-level 
domains, which effectively gives them control over the domain-
name system within their countries, combined with requests to, 
for example, register international media carriers as local 
media, making them subject to media laws, are the emerging, 
front-leading edge of what we'll see as control regimes that 
exist.
    We are already starting to see similar kind of efforts, for 
example, being put in place in Iran--the creation of a national 
intranet, again, which segments itself from the global 
Internet. And we fully anticipate that economic, i.e., tariff 
means, are going to be as effective in creating and making that 
an effective means for containing populations as will any 
physical means put over trying to restrict access to the global 
Internet.
    And again, I would say that that is one of the issues in 
terms of what Department of State and U.S. government should be 
looking at in terms of addressing the problem of keeping the 
Internet commons, that simply funding circumvention 
technologies is not enough. It's going to take a lot of policy 
work to crack this particular nut. Thank you.
    Ms. Han. But before I let other people comment, how exactly 
would the State Department address that? You know, because it 
seems that now, because of the way the Internet governance is 
established now, it--there is no government-government 
mechanism for doing that--unless I'm mistaken. But I'm just 
curious if you had some thoughts on how to address that.
    Mr. Rohozinski. No, it's very true. The part of the--one of 
the benefits of the way that Internet governance has worked up 
to now is the fact that it's diffuse and multipolar and 
controlled by a variety of different actors, including 
commercial, private, self-governing, self-constituting bodies.
    What has happened, and what is a trend outside of the OSCE 
as an organization, OECD as an organization, basically those 
which conform to our, let's say, similar normative 
characteristics, is that you are seeing regional bodies start 
to look at the issue of Internet governance as a strategic 
priority; harmonize amongst themselves, such as for example 
within the SCO; use and leverage international organizations as 
a way of shifting and centralizing inter-governance--Internet 
governance into organizations that are collective national--or, 
sorry, international and subject to majority vote.
    So the danger is that because the simple majority exists, 
there is a danger that in effect, those rules will start to be 
changed. And I think it's extremely important for both the 
OSCE, at least in terms of its members from Europe and the 
Euro-Atlantic alliance, and certainly the U.S. in terms of its 
international engagement, to realize that strategic lobbying 
and building a coalition of the willing around a concept of a 
free, open global Internet commons is extremely important as an 
idea to push cultivate, and support.
    Thank you.
    Dr. Lee. I want to comment on the situation in China. 
[Inaudible]--the Chinese government has been tempted to build a 
national Internet for a long time, but because China's economy 
is so heavily relied on in foreign trade and you know, there 
are a lot of foreign business in China, so if they did that, 
there would be a disaster for the economy, so they couldn't.
    So they're trying to tailor--you know, if they could build 
up a national Internet for the Chinese people or something like 
that. But technically, it's very difficult. So I don't see this 
in the near future that can happen. Thank you.
    Mr. Milosch. I'd like to ask a question of Mr. Rohozinski 
and also Mr. Lee. I'm--and of course, again, to anybody who 
interested in commenting. But it would be very helpful if 
somebody could explain the difference between second--the 
notion of second-generation technologies in fighting Internet 
restrictions or these--the second generation of Internet-
restriction technologies and how that's changed from what we 
were dealing with about five or six years ago.
    And related to that, I'd like to hear people's opinions on 
firewall-busting technologies versus--or, circumvention 
technologies versus other means of--other technical means of 
promoting freedom on the Internet. I guess we start off with 
Charles.
    Dr. Lee. I feel this is like--like, as I imagine, it's 
ongoing war, because the--for the next Internet-censorship 
technology--[inaudible]--upgrading and also, the people, you 
know, in this country, I mean, Falun Gong practitioners, they 
also have upgraded these technologies constantly. So I don't 
have any clear answer for this, you know, generations for--per 
se, because myself is not a technical person.
    But I want to add that, you know, the way of controlling 
the Internet is--you know, there's a lot of ways for the 
communist regime. [Inaudible]--very interesting thing in China 
is that they have hired millions of people, you know, who are 
unemployed to post the comments in the Internet, to--trying to 
mislead people's opinions. This is one of those things they do.
    I'd just say, on the side of, you know, the technical 
question--they pay these people like 50 Chinese cents for a 
post they do, so--which is very good money for them. They--you 
know, this--you know, they use these resources in China to 
control the Internet contents. Thank you.
    Mr. Rohozinski. So this is outlined actually in the written 
testimony that's been submitted to the Commission, but I'll 
restate it here in simpler terms just so we can have a criteria 
for it.
    Mr. Milosch. Please.
    Mr. Rohozinski. So first-generation filtering essentially 
relies upon lists that enumerate sites or content that should 
be blocked and creates a firewall, or a physical barrier that 
simply does not that let that through. Now, this takes on 
various technical characteristics, but ultimately what it means 
is that you are creating a wall that stops certain content from 
being accessed. It exists all the time. It is constantly 
upgraded. It effectively enumerates as you go along and in some 
cases has become much more anticipatory in terms of what 
content should be blocked. This is what we referred to as the 
``great firewall of China.''
    There are very few countries in the world that practice the 
``great firewall in China''-type approach. And in fact, the 
number of countries practicing that particular approach is 
falling.
    Mr. Milosch. So I take it that no OSCE countries--
    Mr. Rohozinski. OSCE countries, we see Uzbekistan, we see 
Turkmenistan certainly using those kinds of technologies where 
there is a constant block list, constantly applied.
    Mr. Milosch. Thank you.
    Mr. Rohozinski. We're starting to see selective blocking on 
a much less--lower level in places like Kazakhstan and 
elsewhere. However, the vast majority of what we're now 
starting to see as online censorship are what we call second-
generation techniques. These may apply the same kind of 
blocking, but it doesn't do it consistently and doesn't do it 
over time. What it does instead is applies them when those 
sites or when that information is most needed.
    So for example, in 2006 during the Belarus elections, 
selected sites were blocked, but only for a three-week period. 
Other than that, they were available. Other second-generation 
techniques include more active measures taken to shut down 
sites. Rather than to filter them, they are attacked through 
denial-of-service attacks, essentially rendering them 
inaccessible to anybody on a planetary level.
    There are also hacking attacks which deliberately 
manipulate or change the content on those sites themselves. 
Some of them are quite crude, simply defacing or bringing down 
the site. Some of them, such as we have seen in Kazakhstan, can 
be quite elaborate, or in effect, what happens is, content is 
injected into a legitimate site, only changing small aspects of 
it rather than entirely blocking the site or entirely changing 
or defacing the site in a way that it's not effective.
    Secondly, second-generation techniques also include the use 
of surveillance and selective prosecution and the designing of 
laws that create harsh barriers for someone wishing to either 
use certain technologies or access certain information, 
effectively criminalizing it or creating high-level finds that 
cow people, creating fear and doubt and actually wanting to go 
outside of this.
    Third-generation techniques take it a step further. Those 
include, for example, the use of malware, computer-virus based 
attacks against human-rights groups, opposition groups and 
others in order to pollute their information flows, disrupt 
their communications, effectively turn members of the 
organizations against each other if possible.
    They include the use, as Charles said, of 50-cent armies, 
effectively hiring large numbers of counter-bloggers who engage 
opponents in an online dialogue or simply overwhelm their 
information flows through the creation of alternative 
information. Now--
    Mr. Milosch. Do any OSCE countries do this?
    Mr. Rohozinski. Yes. We've seen this very effectively used 
in Belarus. We've seen this used during the Russian elections. 
We--in fact, we see this used in just about every OSCE country 
east of the Elbe.
    Denial-of-service attacks are used constantly against 
independent media, opposition parties or, in effect, a lot of 
very inconvenient information that exists even out there in the 
wild that may be specific to any one politician.
    In fact, a few years ago, if you had opened a Russian 
online newspaper, you would have openly seen adverts where 
people would hire out botnets to carry out denial-of-service 
attacks against anyone who had the money to pay them the $200 
or so to carry these things out. We obviously saw denial-of-
service attacks being used very effectively in 2007 against 
Estonia and later in the 
Russia-Georgian war as well.
    Now, what I would point out, and I would--here, I would put 
my cards on the table: As an operator of a circumvention 
technology, it's that dealing with second- and third-generation 
type attacks is extremely challenging. And none of the tools 
that are being created, either by our colleagues at the Falun 
Gong or anywhere else, can effectively get a site back up, 
circumvention tools, when it comes under denial-of-service 
attack or encourage people to use online tools where they may 
fear doing so instead of prosecution or defend them against 
malware-based surveillance or other kinds of techniques that 
are being used.
    So these are hard challenges which don't have solutions in 
the purely technological realm.
    Mr. Milosch. This is very discouraging. I'm getting a 
picture here of an increasingly broad arsenal of the--of the 
repressive governments.
    Ms. Mijatovic?
    Ms. Mijatovic. Just a brief comment, but in the OSCE 
region, unfortunately, you don't need to be very 
technologically advanced in order to see how the Internet 
freedom is suppressed on a daily basis. You do not need second 
or third generations. You just need a young Facebook activist 
who has a differing view and who is the next day arrested on 
dubious charges and put in prison for it. So those are also the 
ways of, in a way, very basic ways of suppression and 
restriction.
    In Azerbaijan, two young bloggers were in a prison for 
almost two years because they just put a video clip on their 
website that was critical of the government. They are finally 
outside the prison, but there was no need for the government to 
use any advanced technological means in order to put them in 
prison and to have this enormous chilling effect that is 
continuing in Azerbaijan, because now there are two more 
Facebook activists in the prison just because of differing 
views, again, on dubious charges.
    And when I write to the governments, what I hear from them 
that it's absolutely nothing to do with freedom of expression, 
it's because of drug-dealing, that's mostly the case that it's 
used, drug-dealing or hooliganism as an explanation of 
suppressing people's rights to express their views on the 
Facebook. And that is becoming more and more problematic, 
especially in Central Asia, because it's seen as--especially 
after African Spring--as another threat to the governments', in 
a way, will to suppress any critical voices in their countries.
    So just the point was that you do not need advanced 
technology in order to continue this agony, in a way, of trying 
to suppress people's voices.
    Mr. Milosch. Point taken. Mr. Sigal?
    Mr. Sigal. I'd just like to point out that this trend--
we're talking about it as if it's new, but in the former--in 
many countries in the former Soviet Union, this is something 
that's been occurring for 15 years. And if there are additional 
tools in the arsenal of repressive regimes today, it does not 
diminish the basic strategy that they've employed for a long 
time, which has always been a mix of tactics designed to 
intimidate, to restrict, to suppress, to propagandize, to 
create disinformation or misinformation around a particular set 
of ideas.
    If, in 1996, the response of--the way to take out an 
independent newspaper in Kazakhstan was to throw a firebomb 
into a printing press, today there's a similar mechanism. And I 
think we shouldn't be discussing this issue as if there's some 
kind of essential change in the way--the approach that's--that 
we see here.
    There are websites that were altered, hacked and altered 
around--opposition websites that were hacked and altered in 
Kazakhstan 10 years ago so that that second-generation 
technology that Mr. Rohozinski is speaking of is--has been 
occurring in Kazakhstan for 10 years.
    So it is not--it is--again, the intent is to focus on 
internal voices that have an effect not just of receiving 
information and listening passively, but are actively trying to 
produce content information or create a voice that are a threat 
to the legitimacy or threaten the authority of regimes around 
very specific issues. And security ministries in many of the 
countries we've been discussing are--have active strategies 
about how to combat or pinpoint those kinds of issues. And I 
think that's the--the proper framework for understanding the 
problem.
    Mr. Milosch. Thank you. Mr. Kramer?
    Mr. Kramer. Could I just quickly add--picking up on some of 
what's been said--it is important to recognize, I think, that 
the technology can have a negative impact on the state of human 
rights and freedom in the world, and certainly in the OSCE 
region. The OSCE is no exception.
    In the recommendations and the testimony I've submitted I 
suggest that companies conduct transparent human rights impact 
assessments so that they determine how American-made technology 
might adversely affect the privacy of citizens in the OSCE 
region that could severely restrict freedom. And in light of 
the European parliament's passing an export control regime of 
products that have a negative impact on Internet freedom, I 
would suggest that the Congress also look at the possibility of 
such a regime.
    And then, in picking up on a point that Rafal had made and 
going through the different generations of technology that 
these regimes use, as critically important as busting through 
the firewalls is, there are other anti-censorship technologies 
and assistance and advice that can be provided. And those 
include training so that activists are aware of and recognize 
the threats that are being posed--they reduce their 
vulnerabilities; security, so that they have the support 
necessary to fight against the various cybersecurity threats 
that they face on a daily basis; and then thinking about urgent 
response mechanisms so that if in urgent need they have places 
that they can go and networks that they can rely on.
    Thank you.
    Mr. Milosch. Thank you.
    Ms. Han. One more question?
    Mr. Sigal, I wanted to ask, and I'd like others to chime in 
if you'd like too, but really what is the role for citizens? I 
mean, Global Voices is a forum for users in a lot of different 
countries. But how should citizens be working? I know we're 
focusing here on government policies and what governments are 
doing but, you know, I'd like to look at--talk a little bit 
more about what private companies--the technology companies 
that are expanding the, you know, either the social media or 
the infrastructure itself--what should be their role? But then 
also, what about users?
    Ethan Zuckerman famously coined the cute-cat theory of, you 
know, sort of harnessing the number of users and the interest 
in the Internet for watching cute cat videos; how do you then 
translate that into users who are really--how should I say 
this--that are interested in how they're getting their 
information and what information they're getting? You know, how 
do we make that leap from people who just randomly want to go 
on and watch YouTube videos to people who actually care about 
how their government is controlling or blocking their Internet? 
I wondered if you had any thoughts on that, and others as well.
    Mr. Sigal. Well, this--the fundamental structure of online 
communities in a network media society is webs or circles of 
individuals who have multiple links through their communities 
that are focused around common interest, if you're talking 
about citizen media space. So if--for instance, a very simple 
example, if I have blog and I write about cats, and I will put 
a list of links in my--within my blog to other people who also 
write about cats. That constitutes a community.
    Once a community is formed, it continues to focus on its 
subject or its issue but it has become potentially an active 
space for other contexts--other conversations. If we look 
broadly speaking at the way that online communities have moved 
in regard to, say, Arab Spring movements, we see that the 
function of the Internet is very much an accelerator. It is 
very useful at bringing together a cross of categories, that is 
people who--people who like cats, and networks--that is, people 
who are involved in another and happen to live for instance in 
the same physical space. And there's a sociological theory 
around this that's called Catnets, which is not the same theory 
as the cute-cat theory.
    On the Internet it becomes much easier to create, to raise 
a flag such as an image or a concept or an idea, and rally 
people around that idea. And the formation of those groups can 
be--is much more rapid. Whether or not that leads to some kind 
of actual social change is a different question. But if we look 
in Egypt, for instance at the We Are All Khalid Said movement, 
we see a simple event which is difficult but an event, which is 
the arrest and then eventually the killing of an individual, 
that served as a flag or a concept around which people could 
rally.
    As I said, as a social movement it is not different, 
necessarily, from earlier kinds of social movements except in 
terms of its accelerating potential. And when we follow how 
social movements track, not just nationally but around the 
world, we see the potential for communities to gather quickly 
around a concept rather than around an individual--are greatly 
enhanced. And one way of thinking about it is that we should be 
thinking about how ideas move through people and networks 
rather than finding or focusing specifically on charismatic 
leadership or on traditional hierarchies of organizing in 
opposition movements, which is not to say that organization is 
not important. I think anybody who works in the digital media 
activism space would say that you still have to organize people 
if you want to get them onto the street.
    It's not technological determinism to say that these are 
tools that are effective in creating and driving change. It's 
more of the--more the point that there's a different kind of 
organization. And if you're thinking about how communities do 
organize, they--it's a matter of choosing the right tool and 
the right tactic for the event.
    So in Tunisia, Facebook was really important. And it was 
important because so many other user-generated content services 
and blogs were blocked, but the private networks within Tunisia 
were able to focus on work in the Facebook space. But that 
didn't reach a large audience; it reached a very narrow 
audience. For them to be effective, they had to be translated, 
taken out of the Facebook community, put into blogs, put into 
other contexts, and then ultimately broadcast by Al Jazeera. 
And then they were effective at a national scale.
    Mr. Rohozinski. I'd just like to comment on something that 
Ivan said because I think it's a very essential point here. The 
character of opposition movements--how they coalesce, how 
citizenry can, in effect, mobilize itself for social change--
has been transformed by technology. You know, whereas 
previously movements required long gestation periods, different 
organizational structures, now it is possible to create a 
``Facebook revolution'' essentially because of the means of 
being able to bridge commonality of interests and create an 
emotive spirit to get out on the streets and carry out social 
change in ways that simply isn't possible when you have an 
organization that's dependent on leadership. You can have 
leaderless resistance.
    However, and I think this is an important point, just to 
come back to something that you had mentioned as one of your 
questions, I don't--certainly don't want to leave the 
impression here that circumvention tools or technologies are 
not important to be supported in their own right. I think 
they're an essentially a very important tactical tool for 
promoting openness and the possibility of social change. 
They're not a substitute for a strategy.
    And I think that's where, in the past, debates have 
unfortunately fallen into--that somehow we can design something 
that will meet our objectives or create our objectives. Let's 
not forget, fax machines did not lead to the Polish revolution; 
Solidarity did. Much in the same way, it'll be the work of the 
Falun Gong or concerned Chinese citizenry that will effect 
social change and not TOR or not GIFC or not Sai-Fon [ph].
    Thank you.
    Mr. Milosch. I'd like to switch gears for a moment here. 
Just as most of you or all of you represent groups that are 
about change, that the Helsinki Commission is also about 
change. And it's of course very helpful to get your assessment 
of the situation and the problem. I'd like to talk about what 
we can do going forward.
    My first question would be for Ms. Mijatovic. The Helsinki 
Commission, of course, was created to interact with the--with 
the OSCE. Do you have any suggestions on what the Commission 
and congressmen who are interested in the OSCE can do to 
promote those--the Internet freedom agenda to promote freedom 
on the Internet within that organization? What kinds of 
things--and you can be very particular, very specific--would be 
helpful to move this issue onto the agenda in an effective way 
within that--within that group?
    Ms. Mijatovic. Thank you for this question, it's very 
relevant. And I would also like to use this opportunity for us 
to thank the Commission for constant interest and involvement 
in the work of my office and its support, which in a way 
presents an enormous energy that is given to us when we see 
that participating states through their commissions and 
different other bodies are trying to engage more in all the 
issues that we are discussing in order to promote and to 
implement the commitments.
    What can be done in order to enhance this cooperation and 
in order to make those states that are not actually honoring 
the commitments? I think what we have as a problem in certain 
regions--but in certain countries of the OSCE region--is 
something that is almost in a modern, digital world something 
that is, you know, not understood well. It is the problem of 
telecommunication infrastructure, a very low level of 
penetration of the Internet, and ultimately a lack of Internet 
literacy education.
    So I think, in a way, in order to promote freedom there is 
more need to continue talking about it on different levels and 
in different countries because I always said in my work it is 
almost impossible to do anything from Vienna. In order to 
change things, you need to go to certain countries in order to 
promote the commitments and in order to engage with civil 
society and with the authorities.
    Sometimes it's a struggle, but in this process the 
Commission and all other bodies that are interested in working 
with the office can do more on promoting trainings and 
education in certain regions of the OSCE so we can move to a 
different level when we talk to people and we try to help them, 
because some of the issues that we tackle today in some of the 
countries would be almost impossible for people to understand 
in order to know their rights. So in those countries it's very 
easy to manipulate people's minds and their decision-making 
process because they do not know enough for a different 
reasons.
    Maybe it's a legacy from the old systems, as we heard 
before, but maybe also the restriction of information that is 
seen as a tool of suppressing their views, not to mention any 
critical views. So the chilling effect is another thing that we 
see as a huge problem. I do not have a formula how to tackle--I 
do not have a formula how to tell Commission in order to engage 
in this process.
    But I think what we have already--the cooperation with the 
NGOs and different other organizations in order to promote 
Internet freedom and to actually explain what does it mean and 
why it is so important so it's not seen as some kind of monster 
behind a closed door that is going to destroy, as I hear on 
many occasions, tradition, culture, and sensitivities of 
certain societies, which is not the case. So I would just 
encourage you to do more and more of hearings of this kind in 
order for us to be able to talk to the audience but also to 
engage in the projects that would promote Internet literacy 
within the OSCE region.
    Mr. Milosch. If I could follow up, because I have a very 
closely related second question, and that is, if the first one 
was about how the Commission can interact with the OSCE to move 
this issue forward, what about what Congress can do to move 
this issue forward in the OSCE and in the broader world?
    I think I've already mentioned that the chairman is working 
on long legislation on Internet freedom. It'd be very 
interesting to hear from each one of you your thoughts on the 
traps that legislation--that it could fall into, the directions 
we should go, your thoughts and reflections on emphasis, the 
success or failures of previous iterations of Internet freedom 
legislation and, you know, how the issue is changing and how we 
need to be changing our thinking about it in order to, as I 
said, promote change--what about change?
    Ms. Mijatovic. Well, if I may, I said at the end of my 
statement that one of the humble suggestions of mine would be 
to make an Internet a human right, like, for example, Estonia 
or Finland did. So I think if more and more countries would 
engage in making it a human right and enshrine it in their 
constitution, that would probably bring long-term changes in 
people's mind on how important it is to have access to 
Internet.
    On a more practical level, I think Dan mentioned it during 
his testimony, this year towards the end we will have a 
ministerial conference in Vilnius. And Lithuanian chairmanship 
made freedom of the media and freedom of the Internet, of 
course, as one of their priorities. I know that the 
chairmanship is aiming to adopt a ministerial decision in 
relation to Internet freedom.
    And the support from the Commission and the Congress and 
the U.S. government in this particular issue would make a great 
impact and a great change in order to make this happen because 
I think it would be, in a way, not a new commitment but rolling 
over what we have already into a new reality, which is Internet 
reality. And it would present a political view on the 
importance of Internet freedom within the OSCE region.
    And I do hope that 56 will have enough courage and wisdom 
to adopt such an important decision at the end of the year. So, 
you know, we will be open--my office of course doesn't play a 
role in their decision-making process, but we would assist and 
help as much as we can, because because I think for Internet 
users and for citizens within the OSCE region this would 
present an enormous step forward.
    Mr. Milosch. Thank you very much. Fifty-six--that is the 
tough part, the 56 member states. David?
    Mr. Kramer. Just very quickly--the three points. One, the 
Commission and members of Congress really can't stress enough 
the importance of open access to the Internet. That this is, as 
Dunja had said, this is a fundamental freedom-- it's freedom of 
expression. Having hearings like this, having hearings specific 
about certain countries and abuses that governments are 
responsible for, I think, is very worthwhile.
    Second is to call out member states that are not complying 
with these fundamental freedoms--naming and shaming. It is 
tough to do in an organization that is based on consensus. But 
some member states have to stand up and take a principled 
position when there are such abuses taking place and trodding 
on fundamental freedoms.
    The third point is to support in the strongest way possible 
the Office of the Representative for Freedom in the Media. It's 
critical. It's not an easy job. And it deserves full support 
from members of Congress, from the Commission and from the U.S. 
government.
    Thank you.
    Mr. Milosch. Please?
    Ms. Mijatovic. A quick note on this. And thank you very 
much, David. You said it, so I didn't have to say it--
[chuckles]--myself. But support is there and it's extremely 
important to have this support because it gives more energy and 
more courage for us fighting for free speech around the world.
    But I think we are criticizing a lot of 56, but I think 
also this is a good moment to remember that the office was 
created by 56. And the office is the only intergovernmental 
media watchdog in the world. It is unique, and I think this 
uniqueness and in a way the beauty of the mandate is that the 
56 created an institution to name them, shame them and blame 
them for not complying with the--with what they agreed on a 
voluntary basis.
    So that's actually my job. It's not any easy one. It's a 
very sensitive and very responsible task. But I do not hesitate 
to explore the mandate and innovate to bend it and stretch it 
when there is a need to remind the participating states. But if 
there are more voices joining from the NGO side and from the 
authority side, of course, the impact and the results are much 
greater.
    Mr. Milosch. That's a very true observation. Pardon my 
flash of cynicism on the number 56.
    Please, Mr. Rohozinski.
    Mr. Rohozinski. Well, as a Canadian citizen, I find myself 
in the funny situation of being asked to advise the U.S. 
Congress when my own parliament has yet to hold a single 
hearing on this particular issue.
    That having been said, let me summarize a few points as 
take-aways. One, I think it's really all about leadership and 
moral courage. We have to recognize the centrality of 
cyberspace to everything that we do. There is no separation 
between domestic policy, in terms of how we choose internally 
to regulate the Internet or provide means for providers in the 
U.S. and how those means will be interpreted and used, whether 
in the OSCE or globally.
    Along with that comes a very important task of recognizing 
cyberspace as a global commons, a global commonwealth that 
requires a joint stewardship. It's not simply about the 
Internet. It's not simply about a domain. It's about something 
which we collectively have to tend to as a global society in 
order to ensure that those flickers of freedom that have 
emerged over the last two decades globally continue to burn 
rather than to wink out into a new era of darkness.
    Three, we need to recognize that there is a basic 
contradiction between the way we are currently addressing the 
insecurity, cybersecurity and the militarization of cyberspace 
and some of the values and principles that this panel has 
raised. There is a cost to maintaining an accessible and open 
Internet. And that may mean being able to absorb the friction 
of the inconvenience of groups like WikiLeaks, which put our 
secrets out for everyone to see, and provide transparency which 
is perhaps slightly more radical than most commercial and 
public bodies are willing to see.
    Three--or, four--in terms of addressing the hammer that one 
of the members of the Commission raised, access to content, 
access to information should be raised as a trade issue, as one 
on limitation of trade. I think that's an avenue for combatting 
censorship, which has not been fully exploited by anyone and 
where the U.S. has a unique position as a major trading partner 
to actually exert some authority.
    Fifthly, governance: We must preserve the multi-stakeholder 
approach to Internet governance. That means ensuring that the 
centralization of governance is not concentrated in 
institutions where values through simple majority vote may 
shift it into a direction which is inimical to the principles 
of freedom and choice that we have enshrined and that we all 
support. Thank you.
    Mr. Milosch. Thank you very much. Mr. Sigal.
    Mr. Sigal. I very strongly support and echo the concept of 
a global commonwealth within the space of Internet and 
cyberspace. I think that the notion that we have the--a 
potential future where all of us are interlinked, connected and 
can actually--can exist whereby any individual in the world can 
talk to, communicate with any other single individual, groups 
of individuals is a vision for a future of a borderless world 
which I'd like to participate in.
    And I think that the legal principles that make that 
possible already exist within the frameworks that we have. In 
making legislation, I would urge that we be careful about 
focusing on today's technologies to the detriment of thinking 
about the future of where our technologies will take us because 
as we've seen, the communications tools and platforms that we 
are using today were tools that we didn't envision 10 years 
ago.
    And we may find that--we know that technology moves faster 
than law, faster than regulation. And we may find that we're 
building systems that aren't able to accommodate--building 
legal systems that aren't able to accommodate the technological 
changes, or worse, that we'll be creating eddies or 
restrictions that force technologies to grow in a way other 
than they would if they were living in unfettered and global 
commonwealth of ideas.
    I'd also like to point out the concept of a free movement 
of ideas and how some of our trade laws and corporate and 
commercial laws potentially act as restrictions to those kinds 
of ideas, whether it's things like the commercialization of 
human biology or the effects of the entertainment industry on 
copyright.
    In the space of a cultural commons and a global 
commonwealth of ideas, innovation comes through the potential 
to have access to other concepts and other communities of 
ideas. And just as the technology has walls, we also have the 
potential to put walls on our culture and walls on our 
concepts. And I would urge that we think very carefully about 
not creating those blockades in the process of responding to 
special interests that may exist in this country or in other 
countries in the OSCE region.
    Lastly, I think that from the U.S. perspective, it's very 
important, again, to lead by example. So we have the potential 
ourselves to create in this country a set of--a basis for an 
open and participatory network of communications. And that, in 
itself, is potentially under threat.
    So we see ongoing discussions about net neutrality, about 
tiered systems for access. I'm not saying that those 
discussions are necessarily clear in terms of what is right or 
what is wrong. In some cases, policy is really unclear as to 
what a best solution is. But the principle should be the 
guiding--the guiding principle that each of us has equal access 
is very, very important to sustain.
    And lastly, as regards international engagement and the 
question of legislation, I think it's very important to look 
closely at the potentially contradictory roles that the State 
Department and Commerce Departments and other kinds--other 
departments and the military as well will play when thinking 
about how we should be shaping the Internet. We aren't 
necessarily, even within the United States government, in 
accord. Thank you.
    Mr. Milosch. Thank you very much. Mr. Lee?
    Dr. Lee. Thank you. I'll say that I think conclusion 
statement that the Chinese people has been waiting for a, like, 
commonwealth of the world for a long time. There have been more 
than 160,000 uprising events in China last year against the 
Chinese communist regime. It's horrifying, you know, in the 
sense that so many people are living in such misery.
    As to the U.S. government, I believe that U.S. has the 
moral authority to lead the world to the land of freedom. And I 
hope that when the U.S. government deal with the communist 
regime in China, they don't forget this role.
    And for--and also, I just want to echo on the--Mr. 
Rohozinski's comments on the people's power because it's often 
the people who can have the right value, the right sense of 
judgment and what is right or wrong to lead world toward 
freedom.
    The ``Quitting the Communist Party'' movement actually has 
led into this direction because, as I mentioned, these 
countries in the--East European countries, mostly they are 
former communist states. The technologization [ph] is extremely 
important in these areas to really have a nice sense of, you 
know, free--what is freedom.
    So I hope that--actually, I want to just mention over here 
that the day before yesterday, the U.S. Senate has introduced a 
Resolution 232, which supports this --[inaudible]--the 
``Quitting the Communist Party'' movement and supports the 
human rights in China. So--[inaudible]--the U.S. government can 
play a great role in supporting these peoples' power and the 
move to the right direction in those dictatorship countries.
    And also, for the global freedom--Internet Freedom 
Consortium, it needs more support because a lot of people know 
they're doing great things, but they left the resource--
actually, that Chris--Mr. Smith asked this question to the 
first panelist already. So I--you know, this is my hope, that 
things--actually, I believe that things will move to the 
direction we want to see. Thank you.
    Mr. Milosch. Thank you very much, Charles. Well, it looks 
like the chairman is not going to make it back before the room 
reservation expires. I would--I would just ask any of you if 
you have some final comment that you'd like to make, some point 
you've not been able to make yet in the hearing?
    If not, then I will thank very much the witnesses for 
coming and to everyone who joined us today. We're adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good morning, and welcome to our witnesses and to everyone joining 
us this morning.
    Sadly, online censorship, surveillance, and the intimidation of 
online speech is not restricted to countries where it's commonly 
reported, like China and Iran. It is increasingly common in member 
states of the Organization for Security and Cooperation in Europe--
broadly speaking, in Europe and the former Soviet Union.
    With this hearing, we seek to draw the world's attention to the 
arrest of bloggers, to the blocking of Web sites, the surveillance and 
intimidation of peaceful political activists, to aggressive denial of 
service attacks, and to violent intimidation by some OSCE member 
states. For example, Belarus is blocking social networking sites as 
Twitter and Facebook and temporarily shutting down opposition Internet 
sites. Turkey is set to require a mandatory, nationwide Internet 
filtering system on August 22--unprecedented in scope in the OSCE 
region and compounding the already aggressive blocking of around 14,000 
Web sites and broad restrictions on content. Kazakhstan, which already 
blocks a number of popular blogs and media sites, is also in the 
process of creating a national Internet, having recently decided that 
all .kz domain names will have to operate on physical servers within 
its borders.
    No less disturbing is the violent intimidation of dissent in 
Russia. Though Russia does not aggressively censor terms or 
significantly block access to information on the Internet, it has its 
own crude but effective methods for controlling the Internet: mafia 
thugs in league with the government beat people and instill fear in 
Russian bloggers and journalists. According to the Committee to Protect 
Journalists, ``Online journalists in Russia and throughout the region--
whose work appears on the 
Russian-language Internet known as the Runet--have faced physical 
intimidation, attacks, and threats for far longer than has been widely 
noted in either Moscow or the West.''
    In a report issued by the Open Net Initiative, the authors (one of 
whom is here with us today), concluded that Internet controls in the 
Commonwealth of Independent States have evolved ``several generations 
ahead'' of those used in other regions of the world. Runet controls are 
not only mirroring past oppression, the authors said, they're 
foreshadowing the future of Internet control worldwide. The prospect of 
the Internet environment deteriorating to that level is frightening, 
and surely is a call to action.
    At the signing of the Helsinki Final Act in 1975, President Ford 
stated that history will judge the signatories, ``not by the promises 
we make, but by the promises we keep.'' This is as true now as it was 
then. All 56 OSCE states have agreed to respect their citizens' human 
rights and fundamental freedoms, including the freedom of expression. 
But some do not do so--and are not only not improving but even 
backsliding. I look forward to a conversation on what we can do to turn 
this around.

Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    Mr. Chairman, the issue under discussion today is of great 
importance, both for the present and the future. The Internet has 
played a critical role in the events we've all witnessed in the past 
few months in North Africa and the Middle East--it has become an 
enabling tool for citizens to seek redress and seek change. When 
governments tried to stop the protests by blocking or, most notably an 
alarming Internet `shutdown' in Egypt, netizens found ways to get 
around the obstacles and got their message to their countrymen, and to 
the world.
    The fundamental reasons behind the protests and the uprisings are 
age-old, but the incredible communication and information tools 
provided by the Internet to combat these problems is brand new. But 
there are worrying trends where we see the incredible promise of the 
Internet being thwarted by government intervention. It has become clear 
that we as citizens and as governments must work to keep these powerful 
tools in the hands of those who want to use it for freedom, not 
suppression.
    So as we discuss oppression on the Internet, I also hope we can 
talk about the solutions--what are the best practices countries and 
citizens can follow to keep the Internet safe for democracy? And how do 
we accomplish that and also keep the Internet secure? From Wikileaks to 
Anonymous, hackers exposed the weak links, both human and technical, in 
our nation's information security web. These incidents beg the 
question, ``how can we maximize our nation's cybersecurity without 
sacrificing our citizens' Internet freedom?'' The reconciliation of 
user privacy with effective cyber-security measures is certainly an 
important question, but I believe they can be complementary. I 
introduced a bill earlier this year, the Cybersecurity and Internet 
Safety Standards Act, which would require our government and the 
private sector to work together to develop minimum safety standards for 
Internet users, with as few restrictions on personal freedom as 
possible.
    Any increase in Internet regulation and security there will follow, 
however small, a decrease in the level of privacy, which imposes a 
responsibility not to abuse the public trust for its own gain on the 
government. As demonstrated in the former CIS countries, the 
government's abuse of its regulatory power for often murkily-defined 
security reasons often serves as a smokescreen for political repression 
and comes at the expense of the rights and freedoms of its citizens. We 
are vigilant against that here in the United States--and must remain 
so--but with any regulation, there is the potential for abuse of the 
public trust. And that is something that we have seen happen in some 
OSCE countries, where governments employ many tactics, both visible and 
covert, to stifle opposition and free speech. These range from 
selectively enforced, ambiguous defamation laws to collection and 
retention of sensitive user information and data to large-scale hacking 
attacks on domestic and international targets. As participating States 
of the OSCE, these governments pledged to uphold a higher standard of 
human rights. Their open neglect of these responsibilities raises 
serious concerns, and I look forward to discussing these with our 
witnesses today.
    I'm particularly pleased with our panel of witnesses today, as many 
of them have contributed significantly to this debate by shedding light 
on some troubling trends, as well as providing solutions for us to 
follow. For example, the OSCE Representative on Freedom of the Media 
has made extensive recommendations on best practices through a system 
of transparent governance in Internet regulation. One of the ways 
identified is to involve competent partners from civil society in order 
to expand the responsibility of regulation and consolidate the diverse, 
high level knowledge and competence required to do so.
    I'm looking forward to hearing her thoughts, and others as well, on 
where we stand today in the OSCE on this issue. Thank you.

 Prepared Testimony of Dr. Daniel Baer, Deputy Assistant Secretary for 
      Democracy, Human Rights and Labor, U.S. Department of State

    Thank you, Mr. Chairman. Distinguished Members of the Commission, I 
appreciate the Commission's affording me the opportunity to address an 
issue with profound implications for the exercise of human rights in 
the OSCE region and across the globe: ensuring a free and open 
Internet. Your focus on this critical subject is emblematic of the 
Commission's strong defense and dedicated promotion of human rights 
principles enshrined at the core of the Helsinki Final Act and UN 
Universal Declaration of Human Rights. States have an enduring 
responsibility to respect these principles and their responsibility 
extends into the Digital Age. In the 21st Century, men and women 
everywhere are increasingly turning to the Internet and other 
connection technologies to exercise their human rights and fundamental 
freedoms.
    I have valued the opportunity to work with Members of this 
Commission and your superb staff. The Commission's efforts greatly 
strengthen my hand and that of Assistant Secretary Michael Posner and 
our colleagues in the State Department as we work with other 
governments, civil society advocates and the private sector to defend 
and advance human rights and democratic government. The defense of 
Internet Freedom is integral to our efforts.
    If I may, Mr. Chairman, first I will describe the Obama 
Administration's global policy of support for Internet Freedom. Then, 
as you have requested, I will highlight key trends and concerns 
regarding a number of countries in the OSCE region. Finally, I will 
describe what we are doing institutionally within the OSCE to ensure 
Internet Freedom.

The U.S. Champions a Rights-Based Approach to Global Internet Freedom

    The United States champions Internet freedom because it derives 
from universal and cherished rights--the freedoms of speech, assembly, 
and association. An open Internet gives people a neutral platform from 
which to express their legitimate aspirations and shape their own 
destiny. We believe that people in every country deserve to be able to 
take part in building a more peaceful, prosperous, and democratic 
society. In the 21st century, technology is a powerful tool with which 
to exercise human rights and fundamental freedoms. In turn, ensuring 
Internet freedom helps create the space for people to use technology to 
``know and act upon'' their rights.
    As Secretary Clinton has emphasized: ``The rights of individuals to 
express their views freely, petition their leaders, worship according 
to their beliefs--these rights are universal, whether they are 
exercised in a public square or on an individual blog. The freedoms to 
assemble and associate also apply in cyberspace. In our time, people 
are as likely to come together to pursue common interests online as in 
a church or a labor hall.''
    As we all know, the Internet and other new technologies are having 
a profound effect on the ability to organize citizen movements around 
the world. And because repressive regimes understand the power of this 
technology, they are redoubling their attempts to control it. It is no 
coincidence that authorities who try to restrict the exercise of 
fundamental freedoms by their people, impede the work of human rights 
defenders and civil society organizations, control the press and 
obstruct the flow of information, tend to be the same authorities who 
try to restrict, impede, control and obstruct their citizens' peaceful 
use of these new connective technologies.
    Governments that respect their citizens have no reason to fear when 
citizens exercise their rights. And governments that respect the rights 
of their citizens have no reason to fear a free Internet. As President 
Obama has said: ``suppressing ideas never succeeds in making them go 
away.''
    Recently, in Vilnius, on the margins of the Community of 
Democracies ministerial meeting, Secretary Clinton and I met with 
activists-including several from the OSCE region--who spoke of the 
surveillance, hacking, and harassment they face every day.
    Mr. Chairman, we are not cyber-utopians who believe that the 
Internet is the magic answer to the world's human rights problems. 
Technology does not change the world; people must. Some governments are 
using advanced technologies to chill free expression, to stifle 
dissent, to identify and arrest dissidents. Through our diplomacy and 
through direct support for embattled activists worldwide, we are 
helping people stay one step ahead of the censors, the hackers, and the 
brutes who beat them up or imprison them for what they say online.
    At the same time, we will continue to speak out about the regimes 
that resort to such behavior. And we will continue to point out that 
cracking down on the Internet only undermines the legitimacy of a 
government in the eyes of its own people--particulary young people. 
Those who have grown up in the Internet age understand how critical it 
is that all people everywhere can join in the global discussion and 
debate. These young ``digital natives'' understand intiuitively the 
dangers of an online world where citizens in one country receive only 
censored information and so form a stilted view of the world. And they 
understand intuitively the need to protect the promise and the 
potential of a truly free and global Internet.
    Around the world, our embassies and missions are working to advance 
internet freedom on the ground. We are building relationships with 
``netizens'' and advocating on behalf of imprisoned and arrested online 
activists. Internet freedom is now a core part of many of our bilateral 
human rights and economic discussions with a broad range of countries. 
Fostering free expression and innovation is a core element of the 
President's International Strategy for Cyberspace, released in May of 
this year. As Secretary Clinton said in the rollout of the strategy, 
cyber issues are a new foreign policy imperative. Accordingly, we are 
integrating Internet freedom into our engagements on the broader range 
of cyber issues.
    Since 2008, the State Department and USAID have committed $50 
million in direct support for activists on the front lines of the 
struggle against Internet repression. By the end of 2011, we will have 
allocated $70 million toward these efforts. Our programming responds to 
the most urgent priorities we hear from activists on the ground--
including embattled democracy and human rights activists from OSCE 
countries. A critical part of our efforts is support for circumvention 
technology, to enable users to get around firewalls erected by 
repressive regimes. But circumvention alone is not enough. Users do not 
just need access to blocked content; they also need to be able to 
communicate safely with each other, to organize, to get their own 
messages out. For this reason, we are funding the development of better 
communication technologies, including secure tools for mobile phones, 
to empower activists to safely organize themselves and publish their 
own material. We are funding trainings on cyber self-defense, to train 
activists in person about the risks they face and how to protect 
themselves online. And we are committing funding to research and 
development, so that we stay ahead of the curve in understanding 
evolving threats to Internet freedom.We also are working with the 
private sector, to define the steps that governments and businesses 
need to take to protect and respect human rights and fundamental 
freedoms at a time when the technology and its implications are 
changing constantly.
    And, through our multilateral diplomacy, we are playing a leading 
role in building a global coalition of governments committed to 
advancing Internet freedom. To that end, we are working at the UN Human 
Rights Council, in UNESCO, in the OECD, and, of course, within the 
OSCE.

OSCE as a Pioneering Regional Platform for Human Rights and Fundamental 
Freedoms in the Digital Age

    Mr. Chairman, as you know, OSCE was the first regional organization 
to recognize that respect for human rights, pluralistic democracy and 
the rule of law are prerequisites for a lasting order of security and 
prosperity. And OSCE was the first regional organization to acknowledge 
the vital importance of civil society. The Helsinki process must 
continue to be a pioneer for human dignity, civil society and 
democratic government in the Digital Age.
    Challenges to Internet freedom in the OSCE region are illustrative 
of the issues we are addressing across the globe in our efforts to 
support an open Internet. Let me now address trends and concerns 
related to Internet Freedom in a number of OSCE participating States:

Belarus

    In mid-2010, Belarusian authorities announced a new legal regime 
designed to restrict freedom of speech on the Internet, and to harass 
and intimidate individuals and organizations to deter them from 
expressing their views through Internet postings, email and websites. 
The law requires all website owners to register with the authorities, 
and further requires them to maintain their sites on the government-
controlled .by domain. Citizens seeking to use the Internet at public 
locations including Internet cafes must present their identity 
documents, and Internet cafes are responsible for maintaining lists of 
users and the websites they visit. Authorities routinely monitor emails 
and Internet traffic, and at times block access to websites linked to 
opposition political parties and independent media groups. On December 
19, 2010, the day of the presidential election, authorities also 
blocked access to popular global sites, including Twitter and Facebook. 
The same day, denial of service attacks led to the disabling of over a 
dozen popular Belarusian independent media websites.
    In recent days, Belarusian citizens have mobilized via the Internet 
to organize a series of ``silent'' protests designed to highlight the 
government's continuing repression, the lack of freedom of speech, and 
the country's deteriorating economic situation. Since June 8, such 
protests--in which participants gather silently and clap their hands--
have taken place in at least 43 cities and towns across the country. 
Authorities have responded by dispersing gatherings via heavy-handed 
tactics and by detaining hundreds of people. Police have ordered the 
closure of at least seven websites, and reports of denial of service 
attacks and spear-phishing attacks have also increased. Finding 
themselves unable to completely suppress free expression via the 
Internet, Belarusian authorities have created their own Twitter 
accounts to threaten protest participants, and have flooded the most 
popular Belarus-focused news feeds with misinformation designed to 
disrupt plans for further protests.
    Yet the protests continue and demonstrators continue to express 
themselves online. Over 216,000 people joined a group on Vkontakte (the 
Russian-language equivalent of Facebook), calling for ``Revolution via 
the social networks'' in Belarus. The page was shut down on July 3, but 
a replacement page gained 20,000 members in two days. Bloggers and 
Internet journalists have continued to post videos of police beatings 
and harassment of peaceful demonstrators on YouTube. During a recent 
public protest on July 3, police reportedly arrested nearly 200 people; 
at least 15 journalists were also detained. During protests on July 13, 
authorities blocked access to Vkontakte for several hours, but hundreds 
of demonstrators still turned out to silently protest in locations 
around Minsk. As Secretary Clinton has made clear, we will continue to 
press for the human rights and democratic aspirations of the Belarusian 
people. And we will continue our staunch support for those struggling 
to make their voices heard both online and in the streets.

The Participating States of Central Asia

    In the Central Asian region, we continue to be concerned by 
governments' efforts to block websites, particularly when information 
or opinions are expressed via the Internet that are critical of 
government officials or policies. Media laws and registration 
requirements are also used to target independent activists and 
dissidents, which does not accord with the commitments that OSCE 
participating States have made to ensure freedom of expression. 
Internet censorship further aggravates the constraints on freedom of 
expression and other fundamental freedoms that impede progress and 
development in the Central Asian states. In order for the Central Asia 
region to prosper, 21st century new media technologies must be 
harnessed to facilitate citizens' vibrant ideas and contributions, not 
governments' repression.
    In Kazakhstan, we have long expressed our concern that the 
Respublika news portal remains inaccessible to users of Kaztelecom, the 
government-owned Internet service provider, along with dozens of other 
independent sites that are intermittently blocked. In Tajikistan too, 
we have seen the blockage of websites disseminating independent or 
critical views. And in Turkmenistan and Uzbekistan, heavy monitoring of 
Internet content and registration requirements continue to impede free 
expression. In Kyrgyzstan, despite an end to official restrictions on, 
or monitoring of, the Internet after the April 2010 change in 
government, we were concerned by the Parliament's recent resolution 
calling for the Fergana.ru site to be banned on grounds that it is 
inciting ethnic hatred. We believe that full respect for freedom of 
expression, including via the Internet, can undergird efforts at 
reconciliation and accountability in Kyrgyzstan.

Russia

    We welcome the Russian President Medvedev's statement at the World 
Economic Forum in January that: ``Any attempts to limit the Internet or 
stifle innovation will lead the world to stagnation. Russia will not 
support initiatives that put Internet freedom in question.'' The spread 
of the Internet undoubtedly has had a positive effect on Russian civil 
society, providing new opportunities for grassroots organizations to 
connect with citizens and new platforms to voice alternative viewpoints 
and hold government accountable. However, problems associated with 
press freedom for print media have begun to migrate to online media as 
well. Russia is one of the countries ``under surveillance'' in the 2010 
Enemies of the Internet report by the Committee to Protect Journalists.
    Even when technical blocks or filtering are not deployed 
systematically, if people are punished physically or through legal 
action for peacefully expressing themselves online, Internet freedom is 
constrained. The threats to Internet freedom in Russia range from 
attacks on bloggers to criminal prosecutions of bloggers for 
`extremism', to the blocking of specific sites by local service 
providers, denial of service (DDOS) attacks on sites site of opposition 
groups or independent media, and attempts by security services and some 
regional authorities to regulate Internet content. For example:
    In November 2010, journalist and blogger Oleg Kashin was brutally 
beaten outside his home in Moscow. Leading human rights organizations 
in Russia connect the attack with material he had published on his 
blog.
    The independent newspaper Novaya Gazetacame under a DDOS attack in 
April, while a wide-scale March DDOS attack on LiveJournal, a blog 
hosting site, began by targeting the blog of prominent anti-corruption 
activist Alexei Navalny. Navalny has also been targeted for prosecution 
for criminal charges alleging that he had facilitated a 2009 bad 
investment for a regional government in his capacity as a legal 
advisor. Rights groups in Russia believe that the charges are 
politically motivated.
    Regional authorities have acted to block sites or prosecute those 
who produce content that they deem politically undesirable. Bloggers in 
Oryol, Marii El, Syktykvar, and other areas of Russia have have faced 
prosecution for posting insults to Prime Minister Putin or other 
official persons in online forums. Local authorities have acted in 
multiple cases to compel local service providers to block certain sites 
that contain materials listed on the Federal List of Extremist 
Materials--a problematic and expanding list of over 700 publications. 
Regional providers have also temporarily blocked sites of the political 
opposition, such as the site of the Solidarity Movement and 
Kasparov.ru, and independent publications like the New Times.
    Whistleblowers also face legal retaliation. For instance, Yuri 
Yegorov, a blogger from Tatarstan and a former employee of the regional 
government, received a 6-month suspended sentence in May for libel 
after he alleged corruption and embezzlement on the part of Tatarstan 
human rights ombudsman Rashit Vagizov. His reports of corruption were 
later supported by other witnesses' testimonies, which were ignored by 
the court.

Turkey

    We are increasingly concerned by the restrictions that the 
Government of Turkey places on Internet freedom. Turkish authorities 
have blocked over 5,000 websites, many with content on sensitive social 
and political issues. Much of this blocking is done in accordance with 
Turkey's 2007 Internet law, which allows the government to prohibit a 
Web site if there is suspicion that the site is committing any of eight 
crimes. These restrictions have been criticized by prominent officials 
within the Turkish government itself, including President Abdullah Gul.
    This year has brought two new proposed restrictions on Internet 
freedom. Turkish authorities announced a new ban on Internet domain 
names that contain 138 words deemed offensive based on vague criteria. 
In addition, the government announced that it planned to introduce a 
nationwide filtering system to be implemented by Internet Service 
Providers. The proposal was met with widespread criticism, from the 
international community and from within Turkish civil society. Although 
some Turkish Internet associations indicate this decision may be 
postponed, yet the regulations are still scheduled to take effect 
August 22. While we understand these restrictions are allegedly 
designed to protect children from harmful content on the Internet, 
banning words in an attempt to eliminate undesirable content from the 
Internet cannot succeed. Major international Internet companies have 
voiced concerns over operating in Turkey under such regulations. If 
Turkey is to ensure a modern, prosperous, and peaceful society, it 
cannot continue to constrain the potential of the Internet for the 
exercise of human rights.

Azerbaijan

    In Azerbaijan, Internet access is not restricted. For example, the 
government does not restrict web sites such as You Tube or Facebook, 
both of which are very popular. The government's release of young 
blogger-activists Adnan Hajizade and Emin Milli last fall and newspaper 
editor Eynulla Fatullayev this spring were positive developments.
    We are concerned, however, that government officials appear to have 
monitored certain types of online activity, including postings on 
social media sites, in order to restrict freedom of assembly, 
specifically the activities of youth and opposition organizers who used 
these sites to organize anti-government demonstrations in March and 
April. Several of these activists--presumably identified from internet 
postings as organizers--were detained or imprisoned following these 
events. For example, youth activists Bakhtiyar Hajiyev and Jabbar 
Savalanli were arrested earlier this year after using the Internet for 
pro-democracy activism. Hajiyev, a candidate in last November's 
parliamentary elections, was detained on draft evasion charges pending 
since 2010 after he was associated with Internet postings related to 
March 2011 protests. International and domestic observers have alleged 
that the authorities prosecute draft evasion selectively, and have 
singled out Hajiyev because of his political activities. He was 
convicted on May 18 of draft evasion and sentenced to two years 
imprisonment. This is not the first time Hajiyev has encountered 
problems with the government after utilizing the Internet for social 
activism; in 2007 the authorities arrested him after he established a 
web site to protest price increases. Savalanli, a young opposition 
Popular Front Party activist, was convicted on May 4 and sentenced to 
two and a half years in prison on drug charges considered to be 
spurious by human rights groups.

Enduring Freedoms, New Apps

    Mr. Chairman, as you know, in the past, the Helsinki process was a 
major international platform for defending citizens expressing 
dissenting views via samizdat and for protesting the jamming of radio 
broadcasts. Two decades ago, in response to efforts by the Ceausescu 
regime to restrict citizens' access to Xerox machines, an explicit 
commitment was included in the OSCE's Copenhagen document pledging that 
``no limitation will be imposed on access to, and use of, means of 
reproducing documents of any kind.'' Today, email, social networking 
and text messaging are new forms of samizdat as well as indispensible 
tools of commerce, education, and global communications.
    As the United States has done since the inception of the Helsinki 
Process, so, too, in this new century, we stand with those in the OSCE 
region who seek to peacefully exercise their fundamental freedoms and 
promote and protect human rights, including via new technologies.
    I commend Lithuania, which has made key themes of its Chairmanship 
media freedom via old and new technologies and the safety of 
journalists. We are particularly grateful for the tireless efforts of 
the OSCE Representative on Freedom of the Media Ms. Dunja Mijatovic and 
her dedicated staff to ensure that fundamental freedoms can be 
exercised via digital media, and I am delighted that she is here with 
us today. Last week, she co-organized with the OSCE Office for 
Democratic Institutions and Human Rights a Supplementary Human 
Dimension Meeting on Promotion of Pluralism in New Media. Her office is 
working on a matrix representing Internet laws and policies in the OSCE 
region to identify and encourage best practices and adherence to OSCE 
commitments on freedom of expression. Additionally, her office provides 
critical training to journalists in Central Asia and the Caucasus, as 
well as legal reviews of OSCE participating States' legislation, to 
advance broader respect for freedom of expression norms. Perhaps most 
critically, Ms. Mijatovic has been a voice for bloggers, journalists 
and other activists who are harassed or imprisoned for their work to 
disseminate independent information that is essential for democratic 
development.
    Mr. Chairman, the Commission has long supported the vital role that 
non-governmental organizations play in the OSCE process. I am pleased 
to say that we are exploring creative ways that we can help connect 
human rights and democracy activists across the OSCE region through new 
technologies in order to enhance their ability to network with one 
another and leverage the contribution of their ideas and insights to 
the work of the OSCE. On her trip to Vilnius last week, Secretary 
Clinton spoke at a ``tech camp'' we organized to help civil society 
groups from the OSCE region and beyond use these new technologies most 
effectively.
    I want also to emphasize, Mr. Chairman, that cyber issues are 
relevant to all three dimensions of the OSCE. As we partner with other 
governments, civil society and the business sector on ways we can 
safeguard against very real cyber security threats, we do so ever 
mindful that the measures we take must be consistent with our human 
dimension commitments to respect the exercise of human rights and 
fundamental freedoms.
    Mr. Chairman, last year, in the run-up to the OSCE Summit in 
Astana, the U.S. advanced language for inclusion in the Summit Action 
Plan stating that the participating States, in fulfillment of their 
longstanding OSCE commitments, will permit their people to peacefully 
exercise their rights to freedom of expression, peaceful assembly and 
association through Digital Age technologies. The language did not aim 
to create new commitments; rather it was designed to reinforce the 
message that existing commitments to respect human rights and 
fundamental freedoms apply in the Digital Age. The language represents 
a conceptual breakthrough in that it recognizes that individuals and 
members of civil society organizations utilize digital technologies not 
only to exercise freedom of expression, but also to connect, network, 
form organizations, and gather in both virtual and real space. The 
language also highlights a key human dimension priority: defending and 
supporting the vital role of civil society in human rights protection 
and democratic development.
    In Astana, our negotiators worked to advance our Digital Age 
language along with highly compatible language from the European Union 
related to freedom of expression.
    As you know, Mr. Chairman, the Astana Summit did not adopt an 
Action Plan. We intend, however, to renew our efforts to advance our 
language on Human Rights and Fundamental Freedoms in the Digital Age 
with a view to its adoption at the OSCE Ministerial in Vilnius this 
December. OSCE's adoption of the Digital Age language would, I believe, 
mark the first time that any regional organization formally recognizes 
that respect for the full range of human rights and fundamental 
freedoms must extend to the use of new technologies.
    The United States will take every opportunity to work with the 
Lithuanian Chair, the EU, other participating States and civil society 
to ensure that the OSCE sends a clear message from Vilnius on Internet 
Freedom. If I were to distill that message into a tweet to the world, 
it would be: ``Enduring Freedoms, New Apps.''
    Mr. Chairman, when he signed the Helsinki Final Act 35 years ago, 
President Ford famously said that: ``History will judge this Conference 
not by what we say here today, but by what we do tomorrow--not by the 
promises we make, but by the promises we keep.'' He was right then, and 
his statement is even more true today. In this Digital Age, keeping our 
promises greatly depends on ensuring that the Internet is open and 
free.
    Thank you, Mr. Chairman. Now I would be happy to answer your 
questions.

                    Biography of Dr. Daniel B. Baer

    Term of Appointment: November 23, 2009 to present

    Daniel Baer was sworn in as a Deputy Assistant Secretary for the 
Bureau of Democracy, Human Rights, and Labor on November 23, 2009.
    Dr. Baer's portfolio for the Bureau of Democracy, Human Rights, and 
Labor includes the Office of East Asian and Pacific Affairs, the Office 
of African Affairs and the Office of Multilateral and Global Affairs.
    Prior to joining the Department of State, Dr. Baer was an Assistant 
Professor of Strategy, Economics, Ethics, and Public Policy at 
Georgetown University's McDonough School of Business, where he taught 
business ethics to MBA and undergraduate students. In 2007-2008 he was 
a Faculty Fellow at the Edmond J. Safra Foundation Center for Ethics at 
Harvard University.
    From 2004-2007, Dr. Baer worked at The Boston Consulting Group 
where he was a Project Leader and provided strategic advice to leaders 
in the corporate, government, and non-profit sectors.
    A Colorado native, Daniel Baer holds doctoral and masters degrees 
in international relations from the University of Oxford, where he was 
a Marshall Scholar. He received his undergraduate degree from Harvard 
University in social studies and African American studies.

Prepared Statement of Dunja Mijatovic, Representative on Freedom of the 
                              Media, OSCE

1. Introduction
    For centuries, the right to be heard has been seen as the 
cornerstone of democracy--it enables other rights to exist. In the age 
of the borderless Internet, the protection of a right to freedom of 
expression ``regardless of frontiers'' takes on new and more powerful 
meaning. The argument for freedom of expression on the web is a double-
edged sword and is a hotly debated issue. On the one side it is 
upholding civil rights and on the other allowing governments and 
censors to question people's own judgment. The Internet, at its best, 
is a cyber experience on every single topic imaginable from personal 
pages detailing the life and thoughts of a school child to 
multinationals promoting their wares online.
    Governments, however, have already begun to impose controls on the 
Internet, threatening the potential of this new medium. As an 
international community of users and providers of information, we are 
at a dramatic turning point. The Internet will change the way people 
live: it offers extraordinary opportunities for enhancing creativity 
and learning, for trading and relating across borders, for safeguarding 
human rights, for realizing democratic values and for strengthening 
pluralism and cultural diversity. The change holds promise and it holds 
challenges. One of the major challenges is to confront ways in which to 
spread access to the Internet so that the whole world can benefit, 
rather than creating gaps between the information rich and information 
poor.
    The individual decides what he/she does not want to see, not the 
authorities. In a modern democratic and civil society, citizens 
themselves should make the decision on what they want to access on the 
Internet; as the right to disseminate and to receive information is a 
basic human right.
    The exploration of cyberspace can be a civilization's truest, most 
challenging and also very controversial calling and adventure. The 
opportunity is now before the mankind to empower every person to pursue 
that opportunity in his or her own way. However, the exploration of 
cyberspace brings both greater opportunity, and, in some ways, more 
difficult challenges, than any previous human adventure.
    The internationally distributed and interactive nature of the 
Internet means that any attempt to deal with the Internet in isolation 
from other countries will be very difficult to accomplish. National 
actions must fit into a pattern of international understanding on the 
best ways in which to deal with Internet content issues.
    The Internet is the fastest growing medium ever. While it took the 
United States, for example, 38 years to reach 50 million radio users 
and 10 years to reach the same number of television viewers, it only 
took 5 years in the case of the Internet. \1\
---------------------------------------------------------------------------
    \1\ Source: Morgan Stanley: The Internet Retailing Report, at: 
http://www.morganstanley.com/institutional/techresearch/pdfs/
inetretail_1997.pdf
---------------------------------------------------------------------------
    We already live in the digital age, a time in which we can create 
truly democratic cultures with participation by all members of society; 
and in only a few years from now this participation will virtually 
include most of the world's citizens.
    It will not be enough to provide citizens, particularly in rural or 
less-developed parts of this world, with a connection and web-
compatible devices. For consumers to become what we now call 
``netizens'' it is indispensible to understand the information, and 
subsequently know how to critically assess, how to process and how to 
contextualize it. The technological advancement in order to reach out 
to all has to go hand-in-hand with education, with programs on media 
literacy and Internet literacy.
    But it remains true, that in our globalized world where education, 
information, personal development, societal advancement and 
interaction, and participation in political decision-making are to a 
great extent realized through the Internet, the right to access the web 
becomes a cornerstone for the fundamental right to freedom of 
expression. The right to seek, receive and impart information not only 
includes the right to access but presupposes it.
    So, despite progress, some challenges and preconditions remain. The 
first one is surely access to the Internet. Without this basic 
requirement, without the means to connect, and without an affordable 
connection, the right to freedom of expression and freedom of the media 
become meaningless in the online world. The second one is restricting 
free flow of information on the Internet. I would even go so far to say 
that the free flow of information is oxygen of cyberspace! Without it 
the Internet becomes a useless tool.
    Why do certain Governments try to block, restrict and filter this 
flow? To protect us from terrorism, extremism, child paedophilia, human 
trafficking and other forms of threats, and make our societies more 
secure? All mentioned are legitimate reasons that should not be 
challenged by anyone.
    But to protect us from criticism, satire, provocative and shocking 
comments, differing views, tasteless and controversial content? For 
that they do not have permission. We as citizens that voted for them 
never asked or obliged them to shape our minds and opinions.
    There is no security without free media and free expression and, no 
free expression and free media without security. These two terms should 
come hand in hand and not fight each other like we see in so many parts 
of the world; and there is no better place to discuss and fight for 
both than in the OSCE. Security and human rights are both at the heart 
of the Helsinki Process and the Astana Commemorative Declaration as 
well as the OSCE principles and commitment that we share. So, why do we 
still struggle and why are we afraid from words? Where dos this fear 
from words comes from?
    The Internet epitomizes the tremendous changes media has undergone 
in the last few decades. Dramatic technological changes have resulted 
in an unprecedented increase in the number of outlets and channels, a 
dramatic reduction of distribution costs and even the emergence of 
entirely new forms of journalism.
    On the other hand, the very same technological changes that are 
manifest on the Internet seem to undermine the traditional ways print 
media use to finance themselves, erode the quality of journalism and 
challenges readers, viewers and listeners to rethink their views on 
what is quality media.
    One requirement however, has not changed, namely the OSCE 
obligation of governments to guarantee freedom of the media.
    It is therefore important to recall the major OSCE Commitments 
regarding pluralism, the free flow of information and the Internet, 
including the Budapest Summit 1994, \2\ the 1999 Charter for European 
Security, \3\ and the OSCE Permanent Council Decision No. 633 of 2004. 
\4\
---------------------------------------------------------------------------
    \2\  At the Budapest Summit in 1994, the participating States 
reaffirmed ``. . .that freedom of expression is a fundamental human 
right and a basic component of a democratic society. In this respect, 
independent and pluralistic media are essential to a free and open 
society and accountable systems of government. They take as their 
guiding principle that they will safeguard this right.''
    \3\ In the 1999 Charter for European Security, the participating 
States reaffirmed ``. . .the importance of independent media and the 
free flow of information as well as the public's access to information. 
We commit ourselves to take all necessary steps to ensure the basic 
conditions for free and independent media and unimpeded transborder and 
intra-State flow of information, which we consider to be an essential 
component of any democratic, free and open society.''
    \4\ In OSCE Permanent Council Decision No. 633 of 2004, explicitly 
including the Internet, the participating States pledged to: ``. . 
.take action to ensure that the Internet remains an open and public 
forum for freedom of opinion and expression, as enshrined in the 
Universal Declaration of Human Rights, and to foster access to the 
Internet both in homes and in schools.'' ``. . .to study the 
effectiveness of laws and other measures regulating Internet content.''
---------------------------------------------------------------------------
    Our common goal of achieving the promises we made should be a free, 
open and safe Internet. Very simply, when services are blocked or 
filtered, users of Internet platforms everywhere cannot be served 
effectively. While many governments have welcomed this trend, some have 
recoiled at the new openness--and are doing their best to make sure 
that the Internet is a restricted space.
    Today, many governments disrupt the free flow of online 
information. Popular tactics include incorporating surveillance tools 
into Internet infrastructure; blocking online services; imposing new, 
secretive regulations; and requiring onerous licensing regimes.
    And with the development of the Internet, some new features never 
considered before, such as blogging and citizen journalism have now 
arisen. With this in mind, let me now give you an overview of the 
situation regarding Internet freedom in the OSCE region.
2. Freedom of the Internet in the OSCE Region
    There are an estimated 2 billion Internet users worldwide, 750 
million of which live in the OSCE region. In order to bring more light 
on Internet regulation across the region, my Office commissioned a 
report by renowned Internet and media lawyer, Professor Yamam Akdeniz 
of Bilgi University in Istanbul.
    This first OSCE-wide study on content regulation was launched on 
July 8 and it revealed, inter alia, the following:

    1) A number of participating States introduced policies which could 
be used to completely ``switch off'' Internet access during times of 
war, in a state of emergency and in response to other security threats. 
Although these countries, Azerbaijan and Bulgaria, for example, have 
not made use of this legislation, it is, nonetheless, a cause for 
concern that these ``Internet kill switch'' laws COULD be used to 
suspend communication services for parts of or entire populations.

    The ``Internet kill switch'' idea was also considered by the United 
States, allowing the president to shut down critical computer systems 
in the event of a national cyber emergency. I welcome the fact that the 
U.S. Senate DID NOT act on the proposed measure.

    2) Some governments already recognize access to the Internet as a 
human right. This trend should be supported as a crucial element of 
media freedom in the 21st century. Access to the Internet remains the 
most important pre-requisite to the right to freedom of expression.

    3) That freedom of expression and freedom of the media principles 
equally apply to Internet-related content is not recognized by most 
participating States. However, laws criminalizing content are 
applicable to all media, including the Internet. Therefore, criminal 
sanctions can be used to regulate online content and conduct. Content 
regulation developed for traditional media can not and should not 
simply be applied to the Internet. While rules and boundaries still 
exist, enforcement of existing laws, rules and regulations to digital 
content becomes evidently complex, problematic and at times difficult 
to enforce.

    4) In several participating States a legal remedy provided for 
allegedly illegal content is removal or deletion of the offending 
material. The new trend in Internet regulation seems to be blocking 
access to content if state authorities are not in a position to reach 
the perpetrators for prosecution or if their request for removal is 
rejected or ignored by foreign law enforcement authorities. In some 
participating States, such as in Belarus and the Russian Federation, 
``prohibited information lists'' exist, allowing blocking if such 
information appears on the Internet. Some countries, including the 
Czech Republic, Moldova, Switzerland and the United Kingdom also have 
developed state-level domain name blocking or seizure policies. State-
level blocking policies undoubtedly have a very strong impact on 
freedom of expression. Participating States should refrain from using 
blocking as a permanent measure, solution or as a means of punishment. 
Indefinite blocking of access to websites and Internet content could 
result to ``prior restraint''. Turkey provides the broadest legal 
measures for blocking access to websites by specifying 11 content-
related crimes. Turkish authorities have not revealed the number of 
websites blocked using this legislation.

    5) There are definitional problems when it comes to terms such as 
``extremism'', ``terrorist propaganda,'' ``harmful content'' and ``hate 
speech''. These terms are vaguely defined and may be widely interpreted 
to ban speech that Internet users may not deem illegal. Clarifications 
are needed to define these terms.

    6) The development of so-called ``three-strikes'' measures to 
combat Internet piracy in a number of participating States is 
worrisome. While the participating States have a legitimate interest in 
combating piracy, restricting or cutting off users' access to the 
Internet is a disproportionate response which is incompatible with OSCE 
commitments on freedom to seek, receive and impart information. 
Participating States should steadfastly refrain from developing or 
adopting measures which could result restricting citizens' access to 
the Internet. Also, an international discussion on whether or not the 
current standards on copyright are up to date in our information 
society might be necessitated.

    7) Network neutrality is an important prerequisite for the Internet 
to be equally accessible and affordable to all. It is, therefore, 
troubling that more than 80% of the participating States do not have 
legal provisions in place to guarantee net neutrality. Finland and 
Norway stand out as best-practice examples with Finland having anchored 
network neutrality in its laws while Norway, together with the industry 
and Internet consumers, developed workable guidelines.

    8) A considerable number of participating States have yet to 
decriminalize defamation. Harsh prison sentences and severe financial 
penalties continue to exist in defamation suits. In the Internet age, 
decriminalization of defamation becomes a prerequisite for free media 
to report without fear of criminal prosecution about issues of public 
importance--beyond national borders and jurisdictions. In countries 
where a free media scene is yet to be established, it is often foreign 
correspondents who assume the watchdog function. If, however, 
journalists face criminal charges for online publications where their 
stories have been read or downloaded, the ability to report freely and 
unhindered will be severely hampered.

    9) Some participating States had problems submitting information 
because applicable regulatory provisions or relevant statistics were 
not easily retrievable. This lack of clarity makes it difficult for 
users and legislators to understand Internet regulation regimes. Often 
information, particularly pertaining to questions on blocking 
statistics, was not available. Sometimes different governmental 
institutions and ministries are responsible for the different aspects 
of the Internet, hence internal co-ordination becomes complicated. 
Almost no participating State had an institutional focal point on 
Internet matters to fall back on. For the purpose of streamlined 
national co-ordination, the avoiding of duplicated or contradicting 
legislation, my Office proposes the introduction of governmentally 
independent national Internet focal points. This might also facilitate 
the maintenance of reliable information and statistics about laws and 
regulations, their implementation and consequences related to freedom 
of the media and the free flow of information.

3. Conclusions

    Blocking access to the Internet or banning certain content has 
proven to be ineffective. Even by trying to establish ``regionalized'' 
networks it will not be possible to gain full control over the 
communication exchanged and information shared on the web. Any attempt 
to hinder the free flow of information, to disproportionally restrict 
the right to free expression, to block dissenting opinions or to 
prevent critical voices from being heard will prove to be short-sighted 
because a free Internet and independent media are a means and not an 
end in itself.
    I hope that the OSCE report on freedom of expression on the 
Internet will serve the OSCE participating States as a valuable 
reference tool in advancing free speech, media freedom, and media 
pluralism online.

Internet as a source of pluralism:

    The level of pluralism in the media is one of the major indicators 
of what the OSCE stands for, namely promoting pluralistic societies 
with democratic decision making processes, which by definition need 
pluralistic views and opinions to be presented freely, especially, but 
not exclusively, during election cycles. In this respect the Internet 
is an achievement and a utility which needs protection, as traditional 
media do. The relevant provisions and international standards, such as 
Article 19 of the UN covenant on Civil and Political Rights, Article 10 
of the European Convention on Human rights and the OSCE Commitments 
regarding freedom of the media are applicable to content on the 
Internet. Often however, we see a trend in the opposite direction, 
which includes targeted and specialized legislation to address and 
restrict content on the Internet.

Access to Internet as a constitutional right:

    Finland and Estonia introduced pioneering legislation which 
established the access to Internet as a constitutional right. In 
France, the constitutional court ruled in a similar way. In order to 
pay tribute to the unique contribution the Internet has given to 
participatory democracy, to freedom of expression and to freedom of the 
media, it is only fitting to enshrine the right to access the Internet 
on exactly that level where such rights belong, as a fundamental right 
with a constitutional rank. Perhaps the time is ripe to turn a new page 
in the history of fundamental rights and establish access to Internet 
as a universal human right.
    It would be promising indeed to see the number grow of OSCE 
participating States which recognize this principle on a constitutional 
level.
    The Internet is a fantastic resource that has fundamentally changed 
our societies for the better. It will continue to have a positive 
impact--if we allow it. The lesson is simple: The Internet must remain 
free.

                      Biography of Dunja Mijatovic

    Dunja Mijatovic of Bosnia and Herzegovina has been appointed as the 
OSCE Representative on Freedom of the Media.on March 11, 2010 
succeeding Miklos Haraszti of Hungary.
    Mijatovic is an expert in media law and regulation. In 1998, as one 
of the founders of the Communications Regulatory Agency of Bosnia and 
Herzegovina, she helped to create a legal and policy framework for 
media in a complex post-war society. She also was involved in 
establishing a self-regulatory Press Council and the first Free Media 
Helpline in South Eastern Europe.
    Mijatovic was appointed Chairperson of the European Platform of 
Regulatory Authorities in 2007, the largest media regulators' network 
in the world. She held this post until her appointment as the 
Representative.
    From 2005 to 2007, she chaired the Council of Europe's Group of 
Specialists on freedom of expression and information in times of 
crisis. In that role, she was instrumental in steering a Declaration on 
the protection and promotion of investigative journalism through the 
Council's Committee of Ministers. She also played a key role in 
developing guidelines on protecting freedom of expression and 
information in times of crisis.
    Mijatovic has written extensively on ``new media'' topics. She also 
has served as a consultant on projects relating to media regulation and 
new technologies in Europe, North Africa and the Middle East.
    She is a graduate of the University of Sarajevo, the University of 
Bologna, University of Sussex and the London School of Economics.

  Prepared Statement of Sec. David J. Kramer, President, Freedom House

    Mr. Chairman, Members of the Commission, it is an honor to appear 
before you today for a very timely discussion on Internet freedom in 
the OSCE Region. As a former member of the Commission myself when I 
served in the State Department as Assistant Secretary for Democracy, 
Human Rights, and Labor, I always appreciate the opportunity to return 
to this Commission and participate in its important work.
    Before delving into today's topic, Mr. Chairman, I'd like to 
commend you for your leadership in securing passage last week by the 
U.S. House of Representatives of the Belarus Democracy and Human Rights 
Act of 2011. This is an extremely important bill that will reinforce 
efforts of the Administration to pressure the Lukashenka regime and 
support the opposition forces and civil society. The role you 
personally have played on Belarus over the past decade, along with a 
number of your colleagues, including Senator Cardin, has been critical 
to showing solidarity with those who are trying to bring about 
democratic change and an end to Europe's last dictatorship. Lukashenka 
is unquestionably on the thinnest ice of his political life, and we may 
be celebrating his departure from power--hopefully sooner rather than 
later. Freedom House could then conceivably move Belarus out of the 
``Not Free'' category that we use to rank countries around the world. 
More on Belarus shortly.
    Mr. Chairman, whether in Belarus or elsewhere in the region, 
Internet freedom, like many other freedoms, is under duress in a number 
of countries. Before the information revolution, regimes in the region 
focused their efforts at maintaining control over television first and 
foremost, but also newspapers, radio, and foreign broadcasting. The 
Internet poses the latest and most promising challenge to break through 
the iron grip that some regimes in the area seek to maintain. By its 
very nature, the free flow of information poses a threat to such 
regimes and challenges the very essence of who they are and how they 
preserve control. Thus, whether via TV before or the Internet today, 
repressive governments show their stripes online or offline; the 
tactics may change, but the intent of such governments remains the 
same. Not surprisingly, countries that rank ``Not Free'' in Freedom 
House's Freedom of the Press 201 report receive similar scores when it 
comes to Internet freedom. Their efforts to control and suppress 
information through more traditional means extend to the newer forms of 
communication as well. At the same time, it is worth noting that in 
most cases, countries, even those ranked ``Not Free'', perform better 
in Internet freedom than in press freedom-at least when we look at the 
actual scores-in large part due to the fact that many governments still 
have not started restricting online content to the same level they do 
traditional media. This is slowly changing, however, and something 
worth keeping an eye on.
    A main difference from the past, however, is that citizens who are 
denied freedom of expression now have new ways to express their 
legitimate rights through the Internet. No longer do dissidents have to 
resort to mimeograph machines or handwritten copies of sensitive 
documents. These days, a modem and keypad will do the job, but one 
should not be complacent about the ability to keep the flow of 
technology free. Indeed, authoritarian regimes are adjusting quickly to 
the new types of communications that are out there. Just because many 
conversations are virtual these days doesn't mean they're free of 
government efforts to control.
    In April, my organization, Freedom House, released its latest 
Freedom on the Net 2011 report assessing the degree of Internet freedom 
in 37 countries in six geographical regions. At a global level, Freedom 
House has worked over the last four years to document the state of 
Internet freedom (our Freedom on the Net reports, among other ways); 
improve access to a wide range of censorship circumvention technologies 
in countries where the Internet is restricted; build indigenous 
capacity to promote and support the use of anti-censorship tools in 
highly repressive environments; provide technology developers with 
ongoing assessment of the performance of anti-censorship tools; and 
advocate to promote and support Internet freedom with national, 
regional and international bodies such as the United Nations.
    In focusing on states of the OSCE region, we see both opportunities 
and challenges for states and citizens in the sphere of Internet 
freedom. Filtering and blocking of political and social content by 
governments are incompatible with freedom of expression and the free 
flow of information, both of which are basic OSCE commitments. Freedom 
House is encouraged by the role of the OSCE in pressing for 
accountability among participating States for upholding commitments on 
freedom of expression in the new media realm. I want to acknowledge the 
very positive and active role of my fellow panelist, Dunja Mijatovic, 
the OSCE Representative on Freedom of the Media. She has done an 
excellent job in raising the profile of media freedom issues broadly--
including with a conference last month in Vilnius, Lithuania on 
protecting journalists that I was privileged to attend--and Internet 
freedom specifically, and it's a pleasure to be with her here this 
morning. I also want to recognize the solid work that Dr. Daniel Baer 
and his colleagues in the State Department's DRL Bureau are doing in 
this area.While much of the world's attention the past few months has 
been focused on the volatile Middle East, citizen activism against 
repressive governments, through the connective power of online media, 
is spreading to the OSCE region. And so let me turn to some specific 
countries and challenges that we face there.

Belarus

    Arguably nowhere more than in Belarus do we see the competing 
efforts of citizens fighting to preserve the openness of the Internet 
to advance the cause of freedom and the government seeking to crack 
down on everything, including the Internet and the free flow of 
information. In recent weeks, Lukashenka's regime has been at a loss to 
stop a growing number of young activists from taking to the streets to 
protest against the country's economic crisis, for which Lukashenka 
deserves full blame, and the Internet is the source for their 
mobilization, with echoes of the Arab Spring reverberating. Over the 
course of the last month, 1,800 have been detained in street protests 
organized via online media (silent ``clapping protests'') namely, 
Facebook and VKontakte.
    Lukashenka has retorted that peaceful demonstrations are meant to 
``sow uncertainty and alarm, to destroy social harmony, and.bring us to 
our knees and bring to naught our hard-won independence.'' What is 
clear is that the people of Belarus are signaling that they have had 
enough of Lukashenka. And he is striking back against these 
increasingly tech-savvy, peaceful, clapping citizens. My money is on 
the citizens in this showdown, and our support should be with them 
unstintingly as well.
    The Belarusian government desires to suppress the free flow of 
information, and the Internet is simply the latest frontier. The 
authorities impose severe restrictions on all news outlets, and the 
security services have increasingly attempted to introduce various 
Internet surveillance technologies. A presidential decree signed in 
February 2010 and subsequent regulations provide a legal basis for 
extensive censorship and monitoring of the Internet. The rules 
concerning using the Internet are quite restrictive. The users who 
access the Internet from home, are subject to regular checks and can 
easily be tracked by IP address. Going online from an Internet cafe one 
must present identity documents. The administration of an Internet cafe 
is obliged to keep the details of the user, along with the information 
about the visited websites, social networks and other online activity 
for a certain period of time; this information can be provided for 
investigation upon request. Internet service providers must also ensure 
state registration of their personal and their client's information 
networks, systems, and resources in order to carry out activities 
inside Belarus. For using wireless Internet (either through buying 
Internet cards or going online from any public place that has free 
wireless network), identification is needed beforehand. These 
mechanisms are deliberately designed to eliminate anonymous use of the 
Internet. Such Internet monitoring and filtering runs counter to OSCE 
norms and commitments.
    Nonetheless, in an effort to diffuse the impact of these latest 
online calls to protest, the government has resorted to a number of 
repressive steps via multiple tools such as spamming online threads 
about protests; misusing hashtags; and creating fake Twitter accounts 
to undermine actual activists. In this last method, pro-government 
bloggers referenced messages on these fake accounts to help spread 
disinformation. But old habits are hard to break, especially when your 
security services are still called the KGB, and so the Belarusian 
regime also relies on its tried and true methods of control by 
harassing the VKontakte administrator and asking for users' passwords 
(during the last month of protests).
    The government's desire to suppress the free flow of information 
was also on display during and immediately following the December 2010 
presidential election: international connections were blocked and users 
couldn't use Facebook, Twitter, or send secure Gmail messages. Fake 
mirror websites were created to divert users from accessing independent 
news sources. Opposition websites and news sites were hijacked.
    While the Belarusian government has promoted the use of the 
Internet for economic purposes--even though Lukashenka has been quoted 
as calling the Internet ``trash''--the impact of the new medium in the 
political sphere remains limited. In fact, the Belarusian Internet is 
monopolized by a governmental provider--Beltelecom, which is 
subsequently re-selling the traffic to other commercial providers. 
Moreover, heightening the challenge digital activists face, according 
to the OpenNet Initiative, 70 percent of all Belarusian Internet 
traffic goes through Russia and is reviewed by the Russian mechanisms 
for ``operational and investigative activities'' (SORM) and 
``authorities for national security.'
    Recent years have seen an increase in Internet use and mobile-
telephone penetration in Belarus. Some 27 percent of the population 
uses the Internet and 93 percent of the population uses mobile phones. 
However, state-imposed and other infrastructural restrictions 
significantly constrain Belarusians' ability to fully access these 
technologies and related applications. Internet costs in Belarus are 
higher than in all neighboring countries
    Online activists and web-based journalists face extralegal 
harassment, mostly in the form of phone calls or intimidating messages. 
Independent civil society is also subject to electronic attacks such as 
distributed denial of service attacks (DDOS). Charter97 suffered a very 
well documented DDOS attack after the 2006 elections. More recently 
they have been subject to a very intense and prolonged DDOS attack over 
the last 3 weeks. However, until 2010, physical attacks were not 
common. For that reason, the death of the founder of Charter97, Aleh 
Byabenin, prompted many questions among his colleagues and fellow 
journalists. Byabenin was found hanged from a stairway at his summer 
home in September 2010. Although the authorities declared his death a 
suicide, most independent sources questioned the official version and 
suspected foul play.
    Belarus is ranked ``Not Free'' in Freedom on the Net 2011; it is 
also ranked ``Not Free'' in Freedom House's Freedom of the Press 2011 
report.

Azerbaijan 

    Although Azerbaijan's Internet usage has increased in recent years, 
authorities have attempted to exercise greater control, particularly in 
the wake of the Arab Spring. The government routinely blocks public 
access to various websites that are critical of the government and 
among the most targeted are the websites of the newspapers published by 
the main opposition parties, as well as the Radio Free Europe/Radio 
Liberty's Azerbaijani service (RFE/RL). It is widely believed that 
surveillance of Internet communication, as well as SMS and phone 
conversations is common practice, as demonstrated in the case of the 
Ministry of National Security's interrogation in 2009 of 43 
Azerbaijanis who voted for the Armenian song in the Eurovision contest. 
Internet restrictions are particularly frequent in the autonomous 
exclave of Nakhchivan, where the most severe restrictions on the 
freedom of speech and freedom of assembly are reportedly imposed by the 
personal order of the chief of the executive authority Vasif Talibov. 
The recent jailing of online youth activists, such as Jabbar Savalan 
(sentenced to 30 months, supported Arab Spring inspired protests) and 
Bakhtiyar Hajiyev (a former parliamentary candidate, sentenced to 2 
years), has a further chilling effect.
    Yet the expansion of the online media is for now mostly limited to 
the capital Baku and a few large cities, in part due to poor 
infrastructure and the cost of Internet access in the country. The vast 
majority of the population is not able to access the web, or has 
service that is so slow it cannot enjoy Web 2.0's potential.
    On June 22, the Azerbaijani Popular Front Party issued a statement 
condemning the restrictions imposed by the government on Internet 
access of key members of the main opposition party over the last three 
months. The Party linked these attempts to the government's concern 
over the increase in political activity. The violations referred to 
include:

    <bullet>  Websites of the main opposition newspapers were 
experiencing several attacks and access restrictions in the recent 
months.
    <bullet>  The personal blog site of Mr. Ali Karimly, the Party's 
chairman, was taken down by a hacker attack; even after it was 
restored, he was unable to add new content, which was claimed to have 
been caused by unknown restrictions imposed on his IP address.
    <bullet>  Later, Internet access to Mr. Karimli's apartment cut off 
for a month under various excuses.
    <bullet>  Three of Mr. Karimli's deputies (Gozal Bayramli, Fuad 
Gahramanli and Razi Nurullayev) also faced Internet restrictions, 
including technical difficulties and reduced speed.

    The government has also tried to suppress their activities in 
social-networking sites. Mr. Gahramanli's Facebook page was hacked and 
is being used to slander the opposition to this day. The Facebook page 
of Natig Adilov, head of Party's press service, has been blocked twice 
in the past few months due to a large number of false complaints/
reports.
    Azerbaijan is ranked ``Partly Free'' in Freedom on the Net 2011; it 
is also ranked ``Not Free'' in Freedom House's Freedom of the Press 
2011 report.
Russia 
    In Russia, the Internet landscape is complicated, like the country. 
Many view Russia as a ``country at risk'' given the likelihood that 
authorities will look to consolidate control over means of 
communication in the lead-up to the December parliamentary and March 
2012 presidential elections. Citizens and bloggers are becoming 
increasingly active online, and so is the government. Since the 
Internet was first launched in Russia, the country has made significant 
gains in the expansion of its information infrastructure. Most Russians 
access the Internet from their homes (94 percent of users) and 
workplaces (48 percent), and use of cybercafes has consequently dropped 
off. Internet access via mobile telephones and similar devices has 
gained popularity since 2006, and 9.4 million people report using this 
method. Faster and more credible than conventional media, online 
outlets are becoming the main information source for a growing number 
of Russians, and certain websites have larger audiences than television 
channels.
    Where traditional forms of media are more actively restricted, the 
Internet in Russia has become a space for relatively free speech and 
discussion. Applications like the social networking site Facebook, the 
Russian social networking site VKontakte, the microblogging platform 
Twitter, and various international blog-hosting services are freely 
available. Unlike, say, in China where Internet control is a repressive 
blanket, in Russia, government leaders are using subtle control methods 
not designed (usually) to prevent the transmission of information but 
instead to shape and control it, often by disseminating propaganda and 
by placing pressure on Internet access providers. Under the ideological 
umbrella of managed democracy, the government is trying to have the 
Internet suit its own purposes. President Medvedev is active as a 
blogger and a tweeter. But there has been on-and-off discussion in 
Russian political and security circles about the need to rein in 
Internet providers. The Internet in Russia is regulated by the Federal 
Service for Monitoring Communications, Information Technology, and Mass 
Communications, whose director is appointed by the Prime Minister. It 
is currently using a tactic that has been effective in spreading a 
climate of fear among print journalists--it publicly goes after a few 
known dissident voices and bloggers. Russian authorities have used 
current laws against ``extremism'' effectively to punish dissenting 
voices, including several bloggers who have been prosecuted under such 
charges, and have checked several opposition news portals for 
``extremist'' content.
    Bloggers have been actively covering the citizen's movement to 
defend the Khimki Forest from damaging construction of a highway that 
would run through the forest. While bloggers were freer in their 
ability to get the word out, they still faced the same repression after 
expression; journalists and bloggers have been assaulted and arrested 
for daring to contradict official interests in the forest. Several 
journalists/bloggers who actively opined on the Khimki Forest issue 
were savagely beaten--Oleg Kashin last November and Mikhail Beketov in 
September 2008--and many more harassed and threatened. Their attacks 
serve as brutal reminders of the dangers bloggers and digital activists 
face from various interest groups, whether it be those in power 
(locally or nationally) or business groups. And yet corruption issues 
have broken through and galvanized citizen action. Blogger Alexey 
Navalny is the most recent and public example: on his blog, he has 
bravely exposed possible corruption in Russian oil companies, banks, 
and government agencies, and he has also launched a site RosPil, 
dedicated to exposing state corruption, where he invites readers to 
review public documents for malfeasance and post their findings. 
Suspicious government contracts, totaling millions, have been annulled, 
as a result of Navalny's efforts. Yandex was forced by the FSB security 
agency to hand over details of contributors to Navalny's website. 
Notwithstanding government pressure, Navalny has persisted in his 
online efforts; in a recent controversial blog, Navalny asked legal 
authorities to investigate the legitimacy of the Russian People's Front 
initiated by Prime Minister Vladimir Putin.
    The Internet has also given voice to those who in the past had not 
had a way to speak out. As is the case in Russia in the online and 
offline world, freedom of expression is still always a dangerous 
endeavor. The case of Aleksei Dymovsky, the Russian police officer who 
triggered a political storm in 2009 by blowing the whistle on rampant 
police corruption through widely viewed videos posted on the Internet, 
is a perfect example. His courage earned him instant dismissal from his 
job, a brief time in jail on fraud charges, as well as threats against 
him and his family. By speaking out, however, he emboldened others to 
do the same in a series of similar Internet postings in which fellow 
law-enforcement officers described how police routinely extort money 
from ordinary Russians. Most whistle-blowers eventually face 
harassment, prosecution, or both. Unfortunately, in the new police law 
which went into effect in March, there is a troubling provision in the 
law banning police officers from discussing their superiors' orders 
publicly or voicing their opinions in the media. It is tough to feel 
hopeful in a country where speaking out rarely leads to an improved 
situation.
    Russia is ranked ``Partly Free'' in Freedom on the Net 2011; it is 
also ranked ``Not Free'' in Freedom House's Freedom of the Press 2011 
report.

Kazakhstan

    Kazakhstan's government has sought to make the Internet a new 
source of economic strength and views it as a vehicle to build the 
country into the information-technology hub of Central Asia. With that 
goal in mind, the government has made modest efforts to liberalize the 
telecommunications sector, promote Internet usage, and enhance the 
Internet portals of state entities. At the same time, the authorities 
also attempt to control citizens' access to information and seemingly 
fear the Internet's democratizing potential. In recent years, the 
government has blocked a popular blog-hosting platform and passed 
several pieces of legislation that restrict free expression online, 
particularly on topics that are deemed threatening to President 
Nursultan Nazarbayev's power and reputation. Opposition blogs and 
websites face particular pressure.
    Even during its stint as OSCE chairman, Kazakhstan did little to 
ameliorate the status of Internet freedom. According to Freedom House's 
most recent Freedom on the Net survey, select Web 2.0 applications have 
been blocked in the country, and the authorities regularly exercise 
substantial political censorship. In an effort to restrict content from 
government critics, state-owned Internet providers blocked the popular 
blogging site LiveJournal in 2008 (it was open again only in November 
2010, a few days before the OSCE summit), while the site Blogger.com 
was restricted throughout much of 2010; in 2011, Kazakh providers 
blocked Wordpress.com, another popular blogging platform. While the 
Kazakh Center of Network Information was originally established as a 
nongovernmental organization to manage the .kz domain, it reportedly 
has 80 percent government ownership and regularly makes politicized 
decisions on registering sites on the domain. In July 2009, President 
Nazarbayev signed amendments that identified all online resources 
(including blogs, forums, Internet shops etc.) as mass media with 
judicial responsibility and blocked all resources that carry content 
that could be used in an ``information war against Kazakhstan.'' Taken 
together with the law that conferred Nazarbayev the status of ``Leader 
of the Nation'' and attached criminal responsibility to public insults 
to the President, these trends have only heightened the level of self-
censorship in the nation. While the ``For a Free Internet'' campaign 
has organized flash mobs, monitored blocked websites, and filed 120 
resultant lawsuits, the operating environment overall and government 
restrictions in Kazakhstan are such that large-scale civic activism on 
Internet freedom is not entirely feasible.
    Kazakhstan is ranked ``Partly Free'' in Freedom on the Net 2011; it 
is also ranked ``Not Free'' in Freedom House's Freedom of the Press 
2011 report.

Turkey

    Internet and mobile-telephone use in Turkey has grown significantly 
in recent years, though access remains a challenge in some parts of the 
country, particularly the southeast. The government had a hands-off 
approach to regulation of the Internet until 2001, but it has since 
taken considerable legal steps to limit access to certain information, 
including some political content. According to various estimates, there 
were over 5,000 blocked websites as of July 2010, spurring street 
demonstrations against Internet censorship. (Note: some estimates are 
much higher but those include pornography sites, not politically 
oriented ones.)
    In the latest public reaction to Internet censorship, tens of 
thousands of people joined nationwide protests in May and June against 
the current regime's decision to introduce a countywide mandatory 
Internet filtering system that will go into effect on August 22, 2011. 
According to a recent study commissioned by the OSCE Office of the 
Representative on Freedom of the Media, if realized this decision will 
lead to the first government controlled and maintained mandatory 
filtering system within the OSCE region.
    In Freedom on the Net 2011, Freedom House notes that government 
censorship of the Internet, including some political content, is 
relatively common in Turkey and is on the rise. The new mandatory 
filtering system follows on the heels of Law No. 5651, widely known as 
the Internet Law of Turkey, which the government enacted in May 2007. 
One troubling provision allows the blocking of websites that contain 
certain types of content, including websites deemed to insult Mustafa 
Kemal Ataturk, modern Turkey's founding father. Domestically hosted 
websites with proscribed content can be taken down, and those based 
abroad can be blocked and filtered through ISPs. The procedures 
surrounding decisions to block websites are nontransparent, creating 
significant challenges for those seeking to appeal.
    Turkey is ranked ``Partly Free'' in Freedom on the Net 2011; it is 
also ranked ``Partly Free'' in Freedom House's Freedom of the Press 
2011 report.

Hungary

    While Freedom House did not include Hungary in its recent Freedom 
on the Net report, it is worth noting that the Hungarian parliament 
passed a controversial media law last year, portions of which (related 
to broadcast media) went into effect on January 1. Other parts (more 
relevant to print and the Internet) went into effect on July 1. The new 
law gives authority to a newly created media agency to impose large 
fines on any media outlet that violates ``public interest, public 
morals, or order,'' all terms that are extremely vague. After an outcry 
from the international community, the law was modified (e.g. online 
media are no longer required by law to provide ``balanced coverage'' 
and very demanding registration requirements were relaxed, among other 
things), but several worrisome and vague provisions remain--all media 
providers need to ``respect human dignity,'' and ``self-gratifying and 
detrimental coverage of persons in humiliating or defenseless 
situations'' is prohibited.
    As a result, just last week, at least one online news outlet 
reported that it was under investigation for offensive comments its 
users posted in the comments portion of its website. This has had a 
chilling effect, and there are several online outlets that have 
subsequently disabled the commenting feature on their website to 
minimize their liability. One challenge is the difficulty among various 
government agencies in interpreting the new law consistently. For 
example, some claim that the law is not applicable to the comments 
section of any website, only to the editorial content. On the other 
hand, others see it differently as evidenced by ongoing investigations.

Recommendations

    <bullet>  This Commission, government officials, activists, and 
others cannot stress enough the message affirmed in the report by OSCE 
Representative on Freedom of the Media Dunja Mijatovic that open access 
to the Internet is a fundamental human right of freedom of expression. 
The Internet, after all, is a space for mobilizing citizen engagement, 
holding governments accountable, and providing and accessing 
independent information.
    <bullet>  The OSCE, led by the Representative on Freedom of the 
Media but with strong support from member states, should continue to 
press all participating States to abide by their commitments on 
fundamental freedoms in the digital age and call out those states that 
fail to comply or go astray.
    <bullet>  We must recognize that technology can also have a 
negative impact on human rights and seek to remedy such negative 
potential.
        <bullet>  Companies should conduct transparent human rights 
        impact assessments to determine how American-made technology 
        can adversely affect the privacy of citizens in countries that 
        severely restrict freedom.
        <bullet>  Congress should follow the lead of the European 
        Parliament in instituting an export control regime of products 
        that have a negative impact on Internet freedom.
    <bullet>  We should also recognize that support for ``firewall 
busting'' anti-censorship technologies needs to be complemented by 
other measures such as:
        <bullet>  Training: recognition of threats, reduce 
        vulnerabilities.
        <bullet>  Urgent Response Mechanisms: To support activists in 
        urgent need humanitarian support needs to be coupled with 
        technology assistance.

    Mr. Chairman, authoritarian regimes around the world are 
coordinating their efforts at cracking down on the Internet, or 
infiltrating it to go after digital activists. They share firewall 
technologies, pose as activists, and threaten to shut down flows of 
information when all else fails. Those of us in the democratic 
community of nations need to do a better job in confronting these 
threats, protecting the fundamental freedom of expression represented 
through open Internet access, and standing in solidarity with those who 
are looking to open space virtually in repressive societies. The 
Internet affords huge opportunities for expanding freedom around the 
world, not least in the OSCE region, but it also needs support and 
protection against such threats. The communications revolution means we 
live in a different world, and supporters of freedom and democracy must 
keep up with these changes better than they have to date and certainly 
better than authoritarian regimes. Thank you.

                      Biography of David J. Kramer

David J. Kramer is President of Freedom House, which he joined in 
October 2010. Prior to joining Freedom House, Kramer was a Senior 
Transatlantic Fellow at the German Marshall Fund of the United States. 
He was an Adjunct Professor at the Elliott School for International 
Affairs at The George Washington University. Before joining GMF, Kramer 
served as Assistant Secretary of State for Democracy, Human Rights, and 
Labor from March 2008 to January 2009. He also was a Deputy Assistant 
Secretary of State for European and Eurasian Affairs, responsible for 
Russia, Ukraine, Moldova and Belarus affairs as well as regional non-
proliferation issues. Previously, he served as a Professional Staff 
Member in the Secretary of State's Office of Policy Planning. Before 
that he served as Senior Advisor to the Under Secretary of State for 
Global Affairs. He also was Executive Director of the U.S. Advisory 
Commission on Public Diplomacy in Washington. Kramer received his M.A. 
in Soviet studies from Harvard University and his B.A. in Soviet 
Studies and Political Science from Tufts University.

 Prepared Statement of Rafal Rohozinski, Senior Scholar, Canada Center 
 for Global Security Studies and the Citizen Lab, University of Toronto

    Chairman, distinguished members of the Commission,
    I'd like to thank the Commission for the opportunity to appear and 
testify at today's hearing, which comes at a particularly important 
moment. The Internet has precipitated perhaps the fastest and largest 
expansion of rights in human history. And yet we are also at a 
constitutive moment--where our actions, and leadership can lead to two 
opposing outcomes. One promises a future of greater freedoms and 
transparency; the other threatens a return to a darker, more 
authoritarian past.
    My name is Rafal Rohozinski, I am a senior scholar at the Canada 
Center for Global Security Studies, and the CEO of the SecDev Group and 
Psiphon Inc. For the past 10 years I've been a Principal Investigator 
of the OpenNet Initiative, a collaborative international research 
project between the University of Toronto, Harvard University, 
Cambridge University, and the SecDev Group, which has studied and 
documented the practice and policy of Internet censorship and 
surveillance worldwide. We have published more than two dozen case 
studies and thematic reports and are in the process of publishing our 
third volume documenting censorship practices in over 70 countries 
worldwide. The OpenNet Initiative has amassed the largest, most 
complete profile of how countries seek to shape access to cyberspace 
using a combination of regulation, repression, and technical means.
    Just over 65 years ago, Winston Churchill warned an American 
audience of the danger of an Iron Curtain falling across Europe--
casting a shadow of authoritarianism and depriving citizens of their 
democratic rights. Churchill spoke in 1946, at a time when the United 
States stood uncontested as a global power. He urged the creation of 
norms and institutions that would safeguard freedom, and actively 
oppose the forces of authoritarianism. For Churchill, the end of World 
War II was a constitutive moment: the choices made by the victorious 
Allies would have enduring consequences for the cause of freedom in 
Europe, and elsewhere.
    Today, we stand at the threshold of a similar constitutive moment 
brought about by a revolution whose long-term consequences we are only 
now starting to grasp. For the past two decades, the emergence of the 
Internet and cyberspace has led to the largest sustained global 
expansion of knowledge, rights, and freedoms. Over a third of all 
humanity is connected to the Internet, and there are almost as many 
cell phones in circulation globally there are people. Significantly, we 
are now seeing the coming-of-age of the ``digital natives'' who have 
grown up knowing only a connected world. Two-thirds of those currently 
accessing cyberspace are under the age of 25, and over 80% use at least 
one form of social media.
    But the numbers do not do justice to the social significance of 
this expansion. This revolution is so pervasive and so all encompassing 
that it's difficult to see just how fundamentally it has changed the 
exercise of individual human rights, how much it has added to the cause 
of basic freedoms, and the ability of all peoples--no matter how 
small--to make their voices heard. We need not look further than the 
Color Revolutions of the Commonwealth of Independent States, or the 
recent Arab Spring, to witness the extraordinary power of the networked 
social movements.
    But the tectonic plates of cyberspace are also shifting. The US--
once the heartland of the Internet--now makes up approximately 13% of 
the global Internet connected population. Europe and the US together 
constitute approximately 40%. The center of gravity is fast shifting to 
the South and East. The consequences of the shift are of direct 
relevance to today's proceedings.
    A Digital Curtain is descending across the globe that threatens to 
reverse the gains made possible through the emergence of the global 
commons of cyberspace. Just over half of the world's Internet-connected 
population live under one form on-line restriction or another, and that 
number is fast rising. Since 2003, when we first documented the 
emergence of the ``Great Firewall'' of China, more than 45 states 
worldwide have adopted similar means for turning the Internet from a 
global commons into a gated community.
    Eurasia, and in particular the states of the former Soviet Union, 
are a petri dish of experimentation in new forms of online repression 
that deprive citizens of the means to demand transparency from their 
leaders, accountability from their governments, and the right to seek 
social and political change.
    These new forms of restrictions, which we have documented as second 
and third generation controls, leverage the ability of governments to 
create restrictive legal environments that attempt to enforce self-
censorship through fear of punishment. They also include the 
application of sophisticated technical means, just-in-time blocking, 
disrupting access to critical information resources at times when they 
are most needed, sowing disinformation, and otherwise manipulating 
information flows--as well as the use of targeted online attacks, 
denial of service, injecting false content, and sophisticated 
information operations turned inwards at the domestic populations. 
These controls are pervasive, but also applied selectively, such as 
during elections, in order to discredit legitimate opposition groups 
and deprive them of the right to free and unfettered speech.
    In Kazakhstan, Uzbekistan, Turkmenistan, Russia, and notably in 
Belarus, these techniques have been used with great success to silence 
opposition groups, driving them and their followers offline. In fact, 
the Internet is subject to some form of control in all post-Soviet 
states. Indeed, the mechanisms for control are getting deeper and more 
coordinated through regional bodies such as the Shanghai Cooperation 
Organization, and the Collective Security Treaty Organization, as well 
as via bilateral cooperation between governments and their security 
services.
    Tragically, perhaps, we are complicit in this growing trend towards 
authoritarianism. Our own fears of cyber insecurity and terrorism make 
it easier for others to appropriate these terms to justify political 
repression.
    The label ``terrorists'' can be applied to anyone inconveniently 
opposed to the political status quo; and calls for changing the 
Internet, introducing greater security, and the ability to identify 
users--helpful in tracking down hackers and cyber criminals--find their 
place in the arsenal of repressive regimes as a means of selectively 
prosecuting human rights activists, journalists, or anyone seeking to 
struggle for social and political reform.
    Our emphasis on harmonizing laws on cybercrime and seeking global 
solutions to cyber security paradoxically makes it difficult to assert 
and demand respect for freedom of expression and access to information 
online.And security is not the only means by which rights can be 
suppressed. Net neutrality, copyright enforcement, and the empowerment 
of telecommunications carriers to ``clean pipes'' are convenient means 
for regimes with less than Democratic tendencies to offload and 
outsource policing and ultimately repression.
    There are no simple solutions to these challenges, only difficult 
trade-offs. To paraphrase the words of the immortal Pogo, ``we have met 
the enemy and he is at least partially us.''
    So what is to be done?
    Future historians will look back at this time and see it as a 
constitutive moment. Before us are some hard choices--but also clear 
norms and ideals that have been core to the Euro Atlantic alliance over 
the past 50 years, and part of our shared cultural and historical 
heritage.
    Leadership comes from the courage to make the hard decisions in 
pursuit of a greater common good. In this respect, a commitment to an 
open global commons of cyberspace is by far the most important far-
reaching objective for the US and its like-minded partners worldwide to 
support.
    Security is an important obligation of the state, but must be 
balanced against preserving the right to dissent, communicate, and act 
online--even if it comes at some costs. This is especially true as the 
new generation of digital natives find their own voice in the online 
world. New forms of protest, whether they come in the form of making 
public confidential information, as in the case of Wikileaks, or 
``hacktavism'' as has been exercised by LulzSec and Anonymous, may be 
the necessary friction for preserving a global norm that enshrines the 
right to seek and access information. We carefully adjust our own laws 
to accommodate some of the new forms of dissent that will emerge. Is 
there a difference between picketing an employer during a labor 
dispute, and making his website and Internet systems inaccessible 
through a denial of service attack? These are important questions and 
we must pause before we consider how to address them, as the rules we 
apply will have repercussions well beyond their own borders. In a 
global world, there is no such thing as a purely domestic policy.
    In specific terms, at the highest level this Commission should 
encourage our European partners to remain committed to a global commons 
of cyberspace.
    <bullet>  Calls such as those put forward by some members of the UN 
to end the multi-stakeholder engagement on the governance cyberspace 
should be strongly resisted.
    <bullet>  Pressure should be applied through bilateral agreements, 
as well as by organizations such as the WTO to ensure that restricted 
access to content is also framed as a trade issue, with consequences 
and sanctions against countries pursuing these practices.
    <bullet>  Access to an uncensored Internet should become a basic 
measure of freedom and democratic progress, and should be made a 
condition for recipients of preferential US trade relationships or 
development assistance;
    <bullet>  Access to political content via the Internet should 
become a central component of monitoring the freedom and fairness of 
national elections--as important as the right to assembly, and 
balloting.
    Preserving the global Internet commons will not be easy, but the 
costs of not doing so are greater. The rise of new superpowers in the 
East is occurring just as the tectonic plates of cyberspace are 
shifting to the same region.
    The historical moment in which we live and which have expanded the 
means for human expression made possible a quest for knowledge, and an 
ability to network and act on a planetary scale--which risks becoming a 
fading chapter in the future where the same technologies enable 
surveillance societies that far exceed those which George Orwell's 1984 
could imagine.
    The future is ours to lose, and as in those March days of 1946 when 
Churchill warned of the Iron Curtain, now is the time for us to 
courageously make choices so that our constitutive moment--the future 
of Cyberspace--furthers, rather than constrains, the universal values 
of dignity, freedom, and the right to choose.

                     Biography of Rafal Rohozinski

    Rafal Rohozinski is one of Canada's thought leaders in the field of 
cybersecurity and Internet freedom. He is the founder and CEO of the 
Secdev Group and Psiphon inc. His work spans two decades and 37 
countries including conflict zones in the CIS, the Middle East, and 
Africa. In 2010 Rafal was named by SC magazine as one of the top five 
IT security luminaries of the year; and ``a person to watch'' by the 
Canadian media. He is known for his work on cyber espionage, including 
coauthorship of the Tracking GhostNet, and Shadows in the Cloud and 
Kookface studies examining Chinese cyber espionage networks and global 
cybercrime. Rafal is a senior scholar at the Canada Center for Global 
Security Studies, Munk School of Global Affairs, University of Toronto, 
and previously served as director of the Advanced Network Research 
Group, Cambridge Security Program, University of Cambridge. He is a 
senior research advisor to the Citizen Lab, and together with Ronald 
Deibert, a founder and principal investigator of the Information 
Warfare Monitor and the Open Net Initiative.
    Rafal is the author of numerous academic and policy papers. His 
recent publications include, ``Stuxnet and the Future of Cyberwar'' 
(Survival, IISS, 2011), ``Liberation vs. Control: The Future of 
Cyberspace'' (Journal of Democracy, 2010),``New Media and the 
Warfighter'' and, ``Strategic utility of cyberspace operations'' (US 
Army War College), and ``Risking Security: Policies and Paradoxes of 
Cyberspace Security'' (International Political Sociology, 2010). His is 
also a lead editor and contributor to Access Denied: the practice and 
policy of global Internet filtering (MIT, 2009), Access Controlled: The 
Shaping of Power, Rights, and Rule in Cyberspace (MIT 2010), and Access 
Contested: Security, Identity, and Resistance in Asian Cyberspace (MIT, 
2011). His forthcoming book (co-authored with Ron Deibert), Ghost in 
the Machine: The Battle for the Future of Cyberspace, will be published 
by McClelland and Stewart in 2012.
    Rafal's commercial ventures are active across the spectrum of 
cyberspace. The SecDev Group provides clients in the governments and 
commercial space with intelligence, toolsets, and investigations that 
inform policy and address risk in the information age. Psiphon inc is a 
leading content delivery network--delivering content and connectivity 
for Voice of America, Radio Farda, Radio Free Asia and the BBC into 
areas and regions where Internet broadcasts are censored or blocked. 
The Secdev Foundation--a Canadian non-for-profit--provides support and 
advanced research capabilities to university, public research and 
advocacy efforts aimed at preserving the global commons of cyberspace.
    Rafal's work and research frequently appears in such publications 
as the New York Times, Washington Post, and the Guardian, and he has 
appeared as a commentator on the BBC World Service, Canadian 
Broadcasting Corporation, CNN, and other international media.

  Prepared Statement of Ivan Sigal, Executive Director, Global Voices

    Chairman Smith, Co-Chairman Cardin, and Commission members, thank 
you for the opportunity to address the Commission, and the topic of 
online freedom of expression in OSCE countries. I am Ivan Sigal, 
Executive Director of Global Voices, a nonprofit organization and 
community of bloggers, writers, and translators from around the world 
who analyze and amplify the most interesting conversations appearing in 
citizen media for global audiences. \1\ Global Voices has a team of 
writers who cover issues of citizen media in Eastern Europe and the 
former Soviet Union. \2\ They are also contributors to and authors of 
several recent research documents that focus on online rights and 
freedom of expression in countries of the former Soviet Union, and 
examine the tactics that governments use to suppress online speech. \3\ 
Additionally, I lived and worked in the former Soviet Union from 1996 
to 2004, primarily working with local media outlets on journalism and 
program production and training, media law and regulation, and media 
sector association building, with the media development organization 
Internews. My testimony is informed both by the work of the Global 
Voices community, and my own experiences.
---------------------------------------------------------------------------
    \1\  http://globalvoicesonline.org/.
    \2\  http://globalvoicesonline.org/-/special/runet-echo/, http://
globalvoicesonline.org/-/world/ eastern-centraleurope/, http://
globalvoicesonline.org/-/world/central-asia-caucasus/.
    \3\  ``Freedom on the Net 2011: Russia,'' Freedom House,http://
www.freedomhouse.org/images/File/FotN/Russia2011.pdf; Rebekah Heacock, 
``Second- and Third-Generation Controls Rise in Russian Cyberspace,'' 
OpenNet Initiative, April 7, 2011, http://opennet.net/blog/2011/04/
second-and-third-generation-controls-rise-russian-cyberspace.
---------------------------------------------------------------------------
    While I am drawing upon work of the Global Voices community, the 
conclusions, analysis, and recommendations are mine alone: Global 
Voices community members hold a diverse range of viewpoints about the 
U.S. government's foreign policy, international organizations, and 
policies of other governments including their own.
    The Global Voices mission reads in part, as follows:

        We believe in free speech: in protecting the right to speak--
        and the right to listen. We believe in universal access to the 
        tools of speech. To that end, we seek to enable everyone who 
        wants to speak to have the means to speak--and everyone who 
        wants to hear that speech, the means to listen to it. Thanks to 
        new tools, speech need no longer be controlled by those who own 
        the means of publishing and distribution, or by governments 
        that would restrict thought and communication. Now, anyone can 
        wield the power of the press. Everyone can tell their stories 
        to the world.\4\
---------------------------------------------------------------------------
    \4\  http://globalvoicesonline.org/about/gv-manifesto/.

    Global Voices seeks to listen to and amplify the voices of many 
people online, without specific advocacy positions on given issues. 
Instead, we support basic principles for speech and access that 
encourage civic participation. These concepts are in line with OSCE 
Charter commitments, as well as with Article XIX of the Universal 
Declaration of Human Rights.
    To that end, ongoing restrictions and suppression of the tools of 
online speech in the OSCE region, the harassment, arrest, and 
imprisonment of individuals for exercising speech rights that are 
protected under OSCE and United Nations obligations, are a matter of 
concern, and a subject of our website's coverage.
    While attacks on mass media in the OSCE region have occurred for 
years, and continue, with this document I am focusing mostly on attacks 
on individuals, citizen media communities, and social media networks. 
These targets have fewer resources, less experience, and face a 
different kind of risk than traditional mass media, which have 
institutional capacity, capital, and organizational standing, which, 
while making them targets, also offers them relatively robust 
protection.
    Recent events have once again highlighted the disregard 
demonstrated by several OSCE member states seem to have for the 
protection of freedom of speech obligations expressed in numerous OSCE 
documents. \5\ Specifically, we have seen restrictions and attacks on 
access to online platforms and social media networks, in response to 
protesters' use of those tools to organize. Prominent recent examples 
include Russia, Kazakhstan, Belarus, and Turkmenistan.
---------------------------------------------------------------------------
    \5\ The OSCE has commissioned an extensive report regarding the 
legal and regulatory environments of OSCE member states by Yaman 
Akdeniz titled ``Freedom of Expression on the Internet'' (http://
www.osce.org/fom/80723) that covers legal and regulatory practices of 
OSCE member states in relation to the following documents: Final Act of 
the Conference on Security and Cooperation in Europe, Helsinki, 1 
August 1975. http://www.osce.org/documents/mcs/1975/08/4044_en.pdf. 
Budapest Summit Declaration, December 21, 1994. http://www.osce.org/mc/
39554. Lisbon Summit Document, December 3, 1996. Official text at 
http://www.osce.org/mc/5869. Charter for European Security, adopted at 
the OSCE Istanbul Summit, November 1999. http://www.osce.org/documents/
mcs/1999/11/4050_en.pdf. OSCE PC.DEC/633 on Promoting Tolerance and 
Media Freedom on the Internet, endorsed by MC.DEC/12/04 at the OSCE 
Ministerial Council in Sofia, 7 December 2004. http://www.osce.org/mc/
23133.
---------------------------------------------------------------------------
    Protesters in Belarus, for instance, in June and July 2011 
organized, documented, and amplified protests using social media 
platforms such as vKontakte. The membership in these vKontake groups 
numbered in the thousands with at least one group with nearly 214,000 
members. \6\ The size of these groups intimated the possibility of mass 
protests in Belarus, in rallies initially set for June 22, 2011.
---------------------------------------------------------------------------
    \6\  Alexey Sidorenko, ``Belarus: Police Crack Down on Minsk 
Protest,'' June 24, 2011, Global Voices Online, http://
globalvoicesonline.org/2011/06/24/belarus-police-crack-down-on-minsk-
protest/.
---------------------------------------------------------------------------
    The response of the Belarus government has been a creative mix of 
hacking and distributed denial of service (DDoS) attacks on vKontake 
groups, disinformation campaigns via videos on YouTube and Twitter, and 
intermittent blocking or slowing of access speeds to popular the social 
network LiveJournal. \7\ Belarus authorities also went online, seeking 
to dissuade group members from participating. The Belarus Ministry of 
the Interior and the Minsk Police Department both launched Twitter 
accounts (@mvd_by, @GUVD_Minsk), which they used to discourage people 
from attending rallies and warning them of potential punishments should 
they appear at protests. \8\
---------------------------------------------------------------------------
    \7\  Alexey Sidorenko, ``Belarus: Independence Day Clapping Protest 
(Video). Global Voices Online, July 6, 2011, http://
globalvoicesonline.org/2011/07/06/belarus-independence-day-clapping-
protest/.
    \8\  Sidorenko, ``Belarus: Police Crack Down on Minsk Protest.'' It 
has been reported that people trying to connect to Vkontakte have been 
redirected by Belarusian Internet service provider BelTelecom to 
websites containing malware. From early May to early June, at least 
seven websites were closed at the behest of the police, which was given 
new prerogatives under a law adopted on 1 March. The journalists who 
continue to be held in prison after covering protests are mostly 
freelancers or reporters working for news websites that the government 
does not register as news media (source: Reporters Without Borders, 
personal communication, July 14, 2011).
---------------------------------------------------------------------------
    This kind of multi-layered response by governments seeking to 
suppress or discredit online speech is increasingly becoming the norm 
in several OSCE member states, particularly in the former Soviet Union. 
While Turkmenistan and Uzbekistan practice extensive filtering, other 
countries such as Kazakhstan, Russia, Belarus, and Azerbaijan implement 
a range of responses that together serve to restrict online access to 
information, participation, and content creation, and monitor and 
surveil online communities. \9\
---------------------------------------------------------------------------
    \9\  OpenNet Initiative, ``Access Denied: Commonwealth of 
Independent States profile,'' accessed July 14, 2011, http://
opennet.net/research/regions/cis.
---------------------------------------------------------------------------
    This mix of tactics of suppression and repression goes back at 
least 10 years. A combination of filtering and hacking of websites, 
physical threats and intimidation, propaganda and defamation, 
burdensome legal and regulatory environments, market manipulation, and 
the use of tertiary legal controls such as tax inspections worked to 
threaten an earlier generation of online content providers.
    It is no secret that many governments in the FSU have gained their 
legitimacy through questionable means. Rigged elections, heavily biased 
and government-controlled media, dependent and corrupt judiciaries, 
opaque and vague laws and regulations, arbitrary implementation of law, 
and extralegal responses to political opponents including violence and 
killing are all too common. This has been true for some countries in 
the region since the fall of the Soviet Union, and has given 
governments a sense of impunity in regard to their behaviors.
    Filtering and hacking of Internet content in the region now has a 
long history. Targeting of individual websites, online publications, or 
individual writers through a range of online and offline tactics is 
also not a new story. The concern is that as internet access grows 
across the FSU, governments will step up their restrictions, targeting 
not just relatively elite communities of writers and opposition 
politicians, but citizens writing and sharing multimedia content on a 
range of user-generated platforms.
    While tactics may change, the overall strategy of mixing the tools 
of repression to achieve various ends remains in place. The ultimate 
goal of this kind of harassing activity seems to be to systematically 
suppress speech and media content that questions the legitimacy of 
those in power, and particularly those who question how power and 
wealth are gained and distributed. It is notable, as well, that some of 
these practices are not restricted to non-democratic regimes. Recent 
mass media laws in Hungary also treat websites as mass media, for 
instance, and Italy's intermediary liability laws also function to 
suppress speech.\10\
---------------------------------------------------------------------------
    \10\  ``An Open Letter from the Hungarian Civil Liberties Union 
(HCLU) to the European Commissioner, Neelie Kroes, regarding the 
Proposed Amendments to the Media Law,'' One Million for Freedom of 
Press in Hungary, March 8, 2011, http://freepress.blog.hu/2011/03/08/.
---------------------------------------------------------------------------
    The tactics employed to suppress speech are varied, and explained 
elsewhere in considerable detail. \11\ A short list of common tactics:
---------------------------------------------------------------------------
    \11\  Access Controlled, The Shaping of Power, Rights, and Rule in 
Cyberspace, Edited by Ronald J. Deibert, John G. Palfrey, Rafal 
Rohozinski and Jonathan Zittrain, April 2010, MIT Press, Cambridge, MA.

---------------------------------------------------------------------------
Legal and regulatory controls

    <bullet>  Media licensing and registration regulations which treat 
websites as mass media, in Russia, Belarus, Kazakhstan, and most 
recently, Hungary and online forums in Russia, which targets social 
media networking sites
    <bullet>  Legal access to data tracking online behavior of users 
and data retention requirements based in security laws such as Russia's 
SORM-II regulations and equivalents in Kazakhstan, Uzbekistan, Ukraine, 
and Belarus
    <bullet>  Legal filtering and blocking of websites and webpages
    <bullet>  Intermediary liability requirements for content on social 
networking, search, and user-generated content websites
    <bullet>  Improper use of laws that restrict ``bad'' speech--hate, 
pornography, support for ``terror'', sometimes used to justify Internet 
filtering \12\
---------------------------------------------------------------------------
    \12\  In June 2011, the Kyrgyz parliament adopted a resolution 
issuing a legally binding instruction to the prosecutor general's 
office, culture ministry and justice ministry to block access to the 
independent online news agency Ferghana (www.ferghananews.com) because 
of its coverage of last year's violence in the south of the country.
---------------------------------------------------------------------------
    <bullet>  Use of intellectual property regulations to restrict 
access to an entire website or type of website
    <bullet>  Lack of due process for protesting blocked or filtered 
content, lack of transparency about reasons for filtering, and lack of 
clarity regarding who is blocked/filtered, and at what level
    <bullet>  Imprecise language within law that leads to overly broad 
application of restrictions, for instance against ``inappropriate'' 
content (Uzbekistan) or threats to ``public order'' (Kazakhstan) and 
lead to self-censorship; lack of recourse or appeals processes
    <bullet>  Secret laws and decrees that govern security agencies, 
and provide permission to filter, block, or slow access to specific 
services and websites.

Pressure on service providers

    <bullet>  Monopolization or state control of Internet Service 
Providers and telecoms
    <bullet>  High tariffs for Internet access
    <bullet>  Pressuring ISPs for data access, mandating expensive 
filtering at the ISP level.

Extralegal responses

    <bullet>  Filtering, blocking, hacking, and pressure on 
intermediaries such as social networking sites
    <bullet>  DoS, data-gathering for surveillance through traffic 
monitoring, spyware, and other unacknowledged tactics for disrupting 
access to or altering content. \13\
---------------------------------------------------------------------------
    \13\  On March 30, 2011, the social networking site LiveJournal 
experienced a sustained DDoS attack. The target of the attack, in the 
opinion of many experts, appears to have been user Alexei Navalny, who 
is also the founder of the anti-corruption web platform Rospil. The 
attack rendered LiveJournal inaccessible on that day, and a second 
attacked achieved the same effect on April 4, 2011. Ashley Cleek: 
``Russia: DDoS Attack on LiveJournal Has Russians Debating Internet 
Politics,'' Global Voices Online, April 6, 2011, http://
globalvoicesonline.org/2011/04/06/russia-ddos-attack-on-livejournal-
has-russians-debating-internetpolitics/.

---------------------------------------------------------------------------
Propaganda, misinformation, disinformation campaigns, harassment

    <bullet>  Competing for influence in online forums, disinformation 
and misinformation on web 2.0 platforms, sometimes through paid 
networks of writers/bloggers or PR agencies
    <bullet>  Defamation, libel, false accusations to damage reputation 
\14\
---------------------------------------------------------------------------
    \14\  Authorities in Russia are harassing bloggers in the country, 
urging them to remove content and threatening them with judicial 
action. The Federal Security Service (FSB) asked the well-known blogger 
Leonid Kaganov, through his hosting company, to remove an anti-Semitic 
poem that he had mocked. Kaganov complied, but replaced the original 
poem with a parody. The FSB reiterated its request. Finally, for fear 
of further conflict with the security services, Kaganov decided to move 
his blog onto a foreign server. (source: Reporters Without Borders, 
personal communication, July 14, 2011). See also Alexey Sidorenko, 
Russia: Famous Sci-Fi Writer's Blog Removed for `Anti-Semitism','' 
Global Voices Online, May 29, 2011, http://globalvoicesonline.org/2011/
05/29/russia-famous-sci-fi-writers-blog-removed-foranti-semitism/.
---------------------------------------------------------------------------
    <bullet>  Harassment by security agencies to suppress speech.

Indirect methods

    <bullet>  Use of alternative governmental agencies to apply 
pressure, such as burdensome tax inspections, access to utilities, 
building code violations, and military conscription \15\
---------------------------------------------------------------------------
    \15\  In May 2011, an Azerbaijani district court sentenced the 
blogger Bakhtiyar Hajiyev, a Harvard graduate and former opposition 
candidate, to two years in prison on a charge of evading military 
service. He believes the trial is politically motivated and linked to 
his online activities. http://supportbakhtiyar.com/.
---------------------------------------------------------------------------
    <bullet>  Physical and psychological pressure, threats to self and 
family
    <bullet>  Violence, destruction of property, arson.

    It is worth noting that the growth of mobile internet access has 
created another set of security, privacy, and information access and 
creation concerns. Mobile phones allow tracking, monitoring, and 
surveillance with relative ease. The fragmentary nature of privacy and 
anonymity controls with phones that allow tracking by location, by 
phone id number, by phone number, and SMS capture, make meaningful 
privacy a challenge in all states. Phone companies in the many 
countries have weak controls or ability to resist requests for data, 
either legally or extralegally

Responses--what OSCE member states and the U.S. government can do 

    The documentation of these abuse tactics is reasonably well 
established, as reports referenced earlier in this document show, 
thanks to activist and freedom of expression watchdog activities. The 
OSCE should continue to support and promote monitoring and 
documentation of member states activities in this sector, both in their 
own work and in the work of civil society watchdog groups. A deeper 
question is the willingness of governments to apply political will to 
create positive incentives for citizens to participate in public 
spheres, pursuing both the letter and the spirit of commitments to OSCE 
rights obligations and Article 19 of the Universal Declaration of Human 
Rights. Those commitments are not just about the economic or scientific 
benefits of increasing Internet penetration, a concept that many FSU 
governments support, but about the political and civic rights of 
citizens. Without politically legitimate and accountable governance, 
the political will to foster those rights is unlikely to appear. To be 
clear--not every government in the former Soviet Union applies 
restrictions on online speech of the same measure or kind--the picture 
is varied across the region, with some countries working to meet their 
OSCE and UN obligations.
    Unfortunately, the tendency of several OSCE member states from the 
former Soviet Union is in the direction of increasing control. A recent 
Commonwealth of Independent States framework law on Internet 
regulation, for instance, ``contradict[s] the principles of online free 
expression and Net Neutrality by encouraging member states to exercise 
excessive control over what is a privileged space for exchanging 
information.'' \16\ This document, intended as a guide for national 
parliaments in creating Internet regulation, seems to breech 
internationally accepted standards promoted by the OSCE in Net 
Neutrality and ISP data retention and access.
---------------------------------------------------------------------------
    \16\  Framework Law No. 36-9 ``On the Bases of Internet 
Regulation,'' ``Internet Regulation Should Not Curtail Freedom of 
Expression,'' Reporters Without Borders, June 15, 2011, http://
en.rsf.org/europe-et-ex-urss-internet-regulation-should-not-15-06-
2011,40463.html.
---------------------------------------------------------------------------
    Responses to the failure of OSCE member states to abide by online 
freedom of speech principles begin with ideas behind the original 
Helsinki accords. Governments should be accountable to their own laws 
and their commitments under international agreements and treaties, and 
use legal, transparent, accountable regulations to manage internet 
access and content restrictions. Some basic principles for removing 
suppression of speech and discouraging self-censorship include:

    <bullet>  If filtering is necessary, place filter systems at the 
level of the user for maximum control; any filtering that goes on 
should be done in a transparent and accountable manner, so that 
citizens know who is responsible for it, how decisions about what is or 
isn't filtered are made, there is a clear process for having such 
systems reversed, and that there are clear political consequences for 
officials who abuse the system, and regulatory consequences for 
companies that abuse it \17\
---------------------------------------------------------------------------
    \17\  Some governments seek to justify filtering in response to 
hate speech, child pornography, and terrorism. Several studies suggest 
that filtering has a limited value in restricting this kind of speech, 
in particular child pornography. See: Cormac Callanan, Marco Gercke, 
Estelle De Marco, and Hein Dries-Ziekenheiner, Internet blocking: 
balancing cybercrime responses in democratic societies Aconite Internet 
Solutions, October 2009, online at: http://www.aconite.com/sites/
default/files/Internet_blocking_and_Democracy.pdf ``Child pornography: 
MEPs doubt effectiveness of blocking web access'' European Parliament 
official website, November 15, 2010, at: http://www.europarl.europa.eu/
en/pressroom/content/20101115IPR94729/html/Child-pornography-MEPsdoubt-
effectiveness-of-blocking-web-access.
---------------------------------------------------------------------------
    <bullet>  Presume that the response to ``bad'' speech is more 
speech, and that restrictions on ``bad'' speech are proportionate and 
focused on specific incidents rather than classes of speech
    <bullet>  Ensure that restrictions and punishments are 
proportionate to the concern (for instance, domain-based filtering that 
also blocks legitimate content rather than the specific target is 
disproportionate)
    <bullet>  Apply laws consistently, without political or economic 
favor
    <bullet>  Avoid prior restraint measures such as indefinite 
enforcement of filtering
    <bullet>  Create clear legal terms for speech that is banned; there 
needs to be clear legal processes to appeal bans or for the overturning 
of bans. Banning must have a clear basis in the consent of the governed 
and must avoid the pitfall of reinforcing tyranny of the majority, and 
should be extremely rare
    <bullet>  Rely on independent courts rather than administrative 
bodies for enforcement
    <bullet>  Preferably, there will be no intermediary liability; if 
needed, clear rules of engagement, and response opportunities to 
requirements
    <bullet>  Encourage or even require corporate transparency with 
users and customers about what sorts of government surveillance and 
censorship demands are being made of them. The Google Transparency 
Report, which lists the number of government requests for hand-over of 
user information or deletion of content, is an excellent model \18\
---------------------------------------------------------------------------
    \18\  http://www.google.com/transparencyreport/.
---------------------------------------------------------------------------
    <bullet>  Do not filter the ISP level for IP issues; intermediary 
filtering of IP-related issues has negative speech freedom 
consequences. \19\
---------------------------------------------------------------------------
    \19\  ``Intermediary Liability: Protecting Internet Platforms for 
Expression and Innovation,'' Center for Democracy and Technology, April 
2010, http://www.cdt.org/files/pdfs/
CDTIntermediary%20Liability_(2010).pdf. Rashmi Rangnath, ``Civil 
Society Walks Away from OECD InternetPolicy Principles,'' Public 
Knowledge Blog, June 29, 2011, http://www.publicknowledge.org/blog/
civilsociety-groups-refuse-endorse-oecd-inte; ``CSISAC Issues Statement 
on OECD Communique on Principles for Internet Policy-making,'' June 29, 
2011, http://csisac.org/CSISAC_PR_06292011.pdf.

    Beyond that, however, there are positive reinforcements that OSCE 
member states can follow, supporting both the letter and the spirit of 
their commitments to speech freedoms. From the perspective of citizen 
interests in online environments, this includes a focus not just on 
access to information, but on the opportunity for online participation, 
creation, and engagement. Online, in networked media environments, 
speech rights precipitate assembly, movement, and all other rights. 
Without the medium of speech, other rights are difficult to assert.
    There has been in the past year an appearance of newly assertive 
civic voices in several OSCE countries that have poor records on 
government legitimacy issues such as free and fair elections, 
corruption, and repressive security regimes. The use of information 
technology tools and platforms that combine data analysis, 
visualization tools, mapping, community participation in reporting and 
mapping, and subject-specific expertise point to the creation of 
projects that are specifically designed to highlight corruption, create 
transparency, or demand governmental accountability. Examples include 
Help Map, which allowed Russian citizens to volunteer information and 
resources to fight fires in the summer of 2010, Roskomvzyatka, a 
crowdsourced map on which citizens can document instances of bribery, 
and Rospil, which crowdsources independent analyses of Russian 
government procurements. These projects show the potential that 
citizens in the former Soviet Union have to find creative solutions to 
their own problems. Such projects demonstrate that drivers of change 
often come from inside repressive environments, and that with greater 
connectivity, opportunities to participate can create meaningful 
change.
    Supporting the continued openness and unfettered nature of the 
internet provides projects such as these with a firm foundations for 
the emergence of creative opportunities for people to express their 
citizenship. The OSCE role is best articulated as asserting that its 
members follow both the letter and the spirit of OSCE obligations.
    The U.S. government role is best articulated as supporting the 
continued openness and unfettered nature of the internet. As a first 
step, the U.S. should consider how its policies on Internet freedom 
will effect local communities that they purport to help. It should 
follow a ``do no harm'' approach that is sensitive to local contexts 
and concerns, and takes into consideration the personal security and 
goals of online activists working in repressive contexts. \20\
---------------------------------------------------------------------------
    \20\  Ivan Sigal, ``Going Local,'' Index on Censorship, Vol 40, No. 
1, 2011, p. 96.
---------------------------------------------------------------------------
    In addition to voicing support for access, advocates should 
consider how to provide multi-faceted, diverse tools and resources that 
help people both to get access to information in restrictive 
environments, and perhaps more importantly, help people to create, 
share, preserve, and build the tools and resources that they need to be 
engaged citizens in their countries. Recent U.S. State Department 
initiatives to support a wide range of tools and education on 
information access creative content in countries that use extensive 
filtering and blocking is an example of the right kind of approach. 
Narrowly focusing resources only on information access to external 
information, on the other hand, downplays the importance of locally 
generated content, information technology tools, the opportunities for 
communities in repressive environments to strengthen their own content 
creation.
    While building tools to help people participate freely online, 
protect identity and privacy, and participate freely in the exchange of 
information and knowledge is useful, it is ultimately not a substitute 
for the application of political will on the part of all OSCE member 
states to foster both legal environments and civic cultures of online 
participation, to ensure that we protect and grow the Internet for 
citizens first, rather than security agencies or corporate interests. 
In this context, the U.S. has the opportunity to lead by example, 
whether in supporting open government data, as with the recent launch 
of the Open Government Partnership; \21\ supporting Internet policy 
principles that represent the interests of citizens as well as 
corporations and governments, in forums such as the OECD; or ensuring 
that its cybersecurity policies do not impinge on the privacy and 
rights of its citizens, as with the ongoing debates over the extension 
of the Communications Assistance to Law Enforcement Act (CALEA) to 
facilitate surveillance. \22\ \23\
---------------------------------------------------------------------------
    \21\  http://www.transparency-initiative.org/news/ogp-launch-
july2011
    \22\ ``CSISAC Issues Statement on OECD Communique on Principles for 
Internet Policy-making.'' See also Milton Mueller, ``Civil Society 
Defects from OECD Policy Principles,'' Internet Governance Project, 
June 28, 2011, http://blog.internetgovernance.org/blog/--archives/2011/
6/28/4847563.html. Full ``Communique on Principles for Internet Policy-
Making'' available at http://www.oecd.org/dataoecd/40/21/48289796.pdf.
    \23\ Greg Nojeim, ``Privacy and Security Are Not a Zero Sum Game,'' 
Center for Democracy & Technology, February 11, 2011, http://
www.cdt.org/blogs/greg-nojeim/privacy-and-security-are-not-zero-sum-
game.
---------------------------------------------------------------------------
    Finally, governments interested in supporting these commitments 
should support information access, but also focus on creative capacity 
and removing barriers to civic participation. As a set of tools to 
respond to restrictive governments, removing both economic and 
political barriers to access is just the beginning. Governments 
interested in meeting the spirit of OSCE intent can offer many positive 
incentives to use and participation. These include:

    <bullet>  Internet infrastructure development
    <bullet>  Tariff pricing schemes that ease access costs in 
underdeveloped regions
    <bullet>  State programs to ensure internet access exists in 
schools, libraries, and other public contexts, and digital media 
literacy opportunities in those same facilities.
    <bullet>  Open government programs to systematically open 
government data to public scrutiny, allowing citizens to understand and 
track the workings of government.

                        Biography of Ivan Sigal

    Ivan Sigal is the Executive Director of Global Voices (http://
globalvoicesonline.org), a non-profit online global citizens' media 
initiative. Previously, as a Senior Fellow at the U.S. Institute of 
Peace, Sigal focused on how increased media and information access and 
participation using new technologies affect conflict-prone areas. He 
spent over ten years working in media development in the former Soviet 
Union and Asia, supporting journalism, media regulatory reform, and 
working on media co-productions. During that time he worked for 
Internews Network, as Regional Director for Asia, Central Asia, and 
Afghanistan. In that capacity he designed and implemented dozens of 
media assistance projects, including helping to create more than thirty 
Afghan-run radio stations and building an independent Afghan radio 
network; a project to provide humanitarian information to victims of 
the 2005 South Asian earthquake in Pakistan-administered Kashmir; a 
post-2004 tsunami humanitarian information radio program in Sri Lanka, 
legal and civil society reporting programs for Chinese journalists, and 
numerous current affairs TV programs for Central Asian audiences. He 
has a masters' degree from the Fletcher School of Law and Diplomacy, 
and an undergraduate degree from Williams College.

                      Biography of Dr. Charles Lee

    Charles Lee is a Harvard educated medical doctor and citizen of the 
United States who suffered mental and physical torture, brainwashing, 
force-feedings and was forced to make products for export to the United 
States while he was illegally held in a labor camp in China from 2003 
to 2006. He currently resides in New Jersey and is married, and has one 
daughter. He is now the spokesperson for the Global Service for 
Quitting the Chinese Communist Party and the spokesperson for the 
Global Mission to Rescue Persecuted Falun Gong Practitioners. He works 
actively to spread the truth about the Falun Gong and to promote the 
movement of quitting the Communist Party and its affiliated 
organizations.
    Charles Lee was born in 1965 in Communist China. When Charles was 
only nine years old, ``anti-revolutionary'' posters showed up at his 
parents' work place. No ``culprit'' was found, and somehow Charles 
became the scapegoat and was labeled a ``young anti-revolutionary 
criminal.''
    In the year of 1982, feeling depressed and frustrated by the manner 
in which his professors taught, Charles started to teach himself and 
promoted self-study research at the university in 1983. Charles then 
began independent research work on campus when he was only 18 and 
published his first research paper in 1986 when he was 21.
    Charles left China in 1991 because he was extremely disappointed by 
the CCP's crackdown on democracy movement in 1989. He came to the 
United States to continue his study in neuroscience. In 1995, Charles 
went to Harvard Medical School and passed the United States medical 
board exams.
    In 1997, Charles came to know the mind/body discipline of Falun 
Gong. He quickly became enamored by its guiding principles of 
``Truthfulness, Compassion, and Forbearance'' and practiced these 
principles wholeheartedly.
    Since 1999, the Chinese communists started a crackdown on Falun 
Gong. Tens of thousands of Falun Gong practitioners were arrested and 
thrown into jails with fabricated crimes. Millions of Falun Gong 
practitioners were stripped of their natural born right to freedom of 
religious practice and freedom of assembly. Many have been tortured to 
death.
    Because there was no way for the Chinese people to know the truth, 
and because the persecution had been going on for such a long time, 
Charles decided to go back to China to reveal the truth of the 
persecution by tapping into the state cable TV system in the year of 
2002. Charles was arrested in October 2002, though he managed to escape 
from the detention center and get back to the United States.
    Since Charles did not finish what he intended to do to clarify the 
truth, he went back again in January 2003, though he was arrested upon 
his plane's arrival.
    In order to justify their unlawful persecution, they used all 
possible means to force Charles to renounce Falun Gong. They designed 
an unrelenting persecution program to keep him under continuous 
physical and mental pressure.
    The inhumanity and cruelty of the persecution conducted by the CCP 
not only manifested in physical and mental torture, but also in its 
total disregard for basic human values. During Charles's imprisonment, 
they used his mother's health condition to apply more mental pressure.
    He understood fully that yielding to the prison's pressures and 
accepting their conditions would be a crime against his own conscious 
and a loss of his very soul. In addition, it would cause tremendous 
humiliation and suffering to both Charles and his mother, so Charles 
refused to cooperate with them. Charles' mother fully understood and 
supported him, but she was never able to visit him or see his release.
    Charles is an American citizen and there were efforts being made 
all around the world by Falun Gong and other human rights organizations 
to protest his unlawful imprisonment and persecution. His finance' kept 
constant contact with the U.S. Embassy and sprung into action 
contacting policy makers and the press. Yet Charles was forced into 
slave labor and suffered vicious persecution in the prison camp. He was 
forced to make ``Homer Simpson'' slippers, Christmas lights, calendars 
and other consumer products exported to the United States. The working 
conditions were so harsh that he became sick frequently.
    The forced brainwashing by the CCP lasted the entire three years. 
Their goal was to replace all Charles's thoughts with their propaganda 
by cutting off all outside information. He was forced to watch 
brainwashing TV programs and listen to readings that slandered Falun 
Gong. They also conducted frequent so-called ``condemnation sessions,'' 
in which he was surrounded by 15 inmates and prison officers who would 
threaten, antagonize, and humiliate him.
    The descriptions above are only a small fraction of what Charles 
experienced in the Chinese Communist forced labor camp. The calculated 
combination of mental and physical abuse he suffered was not carried 
out arbitrarily. The goal was to transform Charles's spiritual belief. 
The reason the Communist Regime is so threatened by those with true 
spiritual and religious beliefs is because it directly challenges their 
forced religion of Communist Party worship onto the people.
    The true nature of the Communist Regime in China has been 
thoroughly exposed in the Epoch Times groundbreaking editorial series 
The Nine Commentaries. As a result, more people are realizing that as 
long as the Chinese Communist Party is in power, it will be impossible 
to truly improve the human rights situation.
    The quitting the CCP ``TuiDang'' movement started then and people 
who have quit the party and its affiliated organizations have reached 
about 98,500,000 recently.
    Charles has been dedicating much of his time raising awareness of 
the persecution on Falun Gong, helping practitioners who are in need, 
and advocating the Tuidang movement since it's the only way for Chinese 
people to break away from the mind control by the CCP and get prepared 
for the future and de-communization.

                                 [all]
                             

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

           *      *      *


This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

           *      *      *

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

           *      *      *
           
http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
